<html>
<title> - S. 1693, THE STOP ENABLING SEX TRAFFICKERS ACT OF 2017</title>
<body><pre>[Senate Hearing 115-590]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-590

                    S. 1693, THE STOP ENABLING SEX 
                        TRAFFICKERS ACT OF 2017

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 19, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]                     


                Available online: http://www.govinfo.gov
                
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-159 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="284f5847684b5d5b5c404d4458064b474506">[email&#160;protected]</a>                                             
                          
                
              
                
                
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 19, 2017...............................     1
Statement of Senator Thune.......................................     1
    Prepared statement of Hon. John McCain, U.S. Senator from 
      Arizona....................................................     3
Statement of Senator Nelson......................................     4
Statement of Senator Blumenthal..................................     8
Statement of Senator Blunt.......................................    38
Statement of Senator Duckworth...................................    39
Statement of Senator Schatz......................................    41
Statement of Senator Hassan......................................    43
Statement of Senator Booker......................................    45
Statement of Senator Cortez Masto................................    47
Statement of Senator Cantwell....................................    49
Statement of Senator Young.......................................    52
Statement of Senator Markey......................................    54
Statement of Senator Sullivan....................................    56
    Report entitled, ``Labor and Sex Trafficking Among Homeless 
      Youth'' by Laura T. Murphy, Anchorage, Alaska..............    57
    Report entitled, ``Labor and Sex Trafficking Among Homeless 
      Youth--A Ten-City Study, Executive Summary'' by Laura T. 
      Murphy.....................................................    65

                               Witnesses

Hon. Rob Portman, U.S. Senator from Ohio.........................     5
Hon. Ron Wyden, U.S. Senator from Oregon.........................     9
Yvonne Ambrose, Mother of Desiree Robinson.......................    12
Hon. Xavier Becerra, Attorney General, State of California.......    14
    Prepared statement...........................................    15
Eric Goldman, Professor, Santa Clara University of Law...........    18
    Prepared statement...........................................    20
Yiota G. Souras, Senior Vice President and General Counsel, The 
  National Center for Missing and Exploited Children.............    25
    Prepared statement...........................................    27
Abigail Slater, General Counsel, Internet Association............    30
    Prepared statement...........................................    32

                                Appendix

Nicole S., Mother of a Child Sex Trafficking Victim, prepared 
  statement......................................................    77
Love146, prepared statement......................................    78
Letter dated July 27, 2017 to Hon. Richard Blumenthal from 
  William J. Johnson, Esq., Executive Director, National 
  Association of Police Organizations, Inc.......................    79
Letter dated August 1, 2017 to Senator Portman and Senator 
  Blumenthal from Shared Hope International; PROTECT; 
  Rights4Girls; National Children's Alliance; 50 Eggs Films; 
  Exodus Cry; and Coalition Against Trafficking in Women (CATW)..    80
Letter dated August 16, 2017 to Hon. Roger Wicker, Hon. Brian 
  Schatz, Hon. Marsha Blackburn and Hon. Michael Doyle from 
  Attorneys Generals from 49 states and territories..............    81
Letter dated August 30 2017 to Senators Portman, Blumenthal and 
  McCaskill from Andy Florance, CEO, CoStar Group, Inc...........    84
Letter dated September 5, 2017 to Hon. Rob Portman and Hon. 
  Richard Blumenthal from Kenneth Glueck, Senior Vice President, 
  Office of the CEO, Oracle......................................    84
Letter dated September 14, 2017 to Hon. Rob Portman and Hon. 
  Richard Blumenthal from Tresa E. Zielinski, DNP, RN, APN-NP, 
  CPNP-PC, President, National Association of Pediatric Nurse 
  Practitioners..................................................    85
Letter dated September 15, 2017 to Hon. Richard Blumenthal from 
  Brian K. Sibley, Sr., Senior Assistant State's Attorney, New 
  Haven State's Attorney's Office................................    86
Letter dated September 18, 2017 to Hon. Richard Blumenthal from 
  Vanessa Sinders, Senior Vice President, American Hotel & 
  Lodging Association............................................    87
Letter dated September 18, 2017 to Hon. Rob Portman from Nathan 
  Diament, Executive Director; and Jerry Wolasky, Chairman, 
  Advocacy; Union of Orthodox Jewish Congregations of America....    88
Letter dated September 18, 2017 to Hon. Rob Portman and Hon. 
  Richard Blumenthal from John F. Schultz, Executive Vice 
  President, General Counsel and Corporate Secretary, Hewlett 
  Packard Enterprise.............................................    88
Letter dated September 18, 2017 to Hon. Rob Portman and Hon. 
  Richard Blumenthal from Richard M. Bates, Senior Vice 
  President, Government Relations, The Walt Disney Company.......    89
Letter of support dated September 18, 2017 to Hon. John Thune and 
  Hon. Bill Nelson from an alliance of survivors of sex 
  traffickers and commercial sexual exploitation.................    89
Response to written questions submitted by Hon. Catherine Cortez 
  Masto to:
    Abigail Slater...............................................    93
    Eric Goldman.................................................    93
    Hon. Xavier Becerra..........................................    94
    Yiota G. Souras..............................................    95

 
         S. 1693, THE STOP ENABLING SEX TRAFFICKERS ACT OF 2017

                              ----------                              


                      TUESDAY, SEPTEMBER 19, 2017

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:30 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Nelson, Schatz, 
Wicker, Cantwell, Blunt, Cortez Masto, Inhofe, Klobuchar, Lee, 
Blumenthal, Cruz, Markey, Fischer, Booker, Udall, Sullivan, 
Heller, Peters, Gardner, Duckworth, Young, Hassan, Capito, and 
Johnson.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Good morning. Thank you for joining us today 
for our hearing on S. 1693, the Stop Enabling Sex Traffickers 
Act of 2017, our second Committee hearing on human trafficking 
this year.
    I'm particularly thankful that we will have the benefit of 
hearing from Yvonne Ambrose, who very courageously will share 
her heartbreaking family story with us.
    We'll also hear from Senators Portman, Blumenthal, and 
Wyden, who will offer their perspectives about the current 
state of the law and the proposed changes.
    We'll then have the opportunity to hear from our panel of 
expert witnesses, who will share their views on this 
legislation, which has garnered significant support, but also 
raised some questions.
    Last month, Senators Portman and Blumenthal introduced the 
Stop Enabling Sex Traffickers Act of 2017 with a bipartisan 
group of more than 20 cosponsors, a number that has grown since 
then, and which includes eight members of this Committee.
    As many already know, this bill would amend Section 230 of 
the Communications Decency Act to enable victims, as well as 
State and Federal law enforcement to bring to justice websites 
that knowingly facilitate sex trafficking.
    Sex trafficking is an evil that affects every community 
across America. I think everyone agrees that more must be done 
to address this horrendous problem. That's why the conversation 
that we're having today is so important.
    As I mentioned, earlier this year, this Committee held a 
hearing to examine ways that our Nation's transportation 
providers and supply chains can fight the growth of sex 
trafficking in the United States and slave labor in the global 
economy. That same week, Senators Klobuchar, Nelson, and I 
introduced two bills to address human trafficking prevention 
and enforcement in transportation. I am proud that both bills 
passed the full Senate last week, and I'm hopeful that the 
House of Representatives will act soon to send these bills to 
the President's desk.
    There is, however, more that can be done. And that brings 
us to the legislation before us today. I want to be clear: the 
website Backpage.com has been the impetus for much of the 
discussion around Section 230, and nearly everyone agrees that 
the website should be held accountable. But this is not the 
``Anti-Backpage.com Act of 2017.'' This legislation is intended 
to address a larger problem, not a specific website.
    Backpage may have suspended its ``adult services'' section 
amid pressure from the Senate Permanent Subcommittee on 
Investigations, but what about the next online haven for such 
activity?
    At the same time, some argue that because we frequently 
know exactly where this sort of activity is taking place 
online, that law enforcement can better monitor it and fight 
it. Such observers caution that if our legislative solution is 
too broad, it could have the opposite of its intended effect.
    Given this challenge, I believe the cooperation of the tech 
industry will be critical to any effective solution this 
Committee and our Senate colleagues might hope to forge. There 
are many positive stories to be told about how Internet 
companies work with law enforcement and victim's rights 
organizations to fight sex trafficking, but I believe that 
these companies, like the rest of us, have an obligation to do 
more.
    I look forward to hearing more from Ms. Abigail Slater, who 
is here today representing the Internet Association, and who 
will tell us more about the specific work the association's 
member companies do, and will do, to fight those who would use 
their platforms for evil.
    We will also hear from California Attorney General Becerra, 
who will offer testimony from his perspective as the chief law 
enforcement officer of the State of California. Attorney 
General Becerra is currently prosecuting a case against 
Backpage.com, and can offer insight into the legal history of 
such cases. He can also speak to the recent request by 50 state 
and territorial attorneys general to be allowed to enforce 
their respective criminal laws pertaining to sex trafficking in 
this arena.
    Ms. Souras is here today representing the National Center 
for Missing and Exploited Children, which serves as the 
national clearinghouse for reports relating to child sex 
trafficking, and as the coordinator of the national response to 
problems relating to missing and exploited children.
    Finally, Mr. Goldman is a law professor at the Santa Clara 
University School of Law, who has devoted much of his 
professional life to analyzing laws and their impact on the 
Internet, and will be able to speak about the potential legal 
consequences of the proposed changes contemplated by this 
legislation.
    I want to thank all of you for being here and for the 
advocacy and work that you're engaged in. These are issues that 
are often difficult to discuss, but I believe that this 
Committee provides an appropriate venue for serious 
consideration of difficult matters, and I appreciate your 
participation in our discussion.
    Finally, before I turn to Ranking Member Nelson for his 
opening statement, I just want to acknowledge that our 
colleague Senator McCain had also hoped to join us today, given 
his long leadership on efforts to combat human trafficking, but 
he had an unavoidable conflict at the Armed Services Committee, 
which he chairs. Without objection, Senator McCain's statement 
will be included in the record.
    [The information referred to follows:]

   Prepared Statement of Hon. John McCain, U.S. Senator From Arizona
    I would like to thank Chairman Thune and Ranking Member Nelson for 
allowing this hearing to take place today and all my colleagues for 
their bipartisan support in standing up against human trafficking. I 
would also like to thank Senator Portman not only for his leadership on 
this important issue, but also for defending the vital role of Congress 
in addressing the victimization and exploitation of children through 
human trafficking.
    Congress has a duty to defend the Constitution of the United States 
and to uphold the principles for which it stands. We also have a duty 
to eliminate all forms of modern-day slavery and human trafficking. 
These are appalling crimes that target the most vulnerable individuals 
in our society and undermine human dignity and the most basic of human 
rights. Sadly, the problem of trafficking is far more severe than most 
people realize as it is understated in law enforcement data. I commend 
the Committee for its leadership in proceeding with a hearing on the 
Stop Enabling Sex Traffickers Act of 2017.
    The National Center for Missing and Exploited Children (NCMEC) 
recorded an 846 percent increase in reports of suspected child sex 
trafficking from 2010-2015, a spike the organization found to be 
``directly correlated to the increased use of the Internet to sell 
children for sex.'' We are dealing with a $150 billion illicit industry 
in the United States, one in which few perpetrators face appropriate 
punishment. According to attorneys general and judges across the 
country, it will take an act of Congress for victims to obtain justice 
for the crimes committed by sites like Backpage.com, which facilitate 
child exploitation with impunity due to the immunity Internet service 
providers (ISP) receive from Section 230 of the Communications Decency 
Act.
    Last month, the Superior Court of Sacramento County granted a 
motion to dismiss pimping charges against Backpage.com in the The 
People of the State of California vs. Carl Ferrer, Michael Lacey, and 
James Larkin. Superior Court Judge Lawrence Brown dismissed these 
charges against Backpage.com executives Carl Ferrer and Michael Lacey, 
explaining that ``If and until Congress sees fit to amend the immunity 
law, the broad reach of section 230 of the Communications Decency Act 
even applies to those alleged to support the exploitation of others by 
human trafficking.'' It is clear that until Congress acts, we will 
continue to hear horrifying stories of children being bought and sold 
for sexual abuse on websites like Backpage.com.
    I would like to thank Yvonne Ambrose for her courageous testimony. 
Her family's tragic story serves as a reminder that our work on this 
issue must continue. I would also like to thank my wife, Cindy McCain, 
for her tireless efforts in this field and to those organizations that 
have come forward to support the Stop Enabling Sex Trafficking Act of 
2017. Your contribution is vitally important.
    I am proud to cosponsor the Stop Enabling Sex Traffickers Act of 
2017, which would amend Section 230 of the Communications Decency Act 
to allow victims of sex trafficking to seek justice against websites 
that knowingly or recklessly facilitate their victimization. The 
legislation would criminalize commercial activity that assists, 
supports, or facilitates a violation of Federal sex trafficking laws 
and enables state law enforcement officials--not just the Department of 
Justice--to take action against individuals or businesses that violate 
Federal sex trafficking laws.
    We know that Backpage.com is a market leader in commercial sex 
advertising and that the website has been linked to hundreds of human 
trafficking cases. We cannot allow these heinous crimes to go 
unprosecuted. It is our duty as members of Congress to work tirelessly 
to combat human trafficking and aid the victims of this monstrous 
crime. I will continue to work vigorously with my friends from both 
sides of the aisle on this very important issue. Thank you.

    The Chairman. And I would note, however, that we're honored 
to have Mrs. Cindy McCain in our audience today, along with a 
number of distinguished guests, including Senator Heitkamp.
    With that, I will now turn to Senator Nelson for his 
opening statement.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    As we have this hearing today, there is an untold number of 
women and children in the U.S. that are being sold at this 
moment, into sexual slavery via the Internet. In just using a 
few clicks, victims from all walks of life and all parts of the 
country are being forced to endure brutal and unspeakable 
crimes. Let me repeat: women and children are being forced into 
sex slavery in modern-day America, and it could very well 
happen to someone that you know.
    Now, if that's not a wakeup call, then I don't know what 
is. And, sadly, it's the truth that my fellow Floridians 
tragically know all too well. According to the Human 
Trafficking Hotline, Florida ranks third in the country for the 
number of cases reported last year. The question before us 
today is simple: Why aren't we doing everything we can to stop 
this heinous practice? After all, we're talking about modern-
day slavery, and our children are the ones that are at risk.
    The bill we have before us today would help us shut down 
despicable websites that promote sexual trafficking. Don't kid 
ourselves, these shady and highly profitable website operators 
know full well how their sites are being used. What's more, 
they're hiding behind a decades-old legal shield in Federal 
communications law to immunize themselves from prosecution.
    This bill, by the two Senators here and a host of others 
that the Chairman mentioned, would eliminate this safe harbor 
for sex traffickers and allow state attorneys general and other 
state and local prosecutors and victims to go after the 
websites that knowingly provide a platform for sex trafficking. 
It would not, as some claim, take a sledgehammer to the 
Internet.
    We've got to take a stand. Rather, instead of a 
sledgehammer, it takes a common sense, responsible, and 
targeted approach, one that the courts tell us that we can take 
to limit the scope of the current law and help end the scourge 
of child sex trafficking on the Internet.
    And while some stakeholders have concerns about this bill, 
I strongly believe that we cannot sit idly by any longer while 
the websites aid and abet child sex traffickers. The cost of 
inaction is way too high.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Nelson.
    As Senator Nelson mentioned, we're joined today by two of 
our colleagues in the Senate, and the lead sponsors of the 
SESTA legislation, and so we're very privileged to welcome 
Senators Portman and Blumenthal. Senator Blumenthal, of course, 
is a member of this Committee. We look forward to hearing from 
each of you about your legislation. I'll start on my left, and 
your right, with Senator Portman and Senator Blumenthal.
    Senator Portman, welcome.

                STATEMENT OF HON. ROB PORTMAN, 
                     U.S. SENATOR FROM OHIO

    Senator Portman. Thank you, Senator Thune. I appreciate 
your holding this hearing and your personal commitment and 
Senator Nelson's personal commitment to combating this horrific 
crime of sex trafficking.
    I want to thank my colleagues around the panel, many of you 
who have stepped up early on and cosponsored legislation and 
played a critical role in us getting to this point. You know, 
we have passed legislation. Senator Thune has been part of that 
over the years. This Congress has done more in the last few 
years on sex trafficking than we have in our history, but the 
reality is it's on the increase, and it's for one reason, 
according to all the experts, and that's online sale of girls, 
children, women. We've got to face that reality and deal with 
it.
    And again I appreciate the fact that you're having the 
opportunity to hear not just from us--and I appreciate my 
colleague being here, Senator Blumenthal and I are cofounders 
of the Caucus on Trafficking, and we're partners in this 
effort--but you're going to hear from victims, too, as I 
understand it. I think Yvonne Ambrose is here, and Yvonne is 
going to talk about her tragic personal story, and it's 
heartbreaking. And as a father of three, and I see many parents 
around the panel here today and behind us, it's unimaginable 
this would be going on in the 21st century.
    So again thank you to all the witnesses, but particularly 
Yvonne for showing the courage to come forward and talk about 
the horror that she has experienced and sharing that story with 
us.
    This increase in sex trafficking is a stain on our national 
character. It is. The fact that it's going on in this country 
at this time. Based on the information we've received from law 
enforcement--and law enforcement, by the way, is strongly 
behind this legislation. As you know, they have endorsed it 
across the board, the district attorneys, U.S. attorneys, and 
the FOP, but they tell us the increase is real and that it's 
primarily based on this increase on the Internet.
    By the way, the tech community does not deny that. For 
example, a Google executive wrote an op-ed earlier this spring 
saying, quote, ``Technology's role in human trafficking cannot 
be ignored, as the example of Backpage demonstrates. The sad 
reality is that three out of four child sex trafficking victims 
in the United States have been exploited online, and predators 
often make their first connections to victims on the 
Internet.'' This is a Google executive. I believe Google wants 
to fight back against trafficking, and I think she's right.
    I see this reality myself as I visit with survivors, and 
I'm sure all of you have had this experience back home in 
talking to victims and survivors. Repeatedly, they tell you the 
same thing, the trafficking is on Backpage. Usually drugs are 
involved as well.
    As traffickers have told me, or sex trafficking victims 
have told me, and, you know, this comes from probably a half 
dozen different victims, the same thing, which is that, 
``Senator, this has moved from the street corner or the street 
to the smart phone.'' That's where it's moved, and that's where 
there is this ruthless efficiency.
    Last month, I spoke to some victims in Youngstown, Ohio, 
and, of course, Backpage came up because they said that's how 
they were trafficked. A young woman told me she was first sold 
on Backpage at age 9. She told me tearfully that her father 
would take her from city to city for major sporting events and 
sell her up to 20 times a day. Ruthlessly efficient.
    With Ranking Member Claire McCaskill, the Permanent 
Subcommittee on Investigations, which I chair, has spent the 
last couple of years investigating Backpage. We took a deep 
dive. We found, unfortunately, that the website is far more 
complicit in these crimes than anyone previously thought. We 
were able to show Backpage was actively and knowingly involved 
in illegal sex trafficking, and it covered up evidence of its 
crimes in order to increase its profits.
    Thank you, every member of this panel, for voting with us 
to hold them in contempt when they refused to testify. When 
they refused to provide information, we took it all the way to 
the Supreme Court. Thanks to the Senate, for the first time in 
21 years, holding a private actor in contempt of Congress, and 
we were successful in getting a million documents that showed 
clearly that they were actively and knowingly involved in 
illegal sex trafficking.
    Despite these facts, efforts by trafficking survivors and 
law enforcement to hold Backpage accountable have failed 
repeatedly. Why? Because courts around the country have ruled 
that Backpage has brought immunity under a Federal law, the 
Communications Decency Act. It's a 1996 law that has not kept 
up with the times. When Congress enacted the law, I do not 
believe it intended to shield anyone for responsibility for 
serious Federal crimes, much less sex trafficking. Looking at 
the legislative history, I believe the goal was to protect 
website operators who were acting in good faith, and that made 
sense, who lacked knowledge that third parties were posting 
harmful or illegal content on their sites.
    We all believe in free speech. I think everyone on this 
panel believes that we ought to have Internet freedom, but the 
Communications Decency Act was never intended to protect those 
that engage in illegal conduct, and it was certainly never 
intended to protect online predators and sex traffickers. In 
fact, nothing in the original text of this law suggests that 
there should be an all-encompassing immunity for websites like 
Backpage that knowingly engage in sex trafficking.
    Judges across the country, by the way, have made it clear 
that it is Congress' responsibility to fix this law. They have 
invited us to fix this law. Last year, the First Circuit Court 
of Appeals recognized Backpage's role in the horrific crime of 
sex trafficking, but the court ruled that its hands were tied 
stating the remedy is through legislation, not litigation.
    And just last month, a court in Sacramento threw out 
pimping charges against Backpage because of the Communications 
Decency Act. That court made an even more obvious call to 
Congress stating, quote, ``If and until Congress sees fit to 
amend the immunity law, the broad reach of Section 230 of the 
Communications Decency Act even applies to those alleged to 
support the exploitation of others by human trafficking.''
    It's up to us. Because of this interpretation of the law 
over the last 20 years, only the Congress can fix this 
injustice. That's why we've introduced this legislation. It's 
bipartisan. It's common sense. It's targeted. It's called the 
Stop Enabling Sex Traffickers Act. It would do just two things. 
First, it would allow sex trafficking victims to get the 
justice they deserve against websites that knowingly, 
knowingly, facilitate sex trafficking against them. Second, it 
would allow state and local law enforcement to prosecute such 
websites that violate Federal sex trafficking laws. I know 
Xavier Becerra, Attorney General of California, is going to 
talk about this.
    This knowing standard, by the way, in our legislation is a 
high bar, as the lawyers around this panel know. They have to 
be proven to have knowingly facilitated, supported, or assisted 
in online sex trafficking to be liable in the first place. 
Because the standard is so high, our bill protects good tech 
actors and targets rogue online traffickers like Backpage.
    Our bill also preserves the Good Samaritan provision in the 
law that protects good actors who proactively screen for 
offensive material. I believe Google, Facebook, and other 
legitimate websites do that, and they should have that Good 
Samaritan protection, and that's in the law.
    Support is growing for the legislation. As I mentioned, 
we've got lots of support from the law enforcement community, 
also dozens of survivor groups, some are here today, anti-
trafficking coalitions, faith-based groups.
    We appreciate the encouragement from some prominent members 
of the tech community, by the way. Oracle has endorsed the 
legislation. 21st Century Fox endorsed it last week. Just 
yesterday, Hewlett Packard Enterprise endorsed the legislation, 
as did Walt Disney Company. They've all joined in this mission 
to stop this criminal sex trafficking online.
    Fifty attorneys general from across the United States 
recently urged Congress to support this legislation. Again, 
we'll hear from California Attorney General, our former 
colleague, Xavier Becerra.
    But let me say this, the fact that instances of human 
trafficking and sex trafficking are actually increasing in this 
country in this century is an outrage. It's a disgrace. And I 
believe history is going to judge us on how we respond to it.
    Silicon Valley, Mr. Chairman, holds itself out as being 
more than just another industry, but, rather, a movement to 
make the world a better place. In so many ways the Internet has 
contributed positively to our world, but the selling of human 
beings online is the dark side of the Internet. It can't be the 
cost of doing business, and it doesn't make the world a better 
place.
    And there's something we can do about it. This legislation 
will help. This Committee can act to stop criminal sex 
trafficking online.
    Thank you for allowing me to testify today, Mr. Chairman.
    The Chairman. Thank you, Senator Portman.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks very much, Mr. Chairman. Thanks 
to you and the Ranking Member for bringing us together today on 
this very important subject. And I want to thank both of you 
for your personal commitment to action on this important topic.
    And I also want to thank Senator McCain. I just left him at 
the Armed Services Committee, which he chairs, and there's a 
very important hearing going on there now, so I know he will 
try to be here if he can. But Cindy McCain is with us today, 
and she has been a tireless and tenacious advocate on this 
subject, so I want to thank her as well.
    I particularly want to thank our colleagues, nearly a third 
of the Senate, many members of this Committee, who have 
cosponsored this bill. Senator Hassan and Senator Duckworth 
have just cosponsored it, joining Senator Nelson, Senators 
Klobuchar, Blunt, Sullivan, Cruz, Lee, and Capito. And I want 
to thank others who have not yet joined it. We are talking very 
diligently with Senator Harris, for example, as well as Senator 
Cortez Masto, Senator Booker, Senator Schatz, others who are 
helping us to clarify and make this legislation even more 
precise. And I look forward to continuing our work with this 
group to make sure that the language achieves our goal without 
any unintended or unforeseen consequences.
    And I want to finally join the survivors who are with us 
today, Yvonne Ambrose. We are here in large part because of 
three incredibly courageous young women. These three women were 
each 15 years old when they were first sold for sex. They were 
sold invisibly, but in plain sight. The ads that sold them used 
coded language to indicate that they were, in fact, underage. 
Over the course of roughly 4 years, they were raped thousands 
of times.
    In 2014, these three young women had the courage to go to 
court. They brought a lawsuit against Backpage for facilitating 
sex trafficking. The First Circuit reviewed their case, and as 
Senator Portman has said, they called this an outrage. They 
used that word, ``outrage,'' but they said that there were no 
remedies, there were no legal claims that could be recognized 
in court because of this section in the law, Section 230 of the 
Communications Decency Act. Nothing could be done for them.
    The court in effect said to us, the Congress of the United 
States, You made this mess, now fix it. These women are in a 
legal black hole without justice. Congress must fix it. That's 
why we're here.
    This problem is hardly new or novel. My efforts against sex 
trafficking in fact began almost a decade ago, exactly this 
problem, when I led a coalition of 39 states investigating the 
online classified company Craigslist for facilitating and 
profiting from sex trafficking. In 2010, Craigslist voluntarily 
took down its adult services section. We won the battle, but 
the war was far from won.
    As purchasers of sex moved away from Craigslist, they went 
to Backpage.com. In fact, the National Center for Missing and 
Exploited Children, which I should note is represented here 
today, reported an 846 percent increase in reports of suspected 
sex trafficking between 2010 and 2015. In other words, after 
Craigslist settled, there was an 846 percent increase in sex 
trafficking over those 5 years, and it was directly correlated 
to the increased use of the Internet to sell children for sex.
    In 2016 alone, the National Human Trafficking Hotline 
received 5,551 reports of sex trafficking incidents. Shutting 
down one website is not enough. Shutting down Backpage, even if 
it would occur, is not enough. We need to pass this measure. If 
we fail to do so, if we fail to close this gap and fill this 
legal black hole, we become complicit.
    And those numbers, by the way, underestimate this problem. 
Think of it for a moment. Those reports require the same 
courage that these young women demonstrated to come forward and 
brave the stigma and shame of acknowledging that they have been 
sold for sex.
    So when the critics of this legislation say there will be a 
deluge of lawsuits, that there will be frivolous or unfounded 
claims, think of it for a moment. Survivors have to come 
forward and establish their standing under the law by making 
the case that they have been sold for sex. There will be no 
deluge of frivolous lawsuits as a result of this measure.
    It's time to say, ``No more.'' Congress must stop allowing 
websites to promote and profit from sex trafficking. Senator 
Portman has outlined the provisions of this bill. They are 
narrowly targeted and carefully crafted. We are working to make 
them even clearer and more precise to avoid unintended 
consequences.
    I understand that some of the companies may wish to 
continue the shield from liability that they have. Companies 
rarely welcome additional legal accountability. I understand 
that point. But this is about social and moral responsibility 
as well as giving survivors and victims a day in court. It is 
time to open the courthouse doors to victims of sex trafficking 
who have been sold into slavery as a result of ads that right 
now can enjoy absolute immunity for sites that knowingly 
facilitate, support, or assist--knowingly facilitate, support, 
or assist. It's a high bar. These companies should be compelled 
to meet it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Blumenthal. And again 
thank you to both you and Senator Portman and the cosponsors of 
your legislation for your strong advocacy and for the 
conversations that you have entered into with members of this 
Committee and others in the Senate to try and make sure that we 
get this right. But certainly we all recognize the need to act, 
and we appreciate your leadership on this. Thank you for being 
here.
    I will now recognize another colleague of ours, Senator 
Wyden, the great State of Oregon. And we appreciate you, 
Senator Wyden, being here and sharing your perspective.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you very much, Mr. Chairman, and 
Senator Nelson. And I also come as an alum of this Committee, 
and as one of the coauthors of Section 230 of the 
Communications Decency Act.
    Numerous experts obviously have pointed out that Section 
230 was absolutely necessary to bring our legal system into the 
21st century. It has been the legal foundation for the growth 
of the Internet, particularly in areas like education, jobs, 
and a platform for free speech around the world, and I believe 
it ought to be kept intact.
    Now, when I wrote Section 230 more than 20 years ago, it 
was in recognition of the fact that the Internet was just going 
to change everything, the way we interact with each other, the 
way we do business. It would change virtually every corner of 
our lives and our society. And we understood that no amount of 
legislation and political bloviating could stop the change, but 
we could influence how it came about.
    And the key question, Mr. Chairman and colleagues, was, 
Would there be an Internet dominated by private networks with 
the worst impulses of human beings going on in impenetrable 
dark corners, or would the Internet be a platform open to the 
world where such impulses would be exposed to sunlight and the 
law? That's why we made it crystal clear that absolutely 
nothing in the 230 statute protects against violation of 
Federal criminal law, and, more importantly, nothing in the 
statute protects individuals from the full force of the law 
when they commit and leave evidence of their crimes online.
    The Net has exposed much about human behavior that we might 
prefer to remain hidden. It's exposed much that many, 
particularly those in law enforcement, already knew about, but 
it's exposed them. And the question now is--and you've touched 
on this, Mr. Chairman--is, How do you respond? Do we react like 
politicians, mindlessly bludgeoning deep pockets, driving away 
innovation, and utterly failing to stop the worst behavior, but 
simply just drive it underground? Or does the Congress react 
with resolution and purpose, providing law enforcement with the 
resources to effectively attack this horrible scourge that is 
far older than the Internet and we end up actually aiding the 
victims of this horrendous crime?
    So the issues to be addressed are not whether to eliminate 
the freedom that makes the Net a place of innovation and 
opportunity; the issue is how to address, how to identify, and 
lock up these horrible criminals who use the Net, as they've 
abused a thousand tools before them, to create victims and 
destroy lives. If law enforcement needs more resources, 
colleagues, or the tools to crack down in crime-laden Internet 
neighborhoods like Backpage, let's give them what they've got 
to have, and that includes a change in law to hold responsible 
those who might cynically design to profit from illegal 
behavior under the guise of providing a legal service.
    And I have fought alongside many of you on this panel, in 
this Senate, to end sex trafficking at home and abroad and 
support survivors of trafficking by getting those resources to 
the key enforcement officials who are on the front lines to 
fight this modern-day slavery. And I'm going to continue to do 
whatever it takes to provide strong protections and bring 
support to survivors to stop this kind of exploitation.
    Mr. Chairman and colleagues, I take a back seat to no one, 
no one, in this Senate in the fight against sex trafficking. 
That's a matter of public record. I just believe that the 
legislation being considered today is the wrong answer to an 
important question. It wasn't very long ago that Members of the 
Congress were calling the Net a series of tubes. When it comes 
to legislation, we've had the most success when protecting 
Americans' rights and protecting incumbent industries from 
smothering the innovators.
    Now, I don't think anybody on the Committee today says, 
``Hey, let's undermine this thing that created a trillion 
dollars' worth of economic value.'' That is part of the 
question being considered today. America may have played the 
biggest role in creating the Net, but important to the 
discussion today, the barriers to entry are very, very low.
    The reason another nation with more people, including more 
computer users, like China or India, that had a functioning 
interactive network before us, like, say, France, have failed 
to dominate the Net is our foundation of Internet laws that 
kept lawyers and politicians and tax collectors from hobbling 
innovation and hobbling growth. Those forces never give up, and 
I'm sad to say they're at work right now.
    When I helped author Section 230, I didn't know all the 
effects it would have, but I did know three things.
    First--and I'll wrap up with this, Mr. Chairman--I wanted 
to help the gutsy startup by allowing them to hire engineers 
and developers and designers before they went out and hired a 
team of lawyers.
    Second, I wanted to protect good actors by allowing them to 
take down some material without being liable for everything. I 
think we all can agree that's a better scenario than having 
websites hide their heads in the sand.
    And, third, it was absolutely essential to me, my bottom 
line, is making sure that bad actors would still be subject to 
Federal law. People who commit crimes can and ought to be 
prosecuted, whether they're online or whether they're on a 
street corner. Protecting that startup from discriminatory 
state law is vital, but it is equally important to make sure 
criminals of all kinds are held accountable.
    So as you consider making changes to Section 230, I hope 
you keep looking out for that person we were talking about 20 
years ago, the little guy, the person who has taken a big risk. 
Technology has been important for the last 20 years, and we 
need to make sure that we have policies like Section 230 in 
place to make sure it stays that way.
    And I think this Committee, in its tradition, has always 
been to pursue the regular order when it considers changes. And 
I look forward to having the opportunity to talk with you, our 
friend Senator Nelson, all of our colleagues, as this debate 
goes forward.
    The Chairman. Thank you, Senator Wyden.
    I want to thank our colleagues all for being here this 
morning and inform everybody that a vote has been called. And 
so we're going to keep rolling here, and we'll try and figure 
out a way to juggle the chairs so that we can continue to hear 
from the people that are here.
    And I want to invite up now to share her very personal 
experience with this, Ms. Yvonne Ambrose. And she'll be next.
    Ms. Ambrose, welcome to the Committee. Thank you for your 
willingness to share your personal story with us. We look 
forward to hearing from you.

                 STATEMENT OF YVONNE AMBROSE, 
                   MOTHER OF DESIREE ROBINSON

    Ms. Ambrose. Thank you so much, Senator Thune and Ranking 
Member Nelson and members of the Committee for holding this 
hearing today and inviting me to come and testify.
    When you have your first child, it changes your life. You 
become a different person. Your whole world revolves around 
them. You get butterflies every time you kiss their little 
feet, every time you hold their hand. Their smile brightens 
your whole life. Your life revolves around this person, and you 
would give them the world if you could. You think you will have 
forever with them, so you start planning for their future.
    My daughter, Desiree Robinson, was born March 29, 2000, at 
2:52 p.m. She was the light of my life, my firstborn, my only 
daughter, my heart, my world. And Desiree made me a better 
person because she was a beautiful person. She had the 
brightest smile that could light up a room. And with your 
permission, I would like to share a photo of her with the 
Committee.
    During her grammar school years, she made friends 
everywhere she went, whether it was on vacation, at school, at 
church, the Boys and Girls Club, or walking around the mall. 
Everyone wanted to be her friend. She was loved by all, and 
everyone she encountered, she loved as well. She was a bright 
student, great athlete, and took joy in helping others. 
Throughout grammar school, she won numerous awards for her 
academics, citizenship, athletics, and volunteered within the 
community.
    Desiree had dreams of one day becoming a physician in the 
U.S. Air Force. She attended Air Force Academy High School on 
the South Side of Chicago with hopes of graduating and going to 
captains school in Colorado to help further her dream. Her 
future was very bright.
    Desiree was a good person who just wanted to be loved and 
accepted by all. Desiree struggled in the last year of her 
life. She was bullied for her diverse racial background, and 
always tried to fit in with her friends, like a lot of other 
teenagers. She knew she was loved by her family and friends, 
but she looked for love and acceptance anywhere she could find 
it. She was only 16 years old and just wanted to make friends. 
We now know that adult men found Desiree on social media, 
reached out to her, pressured her, and used her to make money. 
She was preyed on and sold online by pimps who took advantage 
of her. Desiree didn't know what Backpage.com was or the harm 
that would come from this website.
    On December 23, 2016, a 32-year-old man by the name of 
Antonio Rosales was looking through Backpage.com for a child to 
have sex with, just like countless others before him. They knew 
that this is a website that they could go to, to engage in sex 
with minors. He knew Backpage.com was a site to go to in order 
to find young underage girls to have sex with. During his 
search, he came upon a picture of my 16-year-old daughter under 
the posting, ``New girl in town looking to have fun,'' which 
was posted by her pimp. Desiree was driven to Antonio's 
residence by the pimp with the intent of having sex with this 
32-year-old man, a man twice her age.
    This was the last night of my daughter's life, and her 
pictures were posted and moderated by Backpage.com, and this 
was the reason for her demise. On Christmas Eve, December 24, 
2016, Desiree, my baby, was brutally murdered, and now my life 
has changed forever. She had been beaten, raped, strangled, and 
if that wasn't bad enough, he slit her throat, all because she 
said, no, she didn't want to do this again. She screamed for 
help, and there was no one around to help her.
    Desiree's death should have never happened. The sex 
trafficking of minors should not be happening in our country. 
Taking advantage of our children on the Internet has become 
such a common thing in this country that people turn the other 
cheek just because they don't want to believe it's actually 
happening right here in our backyards. This is not a race, 
gender, or economic problem; this is a people problem, a human 
problem.
    If there were stricter rules in place for postings on these 
websites, my child would still be alive with me today. The 
truth is Backpage.com and other sites are making millions of 
dollars by exploiting our children and allowing them to be 
taken advantage of by predators. If we don't speak up now, 
these websites will continue to profit off trafficking our 
babies. It could be your child, your niece, your nephew, your 
cousins, your friends' children next if you don't stop this.
    The tragic death of my baby girl made me take a step back 
and think about her life. She was a good person, a good 
student, and had a great personality. She gave her all to make 
sure that people were happy. She even had a tattoo on her arm 
that said, ``Be the change that you would like to see in the 
world.''
    The day my baby was taken away from me was the worst day of 
my life. The hurt and pain that my family continues to endure 
is unimaginable. I struggle to believe that a loving and 
talented girl such as Desiree is gone from this earth because 
an Act such as 230 allowed the Internet to exploit her. And 
now, Section 230 is standing in the way of justice for my child 
and other Jane Does out there like her. Backpage.com and other 
companies like this must be held responsible for what they have 
created. I'm sure when this Act was put into place in 1996, the 
Internet was in its infancy, and it was not intended to allow 
companies to legally sell children on the Internet, but somehow 
a dollar has become more important than a human life. If you're 
going to fix this problem, fix it.
    I was suppose to make this transition from this Earth 
before her. Parents are not supposed to bury their children. 
All of the plans that we made together for her life will never 
happen. I would not wish this pain and hurt on my worst enemy, 
and I pray that Desiree's life can make a difference so no one 
else has to ever endure this pain again.
    I'm asking you, the U.S. Senate, to amend Section 230 and 
be the change you want to see in this world, not only for the 
justice for Desiree, but for all the countless Jane Does out 
here and the other little girls to come who don't have a voice. 
We have to be the change now to protect our babies from 
websites like Backpage.com that open the door for predators 
without any accountability.
    My name is Yvonne Ambrose. I am the mother of the late 
Desiree Robinson, and I'm asking you, the U.S. Senate, to 
change Section 230, and support the bipartisan legislation, the 
Stop Enabling Sex Traffickers Act, not only for my baby, but 
for the protection of yours and others to come.
    The Chairman. Thank you, Ms. Ambrose, for sharing in a very 
compelling and powerful way and helping personalize the issue 
that we're dealing with for all of us here on this Committee 
this morning. Thank you for being here.
    Ms. Ambrose. Thank you.
    The Chairman. I want to invite our next panel to come 
forward. We have the Attorney General of California, Mr. Xavier 
Becerra.
    Xavier, welcome.
    Mr. Eric Goldman is Professor of Law at Santa Clara 
University School of Law. And Ms. Abigail Slater, who is 
General Counsel at the Internet Association. And Ms. Yiota 
Soros--Souras I should I say.
    So we want to welcome all of you to the panel and thank you 
in advance for the testimony that you're going to share with 
us. And we will start on my left, and your right, with Attorney 
General Becerra, and we'll proceed from there. And if you can, 
as much as possible, confine your oral remarks to 5 minutes, we 
will ensure that your entire statement is included as part of 
the record, but it will enable members of the Committee to have 
time to ask questions.
    So General Becerra, welcome back to Congress, and great to 
have you here.

 STATEMENT OF HON. XAVIER BECERRA, ATTORNEY GENERAL, STATE OF 
                           CALIFORNIA

    Mr. Becerra. Mr. Chairman, thank you very much, and to 
Ranking Member Nelson and to all the members of the Committee, 
thank you for letting me join you today. It's always a pleasure 
to be back where I spent more than 24 years of my career.
    I want to thank, first of all, Senator Portman and Senator 
Blumenthal, the sponsors of this legislation, 1693, for their 
hard work and their tenacity. To my Senator, Senator Kamala 
Harris, I want to thank her for all the work that she has done 
over the years, previously as the Attorney General for the 
State of California before she became now our U.S. Senator, 
joining Senator Feinstein here in Washington, D.C.
    It's important to thank the tech industry. As all of you 
know, many in the tech industry have stepped up to be partners 
with law enforcement and child advocates to combat human 
trafficking. And certainly we have to thank our tireless 
advocates, who somehow give hope to so many women and children 
and help provide critical services to survivors of sex 
trafficking. But most of all, I want to thank the men and women 
of law enforcement, who stay in the ring even though we've got 
one hand, if not both hands, tied behind our back in this fight 
against child sex trafficking.
    S. 1693 is a serious effort to balance the virtues of a 
free and open Internet with the bedrock American value that our 
children are our greatest asset, each one of them, and we must 
hold those who exploit them accountable.
    Senate Bill 1693 recognizes and balances on one hand the 
Communications Decency Act success in promoting and propelling 
the Internet and its innovation, and on the other, the swift 
and lucrative migration of sex trafficking from the pavement to 
the Internet. S. 1693 goes to the heart of one of the critical 
concerns 49 state generals and I expressed in a recent letter 
to Congress, the need to clarify the Communications Decency Act 
so there is no mistake about the authority of state and local 
prosecutors to prosecute those involved in online child sex 
trafficking.
    Human trafficking is one of the fastest growing criminal 
enterprises worldwide. The Internet has made it so much easier, 
faster, and safer to make big bucks. Pimps use virtual brothels 
to sell vulnerable children online on a daily basis. As much as 
we've all tried to do our best, whether it's Congress, the tech 
community, law enforcement, we are losing the fight against sex 
trafficking, which means we're losing our children. Ask Yvonne 
Ambrose.
    So here's my plea, Mr. Chairman: be thorough, but 
courageous, like the kids who overcome their trauma in crossing 
the finish line with S. 1693. We're all here ready to help 
however we can to get a bill that gets the votes.
    Second, don't let sex trafficking or our children believe 
that we're going to allow people who traffic in sex with our 
kids hide in plain sight on the Internet. And let's not let 
ignorance of the law be anyone's excuse.
    Three, don't be dissuaded. Regardless of what anyone says, 
prosecution for sex trafficking requires criminal intent. No 
one can be convicted for acting in good faith.
    Four, amending the 21-year-old Communications Decency Act 
is not a sin. Even the Constitution was amended within 14 years 
of its adoption. And that's, of course, when we accepted the 
First Amendment and the remainder of the Bill of Rights to the 
Constitution. And I must also mention, having served in this 
body for 24 years, that here in the Senate and the House, you 
have the power of Congress' legislative record to buttress the 
underlying purpose of any changes that you choose to make to 
the CDA. Remember that the CDA is older than all of the 
children we're fighting to protect. So let's look at the CDA 
with fresh, but experienced eyes.
    The First Amendment in the CDA will continue to stand the 
test of time. But you can't yell, ``Fire!'' in a theater, you 
can't sell kids on the street for sex, and you shouldn't be 
allowed to traffic children for sex on the Internet. It's time 
to clarify the Communications Decency Act so that we can 
prosecute those who would sell our children for sex. Senate 
Bill 1693 gives us a chance to save our children from the 
unspeakable exploitation we can only imagine, and for that 
reason, Mr. Chairman, I will work as hard as I can with you and 
all those who believe it's time that we finally amended the 
Communications Decency Act to protect our children.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Becerra follows:]

     Prepared Statement of Hon. Xavier Becerra, Attorney General, 
                          State of California
I. Introduction
    Thank you, Chairman Thune, Ranking Member Nelson and all the 
Members of the Committee for the opportunity to be here today. It is my 
privilege to testify before the Committee on Commerce, Science, and 
Transportation on Senators McCaskill and Portman's bipartisan S. 1693, 
The Stop Enabling Sex Traffickers Act of 2017.
    As the Attorney General of California--our state's top law-
enforcement officer--I have a unique role to play in combating the 
heinous crime of human trafficking. Today, I am here to explain why the 
Communications Decency Act needs to be clarified so that we can more 
effectively do our jobs in enforcing laws that protect children and 
help us eradicate this crime for good.
    Human trafficking is one of the fastest-growing criminal 
enterprises worldwide. All too often, criminals prey on women and 
children and profit from sex trafficking without fully facing the 
consequences of their crimes. California has more reported cases of 
human trafficking than any other state. As Attorney General, I am 
committed to doing everything in my power to prosecute traffickers and 
disrupt the criminal organizations that profit from the exploitation of 
human beings.
    The Urban Institute examined the underground economy of sex 
trafficking in eight major U.S. Cities, including San Diego, and found 
that pimps and traffickers interviewed for the study took home between 
$5,000 and $32,833 a week. Notably, in this study, multiple pimp 
offenders reported, ``no one actually gets locked up for pimping''. \1\
---------------------------------------------------------------------------
    \1\ Urban Institute, https://www.urban.org/research/publication/
estimating-size-and-structure-underground-commercial-sex-economy-eight-
major-us-cities
---------------------------------------------------------------------------
    The perpetrators of human trafficking have become more 
sophisticated and organized, requiring an equally sophisticated 
response from law enforcement and its partners to disrupt and dismantle 
their networks.
II. Amending the Communications Decency Act
    Section 230 of the Communications Decency Act was passed in 1996.
    Unfortunately, some courts have interpreted the Communications 
Decency Act as currently written to limit our ability to go after 
companies that actively profit from sex trafficking and crimes against 
children. We believe that those judicial decisions misconstrued what 
Congress intended when it originally enacted the Communications Decency 
Act. I therefore applaud the current efforts to make clear that the 
Communications Decency Act does not bar states from pursuing these 
important prosecutions.
    The world was a different place in 1996, the last time this 
Congress passed a major telecommunications act--in particular, the 
Communications Decency Act--before most of today's victims of sex 
trafficking, adults or children, were even born. The modes of 
trafficking children are different. The horrendous crime is the same, 
but the venue for it has changed. The Internet has caused an explosion 
of sex trafficking, where virtual brothels are used by pimps to exploit 
and sell vulnerable children on a daily basis.
    Maggy Krell is a career prosecutor at the California Department of 
Justice who has taken the lead on sex trafficking cases for our office, 
including against the owners of Backpage.com. She said that, 
``virtually every human trafficking case now involves a website 
component. Law enforcement needs to be able to disrupt the criminal 
networks.'' This point underscores the importance of amending the 
Communications Decency Act.
    I therefore support passage of S. 1693 and its amendments to 
Section 230 of the Communications Decency Act. It's an important step 
we should take to make clear the authority of state and local law 
enforcement to protect victims of trafficking from those who promote, 
facilitate and benefit from sex trafficking online.
    I appreciate the work of Senators McCaskill and Portman and many of 
you on this Committee in leading the effort of the United States Senate 
on this bipartisan bill. I also want to thank Senator Harris for all 
that she has done to combat trafficking in California.
    I know that the Internet Association and others have come out 
against this bill, but this bill is narrowly crafted to target sex 
trafficking. I appreciate the help of many of these companies that are 
helping California and other states more effectively target traffickers 
and pimps and encourage them to come to the table to work with us on 
this bill. I hope they will join us at the table on this bill to 
address this critical issue.
    This bill is about protecting our most vulnerable. This is not a 
Republican or Democratic issue. This is an issue of justice, and 
ensuring that our Nation's top cops--my fellow attorneys general across 
the country--are able to enforce the law. In fact, recently, 49 of my 
colleagues--representing nearly every U.S. state--signed a letter to 
this Committee urging Congress to act.\2\
---------------------------------------------------------------------------
    \2\ https://www.oag.ca.gov/news/press-releases/attorney-general-
becerra-urges-congress-amend-communications-decency-act-empower
---------------------------------------------------------------------------
    In fact, in that letter, my colleagues and I urged Congress to go 
broader than S. 1693, and encouraged amendments be applicable to not 
only sex trafficking but all criminal enforcement action. I believe 
that this action will make the bill even stronger, and protect against 
other crimes such as child pornography and other forms of cyber 
exploitation. I encourage the Congress to continue thinking about and 
working on this bill and issue. California welcomes the opportunity to 
be a part of the discussion.
III. California's Experience and Perspective
    According to the National Human Trafficking Hotline, 4,460 cases of 
human trafficking have already been reported for 2017, 705 of which 
were reported in California since the start of the year. In fact, over 
the past five years, California has consistently had the most human 
trafficking cases reported in the United States.\3\
---------------------------------------------------------------------------
    \3\ National Human Trafficking Hotline, https://
humantraffickinghotline.org/states
---------------------------------------------------------------------------
    In recent years, transnational criminal organizations and 
affiliated domestic gangs have expanded from drug and firearm 
trafficking to the trafficking of human beings. From cross-border 
tunnels for transporting victims to domestic recruiting of vulnerable 
populations in our local communities, these criminal organizations have 
set aside traditional rivalries to set up commercial sex rings that 
profit from the sale of human beings, in particular, young women and 
girls.
    California has led the Nation in the fight against human 
trafficking--from increasing penalties against traffickers to providing 
resources to help survivors heal from the trauma of their experience 
and seek and find justice. Our state has passed legislation to finally 
treat sexually exploited children as victims, not criminals. We also 
have a law in California that requires large companies doing business 
here to provide information to consumers about their efforts to fight 
human trafficking. And we are continuing to push innovative legislation 
aimed at prevention to teach our children in the classroom how to 
recognize and avoid predators.
    Further, my office runs a Human Trafficking Taskforce with local 
law enforcement in San Diego that disrupts and dismantles human 
trafficking and child exploitation organizations through a 
comprehensive, collaborative and regional law enforcement and 
prosecution response. The Taskforce works to identify victims and hold 
exploiters accountable; along with promoting community awareness, 
expanding the exchange of information, and enhancing law enforcement 
resources and training.
    The State of California is committed to combatting all human 
trafficking and has demonstrated this consistently and will continue to 
work with partners across the country on this important issue.
IV. Backpage.com Case
    The California Department of Justice brought charges alleging that 
the owners of Backpage.com committed conspiracy, money laundering, and 
pimping by profiting financially from advertisements used to promote 
and solicit the sex-trafficking of teenagers, including victims under 
the age of 16.
    However, the defendants argued in court that the Communications 
Decency Act gave them broad immunity from all of the charges. 
Ultimately, the judge allowed us to go forward on the conspiracy and 
money laundering charges, but as to the other charges, the Judge said: 
``If and until Congress sees fit to amend the immunity law, the broad 
reach of section 230 of the Communications Decency Act even applies to 
those alleged to support the exploitation of others by human 
trafficking.''
    We are pursuing our prosecution of the conspiracy and money 
laundering charges. But regardless of our success in California, the 
amendment is aimed to ensure that state and local law enforcement, 
across the board, have the unquestioned authority to enforce our laws 
and protect our most vulnerable citizens. This bill takes an important 
step forward in serving that goal and helping victims.
    Although I support the bill as an important step, it is essential 
to note for the Committee that the bill can be made even stronger. The 
focus of this bill is narrow, in the sense that it specifically 
mentions only state prosecutions involving sex trafficking. We believe 
that the original intent of Congress in enacting the CDA was to 
preserve state prosecutorial authority more generally, just as the 
original CDA preserved Federal prosecutorial authority. I understand 
and respect that Congress is seeking to strike a balance here in 
narrowly crafting this bill. My team at the California Department of 
Justice and I would be happy work with Senators Portman, McCaskill and 
this Committee to make the bill even stronger.
V. Conclusion
    But let's be clear, this discussion today is not just about 
tweaking a statute. It's about real lives.
    Flip through any newspaper. Countless instances of child sex 
trafficking--and its online promotion--occur every day in the United 
States. Federal and state law enforcement recently arrested a Chicago 
man accused of pimping a 16-year-old girl via an online website, 
leading to her murder. The man ``shopped [the girl] around'' online, 
delivered her to a customer, and then fell asleep in his car outside a 
parking garage. When he awoke, he discovered the girl's body in the 
garage, ``her throat slit and her body badly beaten.'' We can, and we 
simply must, do better.
    I am sure our panelists today will share the degree to which this 
crime is plaguing our country.
    We can't deny that the Internet plays a significant role in sex 
trafficking and has created virtual brothels where victims are bought 
and sold online. And we won't turn a blind eye to the biggest 
beneficiaries of sex trafficking because they were owners of a website 
instead of pimps on a street corner.
    Amending the Communications Decency Act is a critical step we can 
take in the fight against human trafficking and one that we must take. 
To that end, we look forward to working with Congress to on this very 
important issue for Americans across the country.

    The Chairman. Thank you, General Becerra. Great to have you 
back and with us today.
    Mr. Goldman is up next. I'm going to go vote, and Senator 
Inhofe will have the gavel here.

             STATEMENT OF ERIC GOLDMAN, PROFESSOR, 
              SANTA CLARA UNIVERSITY SCHOOL OF LAW

    Mr. Goldman. Chairman Thune, members of the Committee, I 
appreciate the opportunity to testify today about the Stop 
Enabling Sex Traffickers Act of 2017. As we've heard today, sex 
trafficking is a horrific crime, and I applaud Congress' 
ongoing efforts to combat it. However, I'm concerned that SESTA 
is not the right solution to stop sex trafficking.
    Specifically, SESTA will counterproductively lead to more 
socially harmful content and more online sex trafficking 
promotions. Instead of stopping bad actors, SESTA will help 
them proliferate. To understand why, it's helpful to review why 
Section 230 has worked so well.
    When I started practicing law, Internet law, in 1994, 
before Congress enacted Section 230, we advised online services 
to handle third-party content and activity in one of two ways. 
The service could either: one, accept that it will be fully 
liable for third-party content and manage that risk by 
exercising editorial control through content prescreening or 
other costly and cumbersome editorial procedures; or, two, take 
minimal steps to moderate third-party content, and thereby 
avoid any knowledge that might lead to liability.
    Section 230 mooted that advice. Section 230 instead allows 
online services to safely adopt a wide range of moderation 
practices between those two extremes. By reducing online 
services' moderation costs and liability exposure, Section 230 
spurred new innovative services and fostered their growth, 
contributing to the Internet's success. Virtually every waking 
hour of every day we use online services that owe their 
existence to Section 230s protections.
    SESTA would reinstate the moderation dilemma that Section 
230 eliminated. Because of Section 230, online services today 
voluntarily take many steps to suppress socially harmful 
content; that could include false and malicious content, sexual 
material, and other lawful but unwanted content. And they can 
do so without fearing for liability for whatever they miss.
    Post-SESTA, some services will conclude that they cannot 
achieve this high level of accuracy or that moderation 
procedures would make it impossible to serve their community. 
In those cases, the services will reduce or eliminate their 
current moderation efforts. As more services do less to 
moderate third-party content, we will see more socially harmful 
content online that would have been moderated today. Indeed, 
some online services that are actively suppressing sex 
trafficking promotions will stop those efforts, leading to the 
unintended consequence that SESTA will foster the expansion of 
online sex trafficking promotion.
    SESTA tries to avoid this moderation dilemma by focusing 
on, quote, ``bad actors'' who promote sex trafficking. This 
doesn't work because only some sex trafficking promotions 
clearly self-identify as such. Sex trafficking promotions can 
take less obvious forms, such as online prostitution ads, ads 
for adult services that are legal, and, indeed, every type of 
user content ranging from videos to dating profiles to message 
board comments to tweets, and they can do so using coded 
phrases and euphemisms to mask their promotional objective.
    As a result, online services can't magically find and 
eradicate only the online sex trafficking promotions. Automated 
filters are costly and suffer from high error rates. 
Furthermore, if the services decide to moderate their content, 
they will have to undertake the larger and harder effort to 
review their entire universe of third-party content, even 
content that lacks obvious red flags, to find every 
impermissible promotion. So SESTA doesn't limit itself to bad 
actors; it applies to the entire Internet, and it forces 
services to do--that are doing moderation to comprehensively 
review all the content they receive.
    Finally, SESTA isn't necessary to fight online sex 
trafficking promotions. Section 230s immunity expressly does 
not apply to Federal criminal prosecutions. Congress has 
enacted numerous crimes against sex trafficking and its 
promotion, including most recently the SAVE Act that this body 
passed just 2 years ago to target sex trafficking promotion on 
Backpage. If the Department of Justice prosecutes Backpage or 
any other sites for the crimes that they have committed, 
whether it's the SAVE Act or based on other crimes, Section 230 
will not shield them.
    A Federal grand jury is currently investigating Backpage. 
Congress should wait for the results of that investigation, 
which I hope will come soon, to identify if any gaps exist in 
the law and how Congress should best respond.
    SESTA is a complex law implicating important social issues. 
I'm grateful that this Committee is paying close attention to 
it. Thank you for the opportunity to testify.
    [The prepared statement of Mr. Goldman follows:]

            Prepared Statement of Eric Goldman, Professor, 
           Santa Clara University School of Law <SUP>*</SUP>
---------------------------------------------------------------------------
    \*\ Professor of Law, Co-Director of the High Tech Law Institute, 
and Co-Supervisor of the Privacy Law Certificate, Santa Clara 
University School of Law. I'm testifying on own behalf, not on behalf 
of my employer or anyone else. I started practicing Internet Law in 
1994, and I started teaching Internet Law in January 1996--in both 
cases, before Section 230 was enacted. E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4a2f2d25262e272b240a2d272b23266429252764">[email&#160;protected]</a> 
Website: http://www.ericgoldman.org.
---------------------------------------------------------------------------
    Members of the Committee:

    I appreciate this opportunity to testify about the Stop Enabling 
Sex Traffickers Act of 2017. Sex trafficking is a horrific crime, and I 
applaud Congress' ongoing efforts to combat it. However, I am concerned 
that SESTA is not the right solution to stop sex trafficking.
    Specifically, SESTA will counterproductively lead to more socially 
harmful content and more online sex trafficking promotions. Instead of 
stopping bad actors, SESTA will help them proliferate. To understand 
why, it's helpful to review why Section 230 has worked so well.
    When I started practicing Internet Law in 1994, before Congress 
enacted Section 230, we advised online services to handle third party 
content and activity in one of two ways. The service could either: (1) 
accept that it will be fully liable for third party content, and manage 
that risk by exercising editorial control through content pre-screening 
or other costly and cumbersome editorial procedures, or (2) take 
minimal steps to moderate third party content and thereby avoid any 
knowledge that might lead to liability.
    Section 230 mooted that advice. Section 230 instead allows online 
services to safely adopt a wide range of moderation practices between 
those two extremes. By reducing online services' moderation costs and 
liability exposure, Section 230 spurred new innovative services and 
fostered their growth, contributing to the Internet's success. 
Virtually every waking hour of every day, we use online services that 
owe their existence to Section 230s protections.
    SESTA would reinstate the moderation dilemma that Section 230 
eliminated. Because of Section 230, online services today voluntarily 
take many steps to suppress socially harmful content (including false 
and malicious content, sexual material, and other lawful but unwanted 
content) without fearing liability for whatever they miss. Post-SESTA, 
some services will conclude that they cannot achieve this high level of 
accuracy, or that moderation procedures would make it impossible to 
serve their community. In those cases, the services will reduce or 
eliminate their current moderation efforts. As more services do less to 
moderate third party content, we will see more socially harmful content 
online that would have been moderated today. Indeed, some online 
services that are actively suppressing sex trafficking promotions will 
stop those efforts, leading to the unintended consequence that SESTA 
will foster the expansion of online sex trafficking promotion.
    SESTA tries to avoid the moderation dilemma by focusing on ``bad 
actors'' who promote sex trafficking. This doesn't work because only 
some sex trafficking promotions clearly self-identify as such. Sex 
trafficking promotion can take less obvious forms, such as online 
prostitution ads, ads for adult services that are legal, and indeed 
every type of user content ranging from videos to dating profiles to 
message board comments to tweets (and use coded phrases and euphemisms 
to mask the promotional objective).
    As a result, online services can't magically find and eradicate 
only the online sex trafficking promotions. Automated filters are 
costly and suffer from high error rates. Furthermore, if the services 
decide to moderate their content, they will have to undertake the 
larger and harder effort to review their entire universe of third party 
content--even content that lacks any obvious ``red flags''--to find 
every impermissible promotion. So SESTA doesn't limit itself to bad 
actors; it applies to the entire Internet and force services doing 
moderation to comprehensively review all content they receive.
    Finally, SESTA isn't necessary to fight online sex trafficking 
promotions. Section 230s immunity expressly doesn't apply to Federal 
criminal prosecutions. Congress has enacted numerous crimes against sex 
trafficking and its promotion, including most recently the SAVE Act 
passed just two years ago to target sex trafficking promotions on 
Backpage. If the Department of Justice prosecutes Backpage for any 
crimes Backpage may have committed (whether the SAVE Act or other 
crimes), Section 230 will not shield Backpage. A Federal grand jury is 
currently investigating Backpage. Congress should wait for the results 
of that investigation--which I hope will come soon--to help identify if 
any gaps exist in the law and how Congress should best respond.
    SESTA is a complex law implicating important social issues. I'm 
grateful that this committee is paying close attention to it. Thank you 
for the opportunity to testify.
                                *  *  *
    I supplement my oral remarks with two attachments:

  <bullet> ``Congress Is About to Ruin Its Online Free Speech 
        Masterpiece,'' an essay more fully outlining my concerns about 
        the bill.

  <bullet> ``SESTA Would Eliminate the Good Samaritan Defense,'' an 
        essay rebutting Sen. Portman's claims that SESTA would not 
        modify Section 230s ``Good Samaritan'' defense.
                                 ______
                                 
    Attachment 1: Congress Is About To Ruin Its Online Free Speech 
                        Masterpiece <SUP>*</SUP>
---------------------------------------------------------------------------
    \*\ A version of this was first published as Eric Goldman, Congress 
Is About To Eviscerate Its Greatest Online Free Speech Achievement, 
ACSblog, Sept. 11, 2017, https://www.acslaw.org/acsblog/congress-is-
about-to-eviscerate-its-greatest-online-free-speech-achievement.
---------------------------------------------------------------------------
    In 1996, Congress became concerned that excessive liability would 
threaten the free flow of information over the Internet. To protect the 
Internet from this risk, Congress passed 47 USC Sec. 230 (Section 230), 
which eliminates (with limited exceptions) the liability of online 
services for publishing third party content.
    By any measure, Section 230 has been a remarkable success. Think 
about the Internet services you use daily, such as Google, Facebook, 
YouTube, Wikipedia, Twitter, eBay, Snapchat, LinkedIn, and Yelp. All of 
them publish third party content, and all of them have flourished 
because of Section 230s immunity. Section 230 also promotes competitive 
markets by reducing entry costs. New entrants can challenge the 
marketplace leaders without having to match the incumbents' editorial 
investments or incurring fatal liability risks.
    Section 230 is a globally unique policy; no other country has 
passed a law similar to it.\1\ As a result, the United States has a 
global competitive advantage for online services that republish third 
party content. This has helped create trillions of dollars of social 
wealth in the U.S.\2\
---------------------------------------------------------------------------
    \1\ Eric Goldman, Internet Law: Cases & Materials 330 (July 14, 
2017 ed.).
    \2\ Christian M. Dippon, Economic Value of Internet Intermediaries 
and the Role of Liability Protections, NERA Consulting, June 5, 2017, 
https://cdn1.internetassociation.org/wp-content/uploads/2017/06/
Economic-Value-of-Internet-Intermediaries-the-Role-of-Liability-
Protections
.pdf.
---------------------------------------------------------------------------
                                *  *  *
    Section 230 has remained essentially unchanged since its 
passage,\3\ but that could change imminently--in significant and 
troubling ways.
---------------------------------------------------------------------------
    \3\ Eric Goldman, WARNING: Draft ``No Immunity for Sex Traffickers 
Online Act'' Bill Poses Major Threat to Section 230, Tech. & Marketing 
L. Blog, Mar. 25, 2017, http://blog.ericgold
man.org/archives/2017/03/warning-draft-no-immunity-for-sex-traffickers-
online-act-bill-poses-major-threat-to-section-230.htm.
---------------------------------------------------------------------------
    Backpage is an online classified service that publishes 
prostitution ads. Protected by Section 230s immunity, Backpage has 
defeated multiple legal challenges. Frustrated by Backpage's continued 
existence, and fueled by anti-trafficking advocates who want Backpage 
gone, Congress is considering two bills to amend Section 230. The 
Senate bill is Stop Enabling Sex Traffickers Act of 2017 (SESTA), S. 
1693,\4\ and the House bill is Allow States and Victims to Fight Online 
Sex Trafficking Act of 2017, H.R. 1865.\5\ Both bills have many co-
sponsors.
---------------------------------------------------------------------------
    \4\ For more discussion about SESTA, see Eric Goldman, Senate's 
``Stop Enabling Sex Traffickers Act of 2017''-and Section 230s Imminent 
Evisceration, Tech. & Marketing L. Blog, July 31, 2017, http://
blog.ericgoldman.org/archives/2017/07/senates-stop-enabling-sex-traffic
kers-act-of-2017-and-section-230s-imminent-evisceration.htm.
    \5\ For more discussion about H.R. 1865, see Eric Goldman, The 
``Allow States and Victims to Fight Online Sex Trafficking Act of 
2017'' Bill Would Be Bad News for Section 230, Tech. & Marketing L. 
Blog, Apr. 10, 2017, http://blog.ericgoldman.org/archives/2017/04/the-
allow-states-and-victims-to-fight-online-sex-trafficking-act-of-2017-
bill-would-be-bad-news-for-section-230.htm.
---------------------------------------------------------------------------
    For simplicity, I'll focus on SESTA's provisions. SESTA would make 
three major substantive changes to Section 230s immunity. It would:

  (1)  Exclude state criminal prosecutions related to sex trafficking 
        from Section 230s immunity. State attorneys general and other 
        local prosecutors could prosecute online services for 
        trafficking-related crimes without any Section 230 limits.

  (2)  Exclude Federal and state civil causes of action related to sex 
        trafficking from Section 230s immunity. Sex trafficking victims 
        (and others) could obtain money judgments and injunctions 
        against online services.

  (3)  Expand the scope of the existing Federal crime (and associated 
        civil claims) of sex trafficking. Section 230 expressly does 
        not restrict Federal criminal prosecutions, so the U.S. 
        Department of Justice (DOJ) could pursue a wider range of 
        prosecutions against online services.

    I'm glad that Congress is combating sex trafficking, but SESTA is 
not the right policy solution for at least six reasons:

  (1)  SESTA may not help sex trafficking victims. It might hurt them. 
        Online prostitution ads are evidence of crimes being committed, 
        providing a roadmap for law enforcement to find and prosecute 
        criminals. That has occurred countless times. The ads also can 
        help rescue sex trafficking victims.\6\ By investigating the 
        ads, law enforcement and victim advocates have found and 
        rescued many victims.\7\ SESTA might reduce the visibility of 
        online prostitution ads; but sex trafficking will still occur, 
        and so will the marketing of sex with trafficked victims via 
        less visible means (such as ``walking the streets''). SESTA 
        will make it harder to find--and rescue--those victims.
---------------------------------------------------------------------------
    \6\ Alex F. Levy, How Section 230 Helps Sex Trafficking Victims 
(and SESTA Would Hurt Them), Tech. & Marketing L. Blog, Aug. 15, 2017, 
http://blog.ericgoldman.org/archives/2017/08/how-section-230-helps-sex-
trafficking-victims-and-sesta-would-hurt-them-guest-blog-post.htm; 
Alexandra F. Levy, The Virtues of Unvirtuous Spaces, 50 Wake Forest L. 
Rev. 403 (2017).
    \7\ For a recent example of a rescue, see People v. Jones, 2017 WL 
3633962 (Cal. Ct. App. Aug. 24, 2017), a case involving Craigslist ads.

  (2)  Congress is fighting sex trafficking on many fronts. Congress is 
        currently considering more than 30 bills referencing ``sex 
        trafficking;'' and Congress' prior two sessions each included 
        over 50 bills referencing ``sex trafficking.'' (Note: an anti-
        sex trafficking bill may not reference the term, so the number 
        of anti-sex trafficking bills may be higher). So SESTA is far 
        from Congress' only anti-sex trafficking policy option; and 
        even if Congress doesn't pursue SESTA, Congress can and will 
---------------------------------------------------------------------------
        redress sex trafficking other ways.

  (3)  Congress already has statutorily targeted Backpage. The 2015 
        SAVE Act \8\ created a new Federal crime for publishing online 
        ads that promote sex trafficking victims. A Federal grand jury 
        in Phoenix is currently investigating Backpage,\9\ and the SAVE 
        Act may be part of that investigation (grand jury proceedings 
        are secret). So the DOJ already may be using the new crime to 
        achieve Congress' goal without SESTA.
---------------------------------------------------------------------------
    \8\ Justice for Victims of Trafficking Act Sec. 118 (2015); see 
also Eric Goldman, Backpage Can't Challenge the SAVE Act-Backpage v. 
Lynch, Tech. & Marketing L. Blog, Nov. 10, 2016, http://
blog.ericgoldman.org/archives/2016/11/backpage-cant-challenge-the-save-
act-backpage-v-lynch.htm.
    \9\ E.g., Sarah Jarvis et al, As Allegations Increase Against 
Backpage, Founders Have Become Big Political Donors In Arizona, Ariz. 
Republic, Apr. 14, 2017, http://www.azcentral.com/story/news/local/
phoenix/2017/04/14/allegations-increase-against-backpage-founders-have-
become-big-political-donors-arizona/100421528/.

  (4)  Other crimes may already apply to Backpage. Though Backpage has 
        had significant success in court, recently a California state 
        court ruled that Backpage executives must defend charges of 
        violating state money laundering laws.\10\ Also, in the past 
        couple of years, the U.S. Department of Justice successfully 
        prosecuted and shut down two sites publishing online 
        prostitution ads (Rentboy \11\ and MyRedbook \12\). The DOJ 
        should be able to deploy similar legal theories against 
        Backpage.
---------------------------------------------------------------------------
    \10\ People v. Ferrer, 16FE024013 (Cal. Superior Ct. Aug. 23, 
2017), http://digitalcommons.law
.scu.edu/cgi/viewcontent.cgi?article=2543&context=historical, see also 
Eric Goldman, Backpage Executives Must Face Money Laundering Charges 
Despite Section 230-People v. Ferrer, Tech. & Marketing L. Blog, Aug. 
24, 2017, http://blog.ericgoldman.org/archives/2017/08/backpage-
executives-must-face-money-laundering-charges-despite-section-230-
people-v-ferrer.htm.
    \11\ E.g., U.S. v. Easy Rent Systems, Inc., No. 1:16-cr-00045 
(E.D.N.Y. Jan. 27, 2016); USA v. Hurant, No. 1:15-mj-00780 (E.D.N.Y. 
Aug. 18, 2015).
    \12\ E.g., U.S. v. Omuro, No. 3:14-cr-00336 (N.D. Cal. Jun 24, 
2014).

  (5)  No one knows how SESTA would change the law. By reducing Section 
        230s immunity, SESTA would allow a range of laws to apply to 
        Internet services for the first time. Which laws? Apparently, 
        no one knows; I'm unaware of any attempt to inventory those 
        laws. So what criminal prosecutions and civil claims will be 
        brought post-SESTA, by whom, and against which services? Again, 
---------------------------------------------------------------------------
        no one knows.

  (6)  SESTA would damage the Internet, perhaps radically. We can only 
        speculate how SESTA might affect the Internet services we know 
        and love. For example, Airbnb has had numerous issues with 
        short-term rentals being used for prostitution,\13\ likely 
        including sex trafficking victims; and it's well-known that 
        prostitution historically has been advertised on Facebook.\14\ 
        After SESTA, will Airbnb and Facebook look radically different 
        as they try to avoid substantial criminal and civil liability 
        exposure?
---------------------------------------------------------------------------
    \13\ `My Airbnb Flat Was Turned into a Pop-up Brothel', BBC, Apr. 
8, 2017, http://www.bbc.com/news/magazine-39528479.
    \14\ Rich Schapiro, Facebook Friends Take on New Meaning as Hookers 
Are Said To Be Flocking To Social Networking Site, N.Y. Daily News, 
Feb. 27, 2011, http://www.nydailynews.com/news/crime/facebook-friends-
new-meaning-hookers-flocking-social-networking-site-article-1.136789. I 
understand that Facebook subsequently undertook additional efforts to 
suppress such advertising.

    Even if we could figure out how SESTA changes the law today, we 
can't contemplate how future state laws will take advantage of the new 
regulatory zones enabled by SESTA. Imagine a new state law requires 
services to prescreen all third party content to find and block sex 
trafficking ads. How would Twitter work with prescreened tweets?
    Finally, Section 230 does not distinguish between services that 
passively display third party content or actively manage that content: 
in both cases, publishers aren't liable for third party content. This 
policy allows online services to try to suppress illegal or socially 
harmful content without fearing legal exposure for whatever they miss. 
In response to SESTA's curtailed Section 230 immunity, many services 
probably will reduce their current suppression efforts to avoid having 
scienter that would create liability. If that happens, SESTA's attempt 
to suppress one type of illegal content will counter-productively cause 
the proliferation of illegal and socially harmful content--including, 
ironically, the proliferation of online prostitution ads if services 
dial back existing suppression efforts.
                                 *  * *
    The First Amendment is the foundation of free speech in our 
society. However, legislators can supplement the First Amendment's 
protections. Section 230 is a premier example of speech-enhancing 
legislation that enriches the free speech rights of speakers and their 
publishers. Undoubtedly, Section 230 has done more to advance free 
speech than anything else Congress has done in the past quarter-
century; and Section 230 may be Congress' greatest pro-free-speech 
achievement ever. It's hard to believe that Congress would ruin its 
free speech masterpiece, but that's exactly what SESTA would do.
                                 ______
                                 
    Attachment 2: SESTA Would Eliminate the Good Samaritan Defense 
                              <SUP>*</SUP>
---------------------------------------------------------------------------
    \*\ A version of this was first published as Eric Goldman, Sen. 
Portman Says SESTA Doesn't Affect the Good Samaritan Defense. He's 
Wrong, Tech. & Marketing L. Blog, Aug. 9, 2017, http://
blog.ericgoldman.org/archives/2017/08/senportmansestawrong.htm.
---------------------------------------------------------------------------
    When introducing the Stop Enabling Sex Traffickers Act of 2017 (S. 
1693), Sen. Portman said (emphasis added):

        There are some groups who have been critical of this effort to 
        hold Backpage accountable and stop this online exploitation. 
        They have suggested that this bipartisan bill could impact 
        mainstream websites and service providers--the good actors out 
        there. That is false. Our bill does not amend, and thus 
        preserves, the Communications Decency Act's Good Samaritan 
        provision. This provision protects good actors who proactively 
        block and screen for offensive material and thus shields them 
        from any frivolous lawsuits. That is in the legislation and 
        needs to be in there.\1\
---------------------------------------------------------------------------
    \1\ Cong. Record S4671 (Aug. 1, 2017), https://www.gpo.gov/fdsys/
pkg/CREC-2017-08-01/pdf/CREC-2017-08-01-pt1-PgS4669.pdf#page=3.

    This positioning makes it sound like websites who object to SESTA 
are overreacting. Why should they complain if they still have immunity? 
Unfortunately, Sen. Portman's statement is wrong.
    Section 230 has two main operative provisions. Section 230(c)(1) 
says websites aren't liable for third party content. Section 230(c)(2) 
says websites aren't liable for filtering content they consider 
offensive. Sen. Portman's statement indicates that he thinks SESTA 
would create new exclusions only to Section 230(c)(1) and would not 
amend 230(c)(2). However, the bill clearly changes both 230(c)(1) and 
230(c)(2) equally.
    Section 230(e) enumerates four modifications to the immunity, 
including Section 230(e)(1), which the bill would amend to read (new 
language bolded):\2\
---------------------------------------------------------------------------
    \2\ S. 1693 Sec. 3(a).

        Nothing in this section shall be construed to impair (A) the 
        enforcement of section 223 or 231 of this title, chapter 71 
        (relating to obscenity) or 110 (relating to sexual exploitation 
        of children) of title 18, Section 1591 (relating to sex 
        trafficking) of that title, or any other Federal criminal 
        statute or (B) any State criminal prosecution or civil 
        enforcement action targeting conduct that violates a Federal 
        criminal law prohibiting (i) sex trafficking of children; or 
        (ii) sex trafficking by force, threats of force, fraud, or 
---------------------------------------------------------------------------
        coercion.

    The bill also would create a new Section 230(e)(5):\3\
---------------------------------------------------------------------------
    \3\ Id.

        No effect on civil law relating to sex trafficking. Nothing in 
        this section shall be construed to impair the enforcement or 
        limit the application of section 1595 of title 18, United 
---------------------------------------------------------------------------
        States Code.

    The added language to Section 230(e)(1) and the new Section 
230(e)(5) would expose Internet services to countless new enforcement 
actions by state law enforcement and civil plaintiffs.\4\ Notice how 
both Section 230(e)(1) and the proposed Section 230(e)(5) start off 
with the statement: ``Nothing in this section shall be construed to 
impair . . .'' The only possible reading of ``nothing in this section'' 
is that it refers to all of Section 230, including both Section 
230(c)(1) and (c)(2). I didn't find any cases interpreting what ``this 
section'' means, but I found several cases implying that Section 
230(c)(2) defenses are subject to Section 230(e)'s exceptions.\5\ 
Applying standard methods of statutory construction, Section 230(c)(1) 
and (c)(2) are equally affected by the existing and proposed Section 
230(e) exceptions. As a result, Section 230(c)(2) would not limit any 
new enforcement actions unleashed by the proposed amendments.
---------------------------------------------------------------------------
    \4\ Eric Goldman, Senate's ``Stop Enabling Sex Traffickers Act of 
2017''-and Section 230s Imminent Evisceration, Tech. & Marketing L. 
Blog, July 31, 2017, http://blog.ericgoldman.org/archives/2017/07/
senates-stop-enabling-sex-traffickers-act-of-2017-and-section-230s-
imminent-evisceration.htm.
    \5\ See, e.g., e360Insight, LLC v. Comcast Corp., 546 F. Supp. 2d 
605 (N.D. Ill. 2008); Holomaxx Technologies v. Microsoft Corp., 783 F. 
Supp. 2d 1097 (N.D. Cal. 2011); Milo v. Martin, 311 S.W.3d 210 (Tex. 
Ct. App. 2010) (concurring opinion); Davis v. Motiva Enterprises, 
L.L.C., 2015 WL 1535694 (Tex. Ct. App. Apr. 2, 2015).
---------------------------------------------------------------------------
    [Caveat 1: A 2001 district court opinion contains a sentence 
saying: ``Immunizing Mindspring from Plaintiff's claims, therefore, 
would ``limit'' the laws pertaining to intellectual property in 
contravention of Sec. 230(c)(2).'' \6\ Although this language seemingly 
confirms my analysis, I believe the Section 230(c)(2) reference is a 
typo. The court meant to say 230(e)(2).\7\]
---------------------------------------------------------------------------
    \6\ Gucci America v. Hall & Associates, 135 F. Supp. 2d 409 
(S.D.N.Y. 2001).
    \7\ Ford Motor v. GreatDomains.com, 2001 WL 1176319 (E.D. Mich. 
Sept. 25, 2001) noted this error, and corrected it, when quoting the 
Gucci opinion's language.
---------------------------------------------------------------------------
    [Caveat 2: a few cases, including the Seventh Circuit's Doe v. GTE 
\8\ and Chicago Lawyers' Committee for Civil Rights Under Law v. 
Craigslist \9\ cases, have suggested that Section 230(c)(1) acts as a 
definitional section for Section 230(c)(2). These cases make a strained 
reading of the statute, but they also would further undermine Sen. 
Portman's statement because, under this reading, Section 230(c)(2) 
would be the only operational immunity the bill could amend.]
---------------------------------------------------------------------------
    \8\ Doe v. GTE Corp, 347 F.3d 655 (7th Cir. 2003).
    \9\ Chicago Lawyers' Committee For Civil Rights Under Law v. 
Craigslist, Inc., 519 F.3d 666 (7th Cir. 2008); see also Eric Goldman, 
Craigslist Gets Seventh Circuit 230 Win in Fair Housing Act Case-
Chicago Lawyers' Committee v. Craigslist, Tech. & Marketing L. Blog, 
Mar. 14, 2008, http://blog.ericgoldman.org/archives/2008/03/
craigslist_gets.htm.
---------------------------------------------------------------------------
    Because I don't see any possible way of interpreting the statutory 
language to say that Section 230(c)(2) is subject to different 
exclusions than Section 230(c)(1), Sen. Portman's claims to the 
contrary appear to be a misreading of the existing statute or a 
misunderstanding of how the bill fits into the existing statutory 
language. Either way, Congress could easily effectuate Sen. Portman's 
claim through different drafting. Instead of preceding Section 
230(e)(1) and (e)(5) with ``Nothing in this section . . .'' the 
amendment could say ``Nothing in Section 230(c)(1) . . .'' thereby 
making Section 230(c)(2) not subject to those exclusions.
    There is another problem with Sen. Portman extolling Section 
230(c)(2)'s protection: it's basically a defunct safe harbor \10\ that 
does not provide much protection from ``frivolous'' lawsuit. Unlike 
Section 230(c)(1), Section 230(c)(2) has a good faith requirement, 
i.e., to qualify for the safe harbor, the website's filtering decisions 
must be made in good faith. Plaintiffs can, and routinely will, allege 
that the defendant made a filtering decision in subjective bad faith, 
and courts routinely let those generic and unsupported allegations 
defeat a motion to dismiss. Thereafter, plaintiffs can do expensive and 
intrusive discovery into the website's subjective intent, raising 
defense costs substantially and extending the case to summary judgment 
or possibly a trial.\11\ As a result, few if any websites actually rely 
on Section 230(c)(2)'s protection; everyone relies on Section 
230(c)(1). Indeed, we've recently seen filtering cases--where Section 
230(c)(2) clearly should have applied--decided on 230(c)(1) grounds 
instead.\12\ It appears Sen. Portman may not appreciate how Section 
230(c)(2) has effectively failed in the field.
---------------------------------------------------------------------------
    \10\ See generally Eric Goldman, Online User Account Termination 
and 47 U.S.C. Sec. 230(c)(2), 2 U.C. Irvine L. Rev. 659 (2012), https:/
/ssrn.com/abstract=1934310.
    \11\ E.g., e-ventures Worldwide v. Google, Inc., 2:14-cv-00646-PAM-
CM (M.D. Fla. Feb. 8, 2017); see also Eric Goldman, First Amendment 
Protects Google's De-Indexing of ``Pure Spam'' Websites-e-ventures v. 
Google, Tech. & Marketing L. Blog, Feb. 9, 2017, http://
blog.ericgoldman.org/archives/2017/02/first-amendment-protects-googles-
de-indexing-of-pure-spam-websites-e-ventures-v-google.htm.
    \12\ See, e.g., Sikhs for Justice ``SFJ'', Inc. v. Facebook, Inc., 
144 F. Supp. 3d 1088 (N.D. Cal. 2015), aff'd, No. 15-17441 (9th Cir. 
Sept. 13, 2017); see also Eric Goldman, Facebook Can Legally Block 
Pages Without Any Explanation--Sikhs For Justice v. Facebook, Tech. & 
Marketing L. Blog, Nov. 30, 2015, http://blog.ericgoldman.org/archives/
2015/11/facebook-can-legally-block-pages-without-any-explanation-sikhs-
for-justice-v-facebook-forbes-cross-post.htm.
---------------------------------------------------------------------------
    I hope this essay helps explain why so many in the Internet 
community have expressed grave concerns about SESTA's effects despite 
Sen. Portman's efforts to marginalize the concerns. The sponsors 
apparently think the bill wouldn't change Section 230 for ``good 
actors'' when, in fact, it would eviscerate the immunity.

    Senator Sullivan [presiding]. Thank you, Professor Goldman.
    Ms. Souras.

STATEMENT OF YIOTA G. SOURAS, SENIOR VICE PRESIDENT AND GENERAL 
               COUNSEL, THE NATIONAL CENTER FOR 
                 MISSING AND EXPLOITED CHILDREN

    Ms. Souras. Thank you, Chairman Thune, Ranking Member 
Nelson, and members of the Committee. I am honored to be here 
today on behalf of the National Center for Missing and 
Exploited Children.
    First, let me say how pleased I am to appear alongside 
NCMEC's valued partners representing law enforcement and the 
technology industry. NCMEC could not sustain its mission to 
protect children without the heroic efforts of law enforcement 
to remove children from danger and prosecute those who harm 
them, including the ongoing work of Attorney General Becerra to 
protect children and the prosecution of Backpage.com.
    Just as important are the significant contributions of the 
technology industry to support child safety online. Technology 
companies such as Google, Facebook, Microsoft, and others have 
devoted tremendous resources to reduce child sexual 
exploitation on their platforms.
    NCMEC has been designated by Congress as the national 
clearinghouse on issues relating to missing and exploited 
children, including victims of child sex trafficking. Based on 
our experience, NCMEC has endorsed the Stop Enabling Sex 
Traffickers Act, or SESTA. SESTA will ensure access to justice 
for child sex trafficking victims and hold online entities 
legally responsible when they knowingly assist trafficking a 
child.
    At NCMEC, we are confronted daily with the reality that 
children are trafficked for sex, and this crime increasingly 
occurs on the Internet. So far this year, we have received more 
than 9,700 reports of suspected child sex trafficking to our 
CyberTipline. Over the past 5 years, 81 percent of NCMEC's 
child sex trafficking reports have related to the trafficking 
of a child for sex online. More than 73 percent of these 
reports from members of the public concern an advertisement on 
Backpage.com.
    Under current law, websites can commit these crimes with 
virtual impunity even when knowingly facilitating the 
trafficking of a child. In case after case, child sex 
trafficking victims have been deprived of their day in court 
against every entity, including websites, that knowingly 
support their trafficking.
    Congress has acted to protect children from sex trafficking 
through the Trafficking Victims Protection Reauthorization Act, 
or TVPRA, and every state has a corresponding trafficking 
statute. However, these laws have proven inadequate based on 
the courts' current interpretation of the Communications 
Decency Act.
    Congress enacted the CDA over 21 years ago to protect 
online companies from liability when they host third-party 
content or engage in good-faith efforts to regulate explicit 
material. Courts have struggled and failed to reconcile the 
CDA's narrow immunity with the TVPRA's criminalization of sex 
trafficking.
    Over the past 7 years, over 20 legal cases have been filed 
involving Backpage.com. Time and time again, courts have 
acknowledged the horror of the allegations made by child sex 
trafficking victims, but held themselves powerless to act under 
the CDA.
    Courts across the country have called on Congress to 
clarify the intersection between valuable CDA immunities and 
the strong laws against human sex trafficking. NCMEC has worked 
closely with children victimized by online sex trafficking 
whose cases have been dismissed based on the CDA. We have 
witnessed the anguish of these children suffering and have 
heard their hopelessness when the courts dismiss their cases. 
We can't rely on a 1996 law to solve a 21st century problem. We 
need to be smarter and more sophisticated in protecting 
children, and this is the approach SESTA takes. It is also why 
SESTA is the first bill to amend the CDA that NCMEC has 
endorsed.
    We believe SESTA strikes an important balance between 
providing victims their day in court while sustaining the 
underlying protections of the CDA. NCMEC supports SESTA because 
it clarifies: first, that child sex trafficking victims may 
seek civil remedies against online entities that knowingly 
supported their trafficking; second, that state attorneys 
general may protect children in their own communities by 
prosecuting online entities that knowingly supported 
trafficking; and, third, that online entities may be liable for 
trafficking if they knowingly support, assist, or facilitate 
the trafficking of a child for sex.
    We are encouraged by the continuing dialogue, including at 
this hearing, to further understanding of the proposed 
legislation and ensure it fulfills its mission to protect 
children. We welcome the opportunity to provide additional 
support as SESTA moves through this process and look forward to 
continuing to work with you on these very important issues.
    [The prepared statement of Ms. Souras follows:]

   Prepared Statement of Yiota G. Souras, Senior Vice President and 
General Counsel, The National Center for Missing and Exploited Children
    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee, I am honored to be here today on behalf of The National 
Center for Missing and Exploited Children (``NCMEC'').
    First, let me say how pleased I am to appear alongside NCMEC's 
valued partners representing law enforcement and the technology 
industry. NCMEC could not sustain its mission to protect children 
without the heroic efforts of law enforcement to remove children from 
danger and prosecute those who harm them. Just as important are the 
significant contributions and voluntary efforts of the technology 
industry to support child safety online. For many years, technology 
companies such as Google, Facebook, Microsoft and many others have 
devoted tremendous resources to reduce online child sexual exploitation 
on their platforms. We share a collective interest in strengthening the 
laws and technical tools that can be used to further NCMEC's work to 
save children from sexual exploitation and prevent children from being 
victimized by sex trafficking.
    Based on NCMEC's mission to reduce child sexual exploitation and 
prevent child victimization, we have endorsed the Stop Enabling Sex 
Traffickers Act of 2017 (``SESTA''). SESTA uniquely addresses a legal 
loophole that once closed will ensure justice for child sex trafficking 
victims and hold legally responsible entities that knowingly assist the 
trafficking of a child for sex online. NCMEC hopes that following this 
hearing we can work together to ensure this legislation moves quickly 
forward and our Nation's most vulnerable victims have the legal 
protections they so urgently need.
NCMEC History
    NCMEC was created in 1984 by John and Reve Walsh and other child 
advocates as a private, non-profit organization. It has been designated 
by Congress to serve as the national clearinghouse and to provide a 
coordinated, national response to problems relating to missing and 
exploited children. NCMEC works with families, victims, private 
industry, law enforcement, and the public to assist with preventing 
child abductions, recovering missing children, and providing services 
to deter and combat child sexual exploitation. More specifically to 
today's hearing, NCMEC serves as a national clearinghouse for reports 
relating to child sex trafficking and assists law enforcement, first 
responders, and victim specialists relating to the identification, 
location, and recovery of child sex trafficking victims.
Online Child Sex Trafficking
    Child sex trafficking is a pervasive and underreported crime. Every 
year, thousands of children from across the United States are 
trafficked, sold for sex, repeatedly raped, and suffer traumatic 
physical, sexual, and emotional abuse. Child sex trafficking involves 
the rape or other sexual abuse of a child in exchange for something of 
value. There is no legal protection for selling, facilitating the sale 
of, or benefiting financially from the sale of a child for rape or 
sexual abuse. There is no situation in which child sex trafficking 
could be considered legal or an activity between consenting adults.
    Technology has fundamentally changed how children are victimized 
through sex trafficking in ways that would have been unimaginable just 
a few years ago. An adult can now shop from the privacy of his home or 
hotel room, often on a cell phone, to buy a child for rape. Traffickers 
lure and recruit children online. Websites can be used to create 
virtual marketplaces on which predatory offenders can peruse a variety 
of sexual experiences being offered for sale, including with children, 
and complete their purchase online.
    As the national resource center on missing and exploited children 
issues, NCMEC has learned a great deal about child sex trafficking. 
NCMEC operates the CyberTipline to provide the public and electronic 
service providers with an efficient method of reporting incidents of 
suspected child sexual exploitation, including child sex trafficking. 
So far in 2017, NCMEC has received more than 9,700 reports of suspected 
child sex trafficking to the CyberTipline. Because there is no 
mandatory requirement for reporting child sex trafficking to NCMEC, we 
believe the reports NCMEC receives reflect only a small fraction of the 
large number of children trafficked online each year.
    The crime of child sex trafficking has increasingly expanded to the 
internet. Traffickers have learned that by leveraging the power of the 
internet, they can more easily recruit, control and sell children for 
sex. Some website operators have also recognized the enormous 
profitability of creating online platforms to facilitate the sale of 
adults and children for sex. Over the past five years, 81 percent of 
NCMEC's reports regarding child sex trafficking relate to the sex 
trafficking of a child online. More than 73 percent of reports relating 
to child sex trafficking made by members of the public to NCMEC concern 
a Backpage.com advertisement. This trend will continue so long as 
online classified ad websites are able to knowingly assist human sex 
traffickers market children for sale for sex to a range of online 
customers.
    At NCMEC, we are confronted daily with the reality that children 
are being trafficked for sex online. Under current law, these crimes 
can be committed with virtual impunity for websites that knowingly 
facilitate the trafficking of a child. In case after case, child sex 
trafficking victims are failing to have their voices heard and are 
being deprived of their day in court against every entity that 
knowingly supported their trafficking, because of the legal protections 
provided to these entities under current law. SESTA narrowly addresses 
these judicial barriers and ensures that child victims have full rights 
to seek redress for the harm done to them.
The Courts' Struggles to Reconcile Trafficking Laws and the 
        Communications Decency Act
    Congress has acted to protect children from being trafficked for 
sex by enacting the Trafficking Victims Protection Reauthorization Act 
(``TVPRA''). The TVPRA establishes human trafficking as a Federal crime 
and recognizes the unique vulnerability of children to trafficking by 
imposing severe penalties on anyone who knowingly recruits, harbors, 
transports, provides, advertises or obtains a child for a commercial 
sex act or who benefits financially from such an act. Every state has 
an equivalent statute available to state prosecutors to bring to 
justice those who traffic children for sex. These laws have been used 
effectively to prosecute traffickers who conduct their business on the 
streets, in hotels, casinos or at truck stops. However, these laws have 
proven inadequate when a website participates in a venture to traffic 
children due to the Communications Decency Act (``CDA''), a law that 
predates the TVPRA.
    The CDA was enacted by Congress in 1996 to protect online companies 
from liability when they host third party content or engage in good 
faith efforts to regulate explicit material on their platforms. 
Unfortunately, courts have struggled, and failed, to reconcile the 
purpose of the immunity provided by the CDA with the mission of the 
TVPRA to criminalize the sex trafficking of children. This legal 
conflict has been building for years. The most frequent result is that 
children who have suffered undeniable and unimaginable harm, are 
completely barred from seeking judicial relief against a knowing online 
facilitator of their trafficking. As a further complication, courts 
have been uncertain regarding how to define what it means to benefit 
from ``participation in a venture'' of trafficking under the TVPRA, 
which is a significant element to prove in a trafficking case involving 
an online website.
    Over the past seven years, over 20 legal cases have been initiated 
involving Backpage.com. The majority of these cases involve child 
victims who sought judicial damages against Backpage.com or state 
legislatures compelled to defend attempts to enact stronger laws to 
protect children from being trafficked for sex online. Time and time 
again in these cases, courts acknowledged the horror of the allegations 
made regarding the child victims' trafficking, but determined 
themselves powerless to act under the CDA.
    The child sex trafficking victims who have been denied relief due 
to the CDA include:

  <bullet> A 14-year old child who was trafficked online for two years 
        and advertised with photos displaying her private body parts in 
        sexually exploitive poses.

  <bullet> A 15-year old child who estimates she was raped over 1,000 
        times while trafficked on Backpage.com for a year and a half.

  <bullet> A 15-year old child who was trafficked for two years with 
        ads posted on Backpage.com an average of six times a day with 
        five to fifteen customers a day.

    Unfortunately, these victims are not unique. NCMEC has managed tens 
of thousands of cases where children have been bought and sold by the 
commercialization of child sex trafficking online.
Courts Call on Congress to Clarify the CDA's Application in Child Sex 
        Trafficking Cases
    The judicial system has become increasingly aware that children are 
inadequately protected, and state prosecutors limited, when an online 
website (rather than a brick-and-mortar operation) is participating in 
a trafficking venture. Even when dismissing victims' trafficking claims 
on legal grounds, both criminal and civil courts have consistently 
called on Congress to clarify that there is no legal protection for 
those who facilitate the trafficking of children for sex online. 
Further, both criminal and civil courts have reluctantly dismissed 
online sex trafficking charges against Backpage.com, while bemoaning 
the lack of clarity in how they must apply the CDA.
    For example, last year the Sacramento Superior Court dismissed 
criminal pimping charges against Backpage.com, while recognizing the 
vital issues at stake:

        [T]he Court understands the importance and urgency in waging 
        war against sexual exploitation. Regardless of the grave 
        potential for harm that may result in the exercise of this 
        article of faith, Congress has precluded liability for online 
        publishers for the action of publishing third party speech and 
        thus provided for both a foreclosure from prosecution and an 
        affirmative defense at trial. Congress has spoken on this 
        matter and it is for Congress, not this Court, to revisit.

    Also last year, the First Circuit Court of Appeals dismissed 
trafficking charges in a civil case after recognizing the failure of 
the statutes to provide an adequate means to protect children and hold 
online sex traffickers liable because of the CDA:

        ``This is a hard case--hard not in the sense that the legal 
        issues defy resolution, but hard in the sense that the law 
        requires that we, like the court below, deny relief to 
        plaintiffs whose circumstances evoke outrage . . . The 
        appellants' core argument is that Backpage has tailored its 
        website to make sex trafficking easier. Aided by the amici, the 
        appellants have made a persuasive case for that proposition. 
        But Congress did not sound an uncertain trumpet when it enacted 
        the CDA, and it chose to grant broad protections to Internet 
        publishers. Showing that a website operates through a 
        meretricious business model is not enough to strip away those 
        protections. If the evils that the appellants have identified 
        are deemed to outweigh the First Amendment values that drive 
        the CDA, the remedy is through legislation, not through values 
        that drive the CDA, the remedy is through legislation, not 
        through litigation.

    Most recently, less than a month ago, the Sacramento Superior Court 
again dismissed criminal pimping charges and bluntly assessed its view 
of the current state of CDA law to immunize a website from online sex 
trafficking:

        If and until Congress sees fit to amend the immunity law, the 
        broad reach of section 230 of the Communications Decency Act 
        even applies to those alleged to support the exploitation of 
        others by human trafficking.
NCMEC's Support of SESTA
    NCMEC has worked closely with children victimized by online sex 
trafficking, their families, attorneys and prosecutors in many of the 
cases where child sex trafficking claims have been dismissed under the 
courts' interpretation of the CDA. Through our work, we have witnessed 
the anguish of their recovery and the long-lasting trauma their 
families suffer. We also have heard their hopelessness when their legal 
efforts to hold responsible websites that knowingly facilitated the 
crimes against them are dismissed by the court.
    Congress has now heard these children's voices as well. NCMEC 
applauds the introduction of SESTA by Senators Rob Portman and Richard 
Blumenthal, and their 26 bi-partisan co-sponsors, to address the legal 
roadblocks that child victims have faced. NCMEC's support for SESTA is 
reflective of our mission to combat the sexual exploitation of 
children, including the pernicious monetization of children for sex 
trafficking on websites, such as Backpage.com.
    NCMEC supports SESTA, the first such bill that NCMEC has supported 
proposing a clarification of the CDA, because the goals of the 
legislation are sufficiently narrow to help ensure justice for child 
sex trafficking victims and clarify remedies available to civil 
attorneys and state Attorneys General to assist victims in holding 
every entity that knowingly participated in their trafficking. We 
believe SESTA strikes an important balance between providing sex 
trafficking victims the opportunity to hold everyone actively 
participating in their victimization accountable with the need to 
continue encouraging innovation of technology on the internet.
    NCMEC is fundamentally aware that combatting child sex trafficking 
is a multi-faceted problem. SESTA will not put an end to online child 
sex trafficking. No single solution can accomplish this. But it will 
provide an essential tool to providing legal rights to child sex 
trafficking victims and ensuring that online entities that participate 
in the trafficking of a child are not legally immune for their crimes.
    Because Backpage has been for years one of the largest facilitators 
of online sex trafficking ads, it is not surprising that Backpage has 
been the focus of civil, criminal, and legislative efforts to curtail 
sex trafficking on the site. Backpage has shown that children can be 
trafficked for sex online through a functionally simple and wildly 
lucrative website, while both criminal and civil courts have 
demonstrated that a loophole exists that enables this type of website 
to invoke the immunity under the CDA. NCMEC is aware that there are 
many other websites on which children are trafficked for sex. If 
Backpage ultimately closes because of any of the pending legal actions, 
another website or multiple websites will surely fill the marketplace 
that Backpage currently dominates. SESTA's narrow goals are intended to 
make certain that the CDA's ongoing protections enjoyed by a robust 
Internet industry will not extend to next generation platforms like 
Backpage.com that knowingly assist, support, or facilitate child sex 
trafficking.
    SESTA narrowly focuses on criminal conduct--the sale of a child for 
sex--which does not implicate the First Amendment or the Good Samaritan 
exception under Section 230. The legislation will clarify that immunity 
under the CDA is not extended to actual criminal conduct--the knowing 
facilitation, assistance or support of trafficking--while maintaining 
the CDA's core publisher protections for the mere publication of third 
party content or the good faith removal of objectionable online 
material. The balancing of interests here involves the rights of child 
sex trafficking victims who are denied access to justice versus 
clarifications to the CDA twenty-one years after its enactment.
    Additionally, given the volume of this criminal activity online and 
the impact on state and local communities, State Attorneys General 
should be able to prosecute websites that knowingly assist the sex 
trafficking of children within their state which SESTA provides.
    We believe that SESTA provides essential clarifications to an 
important statute and are encouraged that well-intentioned dialogue is 
continuing in an effort to understand the proposed legislation and 
ensure it fulfills its mission to protect children, including today's 
hearing.
Conclusion
    Thank you for the opportunity to provide the Committee with 
information on NCMEC's role in combating online child sex trafficking 
and our support for SESTA. As the Nation's clearinghouse on missing and 
exploited children issues, NCMEC's sole priority is to protect the 
interests of children victimized by sexual exploitation. SESTA would be 
a powerful tool to further the rights of child victims consistent with 
NCMEC's mission while protecting the provisions of the law that 
encourage a healthy and robust internet. We are aware that technology 
companies and other advocates have been meeting with sponsors of the 
bill to discuss this proposed legislation.
    We welcome the opportunity to provide additional support as SESTA 
moves through the legislative process and look forward to continuing to 
work with you on these very important issues.

    Senator Sullivan. Thank you, Ms. Souras.
    Ms. Slater.

    STATEMENT OF ABIGAIL SLATER, GENERAL COUNSEL, INTERNET 
                          ASSOCIATION

    Ms. Slater. Chairman Thune, Ranking Member Nelson, and 
members of the Committee, thank you for inviting me to testify. 
My name is Abigail Slater, and I am General Counsel at Internet 
Association, which represents more than 40 of the world's 
leading Internet companies.
    On a personal note, if I may, I would like to acknowledge 
the testimony of Mrs. Ambrose here today and to convey my 
sympathy to her on her loss of her daughter, Desiree. No family 
should have to suffer what Mrs. Ambrose's family suffered.
    There are three overarching points I would like to make 
today. First, the legitimate Internet companies that Internet 
Association represents are 100 percent committed to the fight 
against sex trafficking. Our objective is to help stop these 
crimes from ever occurring in the first place so that there are 
no more victims. For this reason, we support targeted 
legislative changes, including changes to the Communications 
Decency Act, that would allow victims and survivors to seek 
justice against bad actors that knowingly facilitate sex 
trafficking.
    As one of the mothers interviewed in the ``I am Jane Doe'' 
documentary so pointedly stated, ``I want my daughter to hold 
her head up high and know that none of this was her fault.'' 
Everyone at this table should share this mother's sentiment.
    On this note, following the Senate's groundbreaking PSI 
report from earlier this year, a grand jury was convened in 
Phoenix to look at Backpage.com's conduct under existing 
Federal criminal law, and we agree that it's time to bring 
Backpage to justice.
    The second point I'd like to make today is that legitimate 
Internet companies are key partners in the fight to combat sex 
trafficking. They are part of any solution to this problem, and 
the partnership between law enforcement and companies is key to 
ending the underlying criminal behavior.
    This partnership manifests in several ways.
    First, legitimate Internet companies have robust community 
guidelines, internal policies, and proactive enforcement 
practices to remove content that promotes sex trafficking. 
After all, the power of good actors online is in many contexts 
often the most powerful tool against bad actors online.
    Second, legitimate Internet companies have long since 
partnered with non-governmental organizations, such as NCMEC, 
to combat sex trafficking. These efforts harness both our 
companies' financial resources as well as their engineering 
talent to help develop technological tools used to combat this 
heinous crime.
    I elaborate on these tools in detail in my written 
testimony, but I did want to highlight one in particular. It's 
the Spotlight tool developed by Thorn with support from several 
IA member companies. Spotlight is a web-based application used 
to detect and help rescue victims of sex trafficking. Today, 
Spotlight is used by 4,000 law enforcement officers at over 700 
agencies nationwide. More importantly, it has been used to 
identify over 2,000 perpetrators of sex trafficking.
    Understanding the positive role such as that developed at 
Thorn plays in providing solutions to sex trafficking brings me 
to my third, and final, point; namely, that legislation 
undermining the ability of legitimate Internet companies to do 
the right thing and invest in innovations and best practices 
that target criminal activity will only weaken our fight 
against this heinous crime.
    SESTA is a well-intentioned response to a terrible 
situation. Unfortunately, as currently drafted, SESTA 
introduces overly broad concepts of criminal and civil 
liability that create legal uncertainty and risk for legitimate 
actors. My written testimony provides greater detail, but I 
will provide a few key concerns which SESTA has currently 
drafted and how it interfaces with Section 230 of the 
Communications Decency Act for your consideration.
    First, we are concerned that SESTA creates a vague 
knowledge standard that will skew incentives for good online 
actors to keep in place their existing efforts to combat 
crimes, including sex trafficking, for fear of legal liability.
    Second, we are concerned that SESTA creates overly broad 
and unchartered state jurisdiction over well-intentioned online 
actors, both large and small.
    And, finally, we are concerned that SESTA opens up 
liability for frivolous lawsuits that do little for victims of 
sex trafficking.
    While we acknowledge that reasonable minds can and do 
differ, I should add for the record that these concerns are the 
consensus position of many industry experts and legal scholars, 
as well as civil society groups, who share our concerns about 
SESTA.
    Internet Association submits that a more tailored bill that 
truly targets actors such as Backpage.com without undermining 
the ability of legitimate actors to help combat sex trafficking 
is possible, and we stand ready to work with the Committee 
toward this goal.
    In conclusion, I want to be clear, we do not have to choose 
between justice against Backpage.com and protecting legitimate 
online services. This is not a binary choice. There is also no 
single solution. The fight against sex trafficking requires a 
multipronged approach and a committed partnership between the 
government and private sector.
    Again, thank you for allowing me to testify, and I look 
forward to your questions.
    [The prepared statement of Ms. Slater follows:]

        Prepared Statement of Abigail Slater, General Counsel, 
                          Internet Association
    Chairman Thune, Ranking Member Nelson, and members of the 
Committee, thank you for inviting me to testify. My name is Abigail 
Slater and I am the General Counsel of Internet Association, which 
represents more than 40 of the world's leading Internet companies.\1\ 
Internet Association is the unified voice of the Internet economy. The 
Internet creates unprecedented benefits for society, and Internet 
Association is dedicated to empowering people through a free and open 
internet.
---------------------------------------------------------------------------
    \1\ Member list available at https://internetassociation.org/our-
members/.
---------------------------------------------------------------------------
    We appreciate the Committee holding this hearing on a topic that 
rightfully is at the top of mind for policymakers, our members, and the 
public. Sex trafficking is a horrific crime and must be stopped. We 
must end the crime of human trafficking in our country, and we must 
hold those that facilitate and take part in these crimes, like 
Backpage.com, fully responsible under our law. We also support targeted 
amendments to the Communications Decency Act that would allow victims 
of sex trafficking crimes to seek justice against perpetrators. The 
Internet industry stands ready to work with you on legislative 
approaches that ensure justice and contribute to the fight against 
trafficking.
    We believe that our goals are shared and that this hearing can and 
should provide a roadmap to achieving those mutual goals. Backpage.com 
broke existing law and we agree that it must be fully and quickly 
brought to justice for its horrific crimes in the trafficking of 
persons for sex. We must work together to combat trafficking and stop 
these crimes from ever occurring in the first place. Internet 
Association is confident that by working as partners on this issue we 
can fully achieve both goals.
    To be perfectly clear: our members are an integral part of the 
solution. They have a long track record of working with law 
enforcement, anti-trafficking groups, and victims to stop illegal 
activity.
    The Stop Enabling Sex Traffickers Act of 2017 (SESTA) \2\ is a 
well-intentioned response to a terrible situation. The crimes committed 
through and facilitated by Backpage.com are despicable. Our companies 
work with law enforcement every single day to actively take down 
illegal content and in an effort to prevent and end trafficking. SESTA, 
as it is written, would make our companies liable for all their ongoing 
work with law enforcement.
---------------------------------------------------------------------------
    \2\ S. 1693 (115th Congress).
---------------------------------------------------------------------------
    As part of my testimony,

  <bullet> First, I will outline just some of the ways that Internet 
        industries are active partners in the fight to combat human 
        trafficking.

  <bullet> Second, I will provide a short background on Section 230 of 
        the Communications Decency Act (CDA230), its history and 
        foundational role in supporting legitimate online actors, and 
        its applicability to Backpage.com.

  <bullet> Third, I will discuss SESTA and the unintended consequences 
        of broad legislation in light of CDA230s history and the work 
        of online services to operate as good actors.

  <bullet> Fourth, I will discuss potential ways forward in crafting a 
        targeted approach to allowing justice against rogue, illicit 
        actors without upending legal principles vital to legitimate 
        industries.
Legitimate online services are committed, key actors in the fight 
        against human trafficking.
    Internet industries are indispensable to the fight to combat 
trafficking. Technology is part of the solution, and the partnership 
between law enforcement and private sector technology companies is key 
to ending the underlying criminal behavior.
    Internet companies that make up Internet Association have a zero-
tolerance policy for facilitation of sex trafficking and exploitation 
of children. Our companies have robust policies and enforcement 
practices to remove all content that promotes sex trafficking. In 
addition, our companies partner with non-governmental organizations 
across the globe on the prevention of sexual violence and exploitation, 
including the National Center for Missing and Exploited Children; the 
International Center for Missing and Exploited Children; the 
International Women's Forum; End Child Prostitution, Child Pornography 
and Trafficking of Children for Sexual Purposes; Thorn; Polaris; and 
more.
    Beyond significant financial support for organizations on the front 
lines of the global fight to end modern day slavery and human 
trafficking, technology companies are harnessing their technical 
expertise for innovative and groundbreaking technology that is used to 
great effect by other companies, law enforcement, and anti-trafficking 
groups.
    Engineers at companies including Google have worked with Thorn and 
the Hovde Foundation to develop a tool called Spotlight, which 
harnesses artificial intelligence to comb through millions of ads 
online and flag potential child victims. This tool is now used by law 
enforcement in all 50 states, and agencies using it have seen a 60 
percent reduction in their investigation time. In a single year, 
Spotlight helped identify over 6,000 victims and 2,000 traffickers. 
With advances in machine learning technology, we can continue to 
improve this technology and make it even more broadly available.
    In May 2016, Facebook hosted over 75 engineers from across the 
industry, including Microsoft and Google, as well as from child safety 
NGOs, such as NCMEC, Thorn, and InHope, for the first-ever cross-
industry child safety hackathon to develop tools and products that 
enhance child online safety.\3\ The 2017 hackathon expanded in scope 
and reach, and one of the prototypes that came out of the hackathon is 
a tool that will enable people to match known photos of missing 
children against online trafficking ads.
---------------------------------------------------------------------------
    \3\ ``Hackathon Creates Tech Solutions for Child Safety,'' Thorn 
(2017) available at https://www.wearethorn.org/blog/hackathon-creates-
tech-solutions-child-safety/?utm_campaign=cosche
dule&utm_source=facebook_page&utm_medium=Thorn&utm_content=Hackathon%20C
reates%
20Tech%20Solutions%20for%20Child%20Safety.
---------------------------------------------------------------------------
    The Thorn Technology Task Force, which includes 20 technology 
companies ranging from Microsoft to Snap, is creating networks of 
digital defenders to develop new strategies to fight their adaptive 
adversaries.\4\
---------------------------------------------------------------------------
    \4\ See Thorn Technology Task Force, available at https://
www.wearethorn.org/about-our-fight-against-sexual-exploitation-of-
children/.
---------------------------------------------------------------------------
    Twilio and Salesforce Foundation partnered with Polaris and Thorn 
to develop the NHTRC SMS-based textline, which allows victims to text 
the shortcode ``BeFree'' for a discreet and time-efficient way to 
access the hotline.\5\
---------------------------------------------------------------------------
    \5\ ``7 Ways Technology is Fighting Trafficking,'' Forbes.com (Jan. 
2016) available at https://www.forbes.com/sites/rebeccasadwick/2016/01/
11/tech-fighting-human-trafficking/#4cb245ce6
cac.
---------------------------------------------------------------------------
    Amazon Web Services powers a number of tools, such as the 
Federation for Internet Alerts, which provide life-saving child 
abduction alerts as well as facial recognition technology that aids 
police in the fight against sex trafficking.\6\
---------------------------------------------------------------------------
    \6\ ``Police can use this facial recognition technology to fight 
sex-trafficking,'' Mashable (2017) available at http://mashable.com/
2017/06/28/facial-recognition-child-sex-trafficking/#o8_T3a
MVCSq8.
---------------------------------------------------------------------------
    Match Group is working with THORN to pilot new technology that 
would use THORN data to automatically detect users who attempt use 
Match Group sites to disseminate information associated with known sex 
traffickers and remove them from the sites.
    These are just a few of many examples that grow by the day. 
Recognizing the role technology plays in providing solutions is key to 
understanding why a narrow, targeted approach is the only way to truly 
achieve our goals: undermining companies' incentives to experiment and 
participate in the innovation that targets criminal activity will only 
undermine our fight against trafficking.
Section 230 of the Communications Decency Act and Backpage.com.
    Congress passed CDA230 in 1996 as a bedrock legal protection for 
online services, ensuring that legitimate businesses can exist by 
providing that unknowing intermediaries including platforms, websites, 
ISPs, web-hosting providers, and online advertisers are not held liable 
for the actions of users. Without this crucial protection, these 
service providers would be forced to err on the side of removing their 
users' content or face unsustainable liability for their users' content 
that would harm the creation of legitimate and diverse online services. 
CDA230 remains as crucial today for startups as it was in 1996: the 
diversity of services and products today is greater than ever before, 
and CDA230s clarity provides a pathway for innovation for legitimate, 
responsible new entrants.\7\
---------------------------------------------------------------------------
    \7\ See Letter by Copia Institute, Engine, and 30+ startups on S. 
1693 (2017) available at https://www.230matters.com/letter.html.
---------------------------------------------------------------------------
    Congress struck a key balance in CDA230. CDA230 is not a complete 
bar on liability--it allows the U.S. Department of Justice (DOJ) to 
prosecute rogue, illicit actors that conduct illegal activity. From its 
inception, there have been several clear exemptions to CDA230, 
including Federal criminal law, which ensures that that the DOJ is 
empowered to prosecute online providers that take part in criminal 
activity.\8\ Additionally, it does not apply to information that the 
platform operator has itself created or developed, ``in whole or in 
part.'' \9\ CDA230 also encourages online services to moderate their 
services through the combined protections of 230(c)(1) and 230(c)(2)'s 
Good Samaritan clause, which provides an incentive to moderate 
offensive, lewd, and/or violent content without the danger of creating 
additional liability.
---------------------------------------------------------------------------
    \8\ 47 U.S.C. Sec. 230(e)(1)
    \9\ 47 U.S.C. Sec. 230(f)(3)
---------------------------------------------------------------------------
    It is a Federal crime to sell, solicit, or advertise the sexual 
services of persons who have been coerced into commercial sex under 18 
U.S.C. Sec. 1591.\10\ Congress has made clear that sex trafficking must 
be stopped and that law enforcement actions against perpetrators should 
be prioritized. In 2015, in great part due to strong desire to bring 
justice against Backpage.com, Congress supplemented an existing statute 
on trafficking by ensuring that the knowing advertisement of minors for 
commercial sex was a Federal crime.\11\
---------------------------------------------------------------------------
    \10\ 18 U.S.C. Sec. 1591
    \11\ P.L. 114-22.
---------------------------------------------------------------------------
    We also commend the Permanent Subcommittee on Investigations (PSI), 
which concluded a twenty-month investigation of Backpage.com and found 
that Backpage.com knowingly concealed evidence of criminality by 
systematically editing adult advertisements and that Backpage.com 
executives knew the website facilitated illegal activity including sex 
trafficking of minors.\12\
---------------------------------------------------------------------------
    \12\ ``Backpage.com's Knowing Facilitation of Online Sex 
Trafficking,'' Permanent Subcommittee on Investigations, United States 
Senate (2017).
---------------------------------------------------------------------------
    To date, the DOJ has not held Backpage.com accountable for its 
actions action under anti-trafficking criminal law. Congress must 
ensure the DOJ has the resources and priorities necessary. Backpage.com 
is not immune from liability for Federal crimes, including those under 
18 U.S.C. Sec. 1591, and U.S. Attorneys must use these and other legal 
avenues to undertake immediate and vigorous justice against 
Backpage.com for its knowing facilitation of criminal sex trafficking. 
State exemptions would create the potential for unpredictable, 
inconsistent enforcement against law-abiding intermediaries that 
operate without borders.
SESTA's broad approach will harm good actors and undermine our shared 
        goal of combatting trafficking.
    We share the goals of the sponsors and are committed to working 
with them to find an effective way forward that provides a mechanism to 
hold criminals accountable.
    At the outset, it is key to understand that SESTA does not require 
that an entity have knowledge of the illegal activity or a means to 
stop that activity. Section 4 of the legislation expands the scope of 
the term ``participation in a venture'' under current sex trafficking 
laws in Title 18 to ``knowing conduct by an individual or entity, by 
any means, that assists, supports, or facilitates'' sex trafficking. 
The term ``knowing conduct'' is not a defined legal term--it could 
include the fact that a platform simply knows that users communicate on 
its site. The phrase ``assists, supports, or facilitates'' has no 
requirement that an entity know that conduct is taking place, has means 
to prevent it, or any other discernible limitation. The term 
``facilitate'' is extremely broad; courts have defined it to mean ``to 
make easier or less difficult.'' \13\ This means that a prosecutor 
could simply allege that the use of a platform for coded communication 
connected to trafficking, without knowledge by the platform, 
facilitated sex trafficking; because the platform knows that users 
communicate generally on the site, a prosecutor would have to go no 
further in introducing cause for liability.
---------------------------------------------------------------------------
    \13\ United States v. Rivera, 775 F.2d 1559, 1562 (11th Cir. 1985).
---------------------------------------------------------------------------
    SESTA would introduce new legal risk not just for Internet services 
that do not knowingly and intentionally facilitate illegal conduct, but 
also create risk for an incredibly broad number of innocent businesses 
by expanding the notion of contributory liability. SESTA would hold 
potentially liable any entity that can be said to benefit from its role 
in facilitating a sex trafficking violation, even if it has no 
knowledge that it is doing so or no practical way of terminating such 
assistance.
    Under the regime of liability without knowledge or participation in 
the criminal activity, SESTA introduces new risks under CDA230 by 
creating state criminal and civil exemptions, as well as Federal civil 
exemptions. It is not hard to imagine that opportunistic lawyers will 
bring a deluge of frivolous litigation targeting legitimate, law-
abiding intermediaries, as civil liability is unbounded by any actual 
knowledge or participation in trafficking.
    Key to the discussion of state-level exemption is that (1) there is 
no data on the current criminal and civil laws that would be exempt to 
CDA230 under this bill and (2) there is no full understanding or 
limitation of the types of laws that may be passed to introduce 
liability on online services providers unconnected to the true, 
knowledgeable facilitation of sex trafficking.\14\ CDA230s exclusion of 
state liability is appropriate. The Internet is a borderless medium, 
and the potential for inconsistent regulation and liability untethered 
to the fight against trafficking is counterproductive to the intended 
goals of the legislation.
---------------------------------------------------------------------------
    \14\ See Goldman, Eric, ``Senate's ``Stop Enabling Sex Traffickers 
Act of 2017''--and Section 230s Imminent Evisceration'' (2017) 
available at http://blog.ericgoldman.org/archives/2017/07/senates-stop-
enabling-sex-traffickers-act-of-2017-and-section-230s-imminent-
evisceration.htm (discussing the potential for state laws not germane 
to the goal of combating trafficking under SESTA).
---------------------------------------------------------------------------
    SESTA will not only risk the development of innocent online 
services key to the fight against trafficking, but threatens to be 
counterproductive to the stated goals. The proposed legislation does 
not address the underlying criminal behavior and playing whack-a-mole 
with URLs/domains in civil courts is unlikely to stop bad actor 
websites that will simply move overseas and change their URLs to avoid 
being shut down. Undermining the balance struck in CDA230 encourages 
the opposite behavior desired. It will create the incentive for 
providers not to look for evidence of trafficking and to cease 
proactively eliminating illegal and unsavory content, including by 
chilling the development of technological measures to address such 
content, as any such action could implicate civil and criminal causes 
of action.
    Introducing new ambiguity into CDA230 would send a dangerous signal 
to other countries that are seeking to require U.S. Internet services 
to filter dissenting political speech and allegations of corruption.
    We encourage Congress to target underlying criminal behavior that 
will be effective in preventing trafficking and protecting victims. I 
return to the point made at the outset of my testimony: while we are 
deeply concerned about the broad nature of SESTA, we strongly support 
its intended purpose, and stand ready to work with the Committee and 
the sponsors of the legislation on achieving justice without risking 
the harms that would be realized under such a wide approach.
A narrow approach tailored to the goal of ensuring justice for victims 
        will best serve the goal of combatting trafficking.
    Ensuring justice against Backpage.com is possible without 
undermining all the work currently underway to stop online sex 
trafficking. We do not have to choose between justice against 
Backpage.com and protecting legitimate online services.
    There is also no single solution. The fight against trafficking 
requires a multipronged approach and a committed partnership between 
the government and private sector. To start, we urge the DOJ to 
prioritize prosecutions of criminal actors in violation of Federal sex 
trafficking law, which is already exempt from CDA230. This includes 
immediate action based on the July 2017 referral of PSI's investigation 
to the DOJ.\15\
---------------------------------------------------------------------------
    \15\ See Portman, Carper, McCaskill Send DOJ Criminal Referral for 
Backpage.com available at https://www.portman.senate.gov/public/
index.cfm/press-releases?ID=6CF2AC67-EDB1-4F13-9372-C13D9C6E5D9F.
---------------------------------------------------------------------------
    I would also like to highlight several areas we believe may be 
worth this Committee's attention for further exploration.
    If clarification under Title 18's reference to ``participation in a 
venture'' is necessary to the Federal accountability for rogue actors, 
we welcome language that clarifies the definition offered in SESTA to 
include a knowledge standard for ``assist[ing], facilitat[ing], or 
support[ing]'' trafficking.
    Lastly, we understand that exploring exemptions to CDA230 to allow 
for justice sought by victims is a key aspect of the reason we are here 
today. Under 18 U.S.C. 1595, victims are able to seek civil action 
against perpetrators of sex trafficking crimes.\16\ A tailored 
amendment that ensures civil suits were brought against online actors 
that acted with knowledge and intent is worth consideration.
---------------------------------------------------------------------------
    \16\ 18 U.S.C. 1595
---------------------------------------------------------------------------
Conclusion
    The Internet community stands ready to work with this Committee and 
the sponsors of the legislation on targeted approaches that not only 
bring justice against Backpage.com, but also support the ongoing fight 
against sex trafficking.
    Thank you for allowing me to testify on this critical matter.

    Senator Sullivan. Thank you, Ms. Slater.
    And we appreciate the testimony of all the witnesses on 
this critically important issue.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    General Becerra, let's just get right to the nub of the 
question. The opponents of the bill argue that it's not 
necessary to modify Section 230, which would allow state and 
local law enforcement and victims to pursue those who assist 
and facilitate online sex trafficking. The opponents argue that 
the existing statute already provides justice with adequate 
authority in order to go after those wrongdoers. Rebut that 
argument so we can pass this bill.
    Mr. Becerra. Senator, I would ask each and every one of you 
to come to Sacramento with me, where we are right now in 
prosecution of Backpage. We filed 36 counts against Backpage, 
11 of them for pimping, the sex trafficking part, and 25 more 
based on money laundering and conspiracy.
    You heard Senator Portman mention the ruling of the 
Sacramento judge recently in that case about a month ago, where 
he said, and I will quote it as well, speaking about Section 
230 and its broad coverage shield against prosecution of those 
involved in sex trafficking. The judge said, ``The broad reach 
of Section 230 of the Communications Decency Act even applies 
to those alleged to support the exploitation of others by human 
trafficking. Based on that, the judge dropped every single 
count relating to sex trafficking.'' And we are now left to 
prosecute based on the conspiracy charges and money laundering, 
which we will vigorously do, but Backpage has been spoken about 
over and over again, does more than just engage in conspiracy 
and money laundering, from our perspective.
    If we don't have the tools, the only winners are those who 
go to the Internet. This is no longer the brick-and-mortar 
stuff, and it actually was never good business on brick-and-
mortar because it was always on the run on the streets. But now 
the Internet has become an easy way to make money in this 
criminal enterprise, and we need the tools to go after these 
folks. We're fighting with two hands tied behind our back.
    Senator Nelson. All right. Let me ask you and Ms. Souras, 
of course, the opponents to the bill are going to say this is 
going to end the Internet. They're going to say it's going to 
end the Internet economy. Give us the argument against that.
    Ms. Souras.
    Ms. Souras. Thank you, Senator. At NCMEC, we have over 3 
decades of working closely with the technology companies within 
the purpose of our mission. They have provided tools and 
partnered with us in a very collaborative manner to participate 
in ridding the Internet of child sexual exploitation material. 
There are good actors on the Internet, and there are actors 
that will always make extra efforts and collaborate with others 
to make sure that, you know, there is not criminal activity or 
other harmful contact on the Internet. They do that for 
business purposes. They do that for altruistic purposes as 
well. There is simply nothing in this bill that will curtail 
that activity. The narrow scope of this bill is drawn to ferret 
out and shine a spotlight on those bad actors, those who are 
not screening, are not engaging with others----
    Senator Nelson. All right, let me come back to you, 
General. So the argument is going to come, well, it's not going 
to allow websites to allow users to post restaurant reviews, 
family pictures, or comments because of the fears of liability. 
Rebut that.
    Mr. Becerra. I don't know what menus you're reading----
    [Laughter.]
    Mr. Becerra.--but this is not what we're going after. 
Senator, I think everyone should realize here, at least from 
the perspective of attorney general or a district attorney, we 
have to prove criminal intent. We can't win a prosecution 
unless we can show that the individuals we're prosecuting, like 
Backpage, had the intent, the knowledge, to do what they're 
doing.
    The legislation that you have before you is very narrowly 
tailored. It goes only after sex trafficking. The broad 
exemption from any type of lawsuit for those who provide online 
services remains. It's only if it's sex trafficking, and I've 
got to prove that it's sex trafficking and that the defendants 
intended to violate that law.
    Senator Nelson. All right. Any one of you explain why this 
change in the law is so important in the larger fight against 
child sex trafficking?
    Mr. Becerra. I think you need Ms. Ambrose here to tell you 
the most important reason why.
    Senator Nelson. I agree. That was fairly dramatic.
    Mr. Becerra. It's the rubber hitting the road, Senator, and 
we're facing it all the time. We've got another prosecution 
going on right now, and it's only because we've got evidence of 
the street pimping that occurred. But we've got another 
prosecution going on where there were young girls--most of them 
under the age of 16--who were being taken from the Central 
Valley of California and then marketed in Southern California 
and the Bay area of California. And we found out. And Backpage 
was part of this operation, and we're going after them, we've 
got evidence. But if you have to depend on going after those 
based on the Internet, it's near impossible.
    Senator Nelson. I thank all of you for coming forward, and 
especially to Ms. Ambrose.
    Senator Sullivan. Thank you, Senator Nelson.
    Senator Blunt.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Thank you, Chairman.
    Attorney General Becerra, it's good to see you again. We 
served together for a long time----
    Mr. Becerra. Yes, sir.
    Senator Blunt.--and it's fun to watch you take this 
responsibility, and it's a big one, and I know you're looking 
at this and lots of other areas. In our state, Attorney General 
Hawley has been investigating Backstage as well, and they've 
actually sued him and the office, taking them to court, using 
Section 230. Have you seen that same kind of response from 
Backstage?
    Mr. Becerra. We've seen that on a number of occasions. They 
affirmatively act because they feel empowered to use Section 
230 to defend themselves, and use it as an offense.
    Senator Blunt. Do they use that to suggest that your 
prosecution is frivolous? How do they use their defense of 230?
    Mr. Becerra. For the most part, they're saying, ``You can't 
touch us.'' And the court rulings unfortunately seem to imply 
that in many cases. We believe the courts have misconstrued 
what Section 230 was meant to say. I remember. I was here in 
1996, like you, when we voted on the Telecommunications Act, 
which was--and the Communications Decency Act was part of the 
Telecom Act. I don't remember 1996 ever believing that my vote, 
my yes vote, meant that I was going to allow 21 years later for 
kids to be sold out there through the Internet for sex.
    Senator Blunt. Ms. Souras, do you have any records that 
would indicate of the victims of sex trafficking, how many of 
them in one way or another involve Backpage as a specific entry 
level to that world as it relates to victims?
    Ms. Souras. We do, Senator. As the national clearinghouse, 
we are the recipient of reports relating to child sexual 
exploitation, including child sex trafficking. And over the 
past 5 years, approximately 73 percent of those reports that we 
receive from the public relating to child sex trafficking 
involve a Backpage.com advertisement.
    Senator Blunt. Seventy-three percent.
    Ms. Souras. Yes, sir.
    Senator Blunt. And I think you covered this in your 
testimony, but if this legislation would pass, how do you 
specifically think it would help in your effort to save kids 
from sex trafficking and others from sex trafficking?
    Ms. Souras. I think there would be two immediate benefits. 
I mean, in one way, NCMEC, you know, obviously is a victim 
advocate, speaks for and represents the voices of victims. And 
it will provide victims an incredibly powerful tool to come 
forward and seek civil remedies against a company that has 
actively participated in their trafficking. We believe in that 
right. It is a right that also exists for children who have 
been victimized through child pornography. It's a very powerful 
right to give victims, very empowering.
    You know, on the second side, from a more operational 
perspective, I think it goes without saying, and it has been 
said previously in this hearing, this is not a Backpage bill, 
children are not sold for sex only on Backpage. We talk about 
Backpage because it is the largest website, it has captured the 
market share, but when it goes away, there will be others. But 
our hope is that with the change to the CDA, while there might 
be others with criminal intent, with the desire to earn money 
in this way, and create a similar website, that will realize 
that there now is a legal bar to entering that marketplace.
    There is no such legal bar now. Backpage is the example for 
that. So our hope is that others coming up behind Backpage will 
not enter that market or will be more immediately prosecuted 
both at a Federal and state level.
    Senator Blunt. And, Ms. Slater, do you have a problem with 
us doing something that would reopen that legal pathway for 
people who have been victimized using--and the Internet becomes 
the pathway?
    Ms. Slater. Thank you for the question, Senator. At 
Internet Association, we stand behind the goals of SESTA. We 
want to see an end to sex trafficking online. And we would love 
to live in a world where there are no more victims of sex 
trafficking. So I wanted to say that up front.
    Where we have difficulty with SESTA, as currently drafted, 
is that it is overly broad in several respects. However, we 
have stated publicly that we would support a specific amendment 
that would allow victims to sue for civil penalties in court, 
to seek some form of redress for the horrible things that have 
happened to them.
    And we are in discussions with several members of the 
Committee. We heard those discussions referenced----
    Senator Blunt. On civil penalties?
    Ms. Slater. Yes, and other issues also.
    Senator Blunt. Let me go to Mr. Goldman. Mr. Goldman, do 
you want to respond to that same topic quickly?
    Mr. Goldman. As Ms. Slater said, I do think that it is 
important for the Committee to continue its work on sex 
trafficking promotion. But SESTA itself as a solution has some 
of the problems regarding when a site has knowledge. And 
knowledge doesn't come in a 0 or 1 format. Because of the 
different ways that sites might moderate, they might be exposed 
to different kinds of information that could lead to the 
knowledge. And that's the dilemma that creates the decision for 
them, are they going to take action or not?
    Senator Blunt. Thank you, Chairman.
    Senator Sullivan. Senator Duckworth.

              STATEMENT OF HON. TAMMY DUCKWORTH, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Duckworth. Thank you, Mr. Chairman.
    I want to take a moment again and thank Ms. Ambrose for her 
courage and willingness to share her family's tragic story. 
Without a doubt, Desiree Robinson's story sharpens my personal 
resolve to find solutions that will move us forward.
    It's difficult to fathom Ms. Ambrose's pain and anger or to 
know that thousands of other families across the Nation have 
shared her grief. As a mom of a two and a half year old girl, I 
am grateful to her for her willingness to speak with us today.
    Every year, thousands of sex trafficking cases are reported 
across the U.S. According to the National Human Trafficking 
Hotline, 156 of those cases were in Illinois last year. This 
year, at least an additional 75 cases have been reported in 
Illinois, and that's just reported. These statistics are truly 
alarming, and worse yet, they reflect only a fraction of the 
problem.
    Ms. Souras, you highlighted that NCMEC has received nearly 
10,000 reports of suspected sex trafficking on its 
CyberTipline. You also emphasized the underreported nature of 
child sex trafficking crimes. Do you have any sense of the full 
scope of these crimes? And are there any existing mechanisms 
that could be leveraged to better understand the scope of these 
crimes?
    In talking to Ms. Ambrose, for example, you know, she said, 
look, these kids are coming home at the end of the day, they're 
getting pimped out, they're going out there, they're coming 
back. The families don't know. Oftentimes the children, the 
victims, are being threatened with the safety of their families 
to keep quiet. So how do we even get our arms around what the 
full scope is?
    Ms. Souras. Thank you, Senator. It is a very difficult 
problem. NCMEC takes the position that we will rely on our own 
numbers. There are quite a few numbers out there, quite a few 
call centers and hotlines that receive these types of reports. 
And currently, I think it's important to understand there's no 
requirement that incidents of child sex trafficking be reported 
to the National Center as a clearinghouse on those issues, so 
the reports we receive are voluntary. It is wonderful that we 
do receive the volume we have, but because it's not mandatory, 
that is another reason why we know it is not near the full 
number.
    You know, the other complicating factors, as you mentioned, 
are many of these children are still in their homes. They may 
not necessarily have left, they may still be in school to some 
extent. So it is very difficult to identify. And, you know, 
also to have those adults who are in place, whether it's 
parents, communities, teachers, medical workers, be cognizant 
of the potential warning signs that a child might be being 
trafficked. It's an area that we focus on a great deal in our 
prevention and education work, as well as the operational work 
we do. We obviously would like to be able to intervene and help 
communities intervene before a child is lured into trafficking 
or, you know, before they end up on Backpage or another 
website.
    Senator Duckworth. Is there anything that health-related 
agencies and, as you mentioned, Federal law enforcement 
agencies can help us to paint a clearer picture since there's 
no national mandatory reporting clearinghouse?
    Ms. Souras. You know, I think every law enforcement agency 
certainly keeps its own numbers and statistics that are very 
valuable, but again there is an issue with these victims 
reporting, or also communities identifying what they are 
suffering truly as trafficking, and there is a bit of a 
disconnect. And, you know, I would go back again to the 
importance of education and the realization that this happens 
in every community. So when law enforcement sees or hears or a 
teacher feels like they are hearing or seeing a situation 
involving a child who might be trafficked, they need to 
acknowledge that could be what is happening. You know, again, I 
think there is a resistance often to accepting that this does 
happen in every large and small community here in the U.S. So I 
would say education and awareness again.
    Senator Duckworth. Thank you.
    Attorney General Becerra, good to see you again. It was a 
pleasure to serve with you in leadership in the House. I don't 
think anyone is under the illusion that a silver bullet exists 
to eliminate sex trafficking altogether, but most stakeholders 
agree addressing the legal inconsistencies between sex 
trafficking laws and Section 230 would strengthen the hand of 
courts and of prosecutors. Aside from the legal inconsistencies 
that I hope SESTA will address, what additional barriers 
undermine or limit your ability to attack sex trafficking head 
on?
    Mr. Becerra. I will tell you that California has pretty 
decent law when it comes to this issue. Our biggest obstacle is 
SESTA because we can't move forward on the sex trafficking and 
pimping charges because of the court rulings that say that the 
Section 230 protection makes it impossible for us to move 
forward on some of those prosecutions. If we could get past 
that, we would be able to help so many of these kids so much 
quicker.
    Senator Duckworth. Do these websites actively help the 
people posting change the wording of the ads in order to skirt 
the law?
    Mr. Becerra. We've seen evidence of that, and that's the 
disturbing part, is that that's a knowing act, and that's where 
we could go after someone under a bill like 1693, but, again, 
without the authority to do so, we're constantly told by too 
many courts, ``You don't have the authority.''
    Senator Duckworth. Thank you.
    I yield back.
    The Chairman [presiding]. Thank you, Senator Duckworth.
    Senator Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman.
    Thank you to all the testifiers and to the Members who 
testified before. The purpose of SESTA is to enable civil and 
criminal prosecution against bad actors, but we obviously want 
to provide space and not deter proactive actions by good actors 
that are doing the right thing to mitigate sex trafficking on 
the platforms.
    I'd like to ask each of you, there's a conversation going 
on about whether report language clarifying that the law is 
intended to apply to those actors who enable sex trafficking 
and not to those who promptly act in good faith to address a 
violation. And I'm wondering if that would be sufficient, if 
you think that that would be enough for counsel to hang their 
hat on for some of these big platforms who want to do the right 
thing, but are, at least in this conversation, worried that 
their knowing at all triggers the knowing part of the statute. 
And so wondering whether report language would suffice in your 
view?
    And I'll start with the Attorney General.
    Mr. Becerra. Senator, that's an excellent question. I will 
tell you that it's always a roll of the dice when you try to 
rely on report language or legislative history. We see today 
that the language of the Communications Decency Act has been 
interpreted by many, many courts to preclude state and local 
law enforcement from moving forward on a prosecution. That's an 
interpretation of the law that I would disagree with. I believe 
we have the authority right now. So if we had report language, 
would that help? That would probably get tested quite 
frequently in court. I can't tell you I would have the 
confidence that that would be enough, and every day that we 
don't do something, there are more kids who are being 
exploited.
    Senator Schatz. Mr. Goldman.
    Mr. Goldman. Yes, thank you. The report language, I agree 
with Attorney General Becerra, wouldn't override the expressed 
language in the statute. So if Congress wants to say something, 
it should say so as clearly as possible.
    I want to reiterate that the knowledge standard, especially 
in the case of civil claims, is a new thing for Section 230. In 
general, Section 230 has not had a civil exception that has 
been predicated on knowledge. So the opening up of the door to 
looking at a site's knowledge will be something that we haven't 
seen before, and because of that, we're going to have a lot of 
questions. What exactly did the site know and when? And what--
and how do we characterize that under the legal standards? 
Those are all new questions for us.
    Senator Schatz. Just to probe a little deeper on that, on 
the knowing standard, when we imagine the knowing, we imagine 
the individual instance of sex trafficking, we imagine the 
instance that Senator Duckworth was talking about, where 
someone is being coached on what language to avoid. In other 
words, we're imaging Backpage or some similar enterprise or 
instance. The worry from some of these big platform companies, 
and I don't frankly know whether it's legitimate or not, is 
that they're saying, ``Listen, we're so large that it would be 
accurate to say that we know as a general matter that bad stuff 
happens on our platforms because we have billions of users.''
    And so the question becomes, if we're not trying to create 
an affirmative obligation for an Internet platform to 
essentially police all of their platform, and we are really 
going after the people whose primary enterprise is to make 
money off of this criminal enterprise, then can we craft a 
statute that holds harmless--``holds harmless'' is the wrong 
word, but that understands that there's a balance here?
    Mr. Goldman. Yes, thank you for the opportunity to clarify 
and follow up on that because I think the answer is we could 
create such a standard, but we would want to be extremely 
explicit about exactly when that knowledge occurred because 
otherwise there will be lots of discussion and debates over, 
well, you knew it based on you having taken this step or that 
step, or inferentially you should have known, or constructive 
knowledge, you should have been realizing what was taking place 
on your site. All of those will become the basis of which there 
will be plenty of disputes. Clarification from Congress about 
this exactly is what constitutes knowledge would be extremely 
helpful if you want to go down that route.
    Mr. Becerra. Senator, if I may? Oh, I'm sorry.
    Senator Schatz. Let me just go down the line.
    Mr. Becerra. Sure.
    Senator Schatz. I'm sorry.
    Ms. Souras.
    Ms. Souras. Yes. From our point of view, that provision 
within SESTA is already sufficiently narrowly drafted. And I 
know we're talking about knowledge, but the language in the 
actual statute is knowing conduct by an individual or entity 
that assists, supports, or facilitates basically an instance of 
human sex trafficking. So something more is required. And we 
could debate what is conduct, you know, in the context of an 
online platform. But I just want to make sure that, you know, 
we're clear that it is not just simply a blanket notice type 
standard.
    You know, that being said, I certainly acknowledge there 
could be complex, very specific business practices that certain 
platforms might, you know, utilize where they fear they could 
fit within that definition. I think that's where the nuance of 
the discussion can come. And I would just again kind of applaud 
the continuation of those discussions with Senator Portman and 
Blumenthal and the cosponsors.
    Senator Schatz. I'm over time, so, Mr. Chairman, should I 
take this one for the record?
    The Chairman. Do you have another one?
    Senator Schatz. No, no, just the last answer.
    The Chairman. OK. No, go ahead, Ms. Slater.
    Senator Schatz. So, Ms. Slater, go ahead.
    Ms. Slater. Thank you. So I would echo Mr. Goldman's 
sentiment. And I would also draw attention to the actual 
language in Section 4, which we've already heard about, which 
is knowing conduct that facilitates and assists. And to our 
members, having reviewed the text, this seems to be a more 
troubling standard, difficult standard to manage than the 
existing sex trafficking law standard.
    And we heard Senators Blumenthal and Portman talk earlier 
about a tighter standard, and we, our members, would be willing 
to talk with Committee staff, with individual offices, about 
how we think we can improve that language in Section 4 in a way 
that meets our shared goal, which is to deal with this heinous 
crime.
    Senator Schatz. Thank you.
    The Chairman. Thank you, Senator Schatz.
    Next up, Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you very much, Mr. Chairman. And to 
you and the Ranking Member, thank you for holding this 
important hearing.
    Thank you to all the witnesses for being here today. This 
is an issue I've been working on for some time, including 
working as Governor of New Hampshire with both parties to 
strengthen our laws against human trafficking. And I also want 
to take a moment to recognize Yvonne Ambrose for her courage, 
which really reflects the courage of all victims and survivors 
who come forward to shed light on the evil of exploiting people 
for sex. Sadly, that includes children like Desiree Robinson.
    My mom taught history at my local high school, and she 
always used to say that what kids need more than anything else 
is to have a grown-up in their corner. So I'm glad today that 
the U.S. Senate is working at doing that, being the grown-ups 
in the corner for our children. And I'm cosponsoring this 
legislation because I really support the goals of this bill, to 
ensure that justice for victims of sex trafficking is possible 
and to hold bad actors like Backpage accountable and liable.
    Look, I know there are conversations, we're having some of 
them, that are going back and forth about ways we can improve 
the bill, and that's part of today's purpose, to hear different 
perspectives. I just want, as a cosponsor, to encourage these 
conversations to go forward, and perhaps with that, I think the 
attorney general was about to add to answer Senator Schatz's 
question, because I would really like to hear, I think we'd all 
like to hear, some specifics about how we can make this law as 
effective as possible without the unintended consequences that 
we've heard here today.
    Mr. Becerra. Senator, thank you for a moment to also 
respond to the question from Senator Schatz. Let's first 
acknowledge that there are so many stakeholders within the tech 
community who have stepped up and they're doing what they can, 
but you have to have a concerted effort by all because it's so 
easy to hide in the corners.
    But let me see if I can give you some comfort about 
amending the CDA. If it's tough to have a knowing standard for 
a company or someone in the Internet space to know whether they 
are going to be found liable or not because they may be accused 
of knowing, think about what the standard then is for me and my 
prosecutors if I have to prove beyond a reasonable doubt that 
they knew. That's why I think that we can amend the 
Communications Decency Act and do it narrowly.
    So what we're doing, at least on the criminal prosecution 
side, we make it very difficult for prosecutors to sort of 
shotgun this and go after people all over the place. You have 
to be able to prove beyond a reasonable doubt that these folks 
knew what they were doing. Otherwise, they can't prove criminal 
intent. And so for that reason, if it's tough--if you think 
you're concerned about that stakeholder in the online community 
not knowing whether he or she could be accused, think about the 
standard I then have to face if the doubt, the uncertainty, 
lies there in the evidence. I have to have strong evidence that 
I can prove beyond reasonable doubt.
    Senator Hassan. Thank you. And I would encourage Professor 
Goldman, and, Ms. Slater, I thank you for your comments. 
Because my time is running low, I would encourage you to be--
you and your members to be very specific about what good 
language would actually look like rather than raising 
objections.
    But before my time runs down, I did just want to turn to 
Ms. Souras because we know that online sex trafficking has 
affected people all over the country, it certainly has in my 
state. One case that received national attention in the past 
few years was a girl named Emily, who ran away from home. She 
was being advertised on Backpage by a pimp for sex all across 
New England, including in New Hampshire. She was 15 years old. 
I am grateful that she was located, but my understanding is 
that under current law, neither she nor other teenage victims 
of online sex trafficking can seek justice against the 
companies that enabled their exploitation.
    So, Ms. Souras, we've heard a lot today about how to change 
the laws and the impact that the changes would have on 
companies such as Backpage, but can you speak for a minute 
about the impact of being denied the ability to seek justice 
has on survivors such as Emily?
    Ms. Souras. Thank you, Senator. It is something that we 
certainly witness as victims move through recovery and then 
decide to bring a legal action. It is an incredibly empowering 
and self-revitalizing in many ways aspect of their recovery. 
They're able to stand up and say, ``This happened to me. It was 
wrong. And someone should pay for that in some way.''
    So the ability of victims to do that, as we see victims 
have the ability to do that in child pornography cases, you 
know, which certainly shares some victimology symptoms to child 
sex trafficking, is incredibly important and empowering for 
these victims. It also is an acknowledgement to them that 
society recognizes the harm that has been done to them, that it 
was not their fault, and also that they can move forward with 
their lives. So it's incredibly important.
    Senator Hassan. Well, thank you very much for your work and 
for your testimony today.
    Thank you, Mr. Chair.
    The Chairman. Thank you, Senator Hassan.
    Senator Booker.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Thank you, Mr. Chairman.
    You know, we call this sex trafficking, but clearly this is 
modern-day slavery, and it is at a scale that most don't 
understand, that this is a multibillion dollar industry with 
sophisticated individuals engaging in the most heinous actions 
of humanity, and it is something that I've been encouraged to 
see the kind of commitment in a bipartisan fashion, that we 
have to erase this scourge of slavery from our country that 
exists in every state and every type of community and has now 
grown far more sophisticated and enabled by the Internet.
    And so I'm appreciative of this hearing and I'm 
appreciative of the sense of urgency, and I just want to try to 
get to the root of what seems to be the balance that people are 
trying to achieve, which is to give great leaders and law 
enforcement, like General Becerra, the tools necessary to bring 
evil people to justice. But I hear a lot of, obviously, other 
arguments about not wanting to undermine good actors and what 
they're doing.
    Ms. Souras, in response to Senator Schatz's inquiry, you 
seem to in some way--that knowledgeable standard, the knowledge 
standard--you seem to have some concerns that you could go too 
far, that you have to strike a balance. Is that correct?
    Ms. Souras. Well, Senator, I think the knowledge standard, 
let's say, as drafted in SESTA, is already sufficiently narrow. 
Again, it targets very specific activity to knowingly assist, 
support, or facilitate the selling of a human being for sex. I 
do not think that is the sort of broad category of knowledge 
that could create an inadvertent violation.
    Senator Booker. And it's a pretty high standard in the 
legal sense----
    Ms. Souras. Absolutely.
    Senator Booker.--to prove, as was said, beyond a reasonable 
doubt.
    So, Ms. Slater, how do you respond to that? Because you 
clearly--and I appreciate you leading with your compassion and 
empathy and disgust at what's been going on and your belief 
that something needs to be done at the Federal level to address 
this. But do you disagree with Ms. Souras about that, that the 
knowledgeable standard, as written now in the legislation, is 
too low of a standard and good actors will be caught up?
    Ms. Slater. Thank you for the question, Senator. So as I 
mentioned previously, the standard in Section 4 of SESTA, as 
currently drafted, is different from existing Federal sex 
trafficking standard. And we did hear from Senator Portman and 
from Senator Blumenthal, that the standard they were talking 
about in their opening remarks was the higher standard. And so 
we're happy to have discussions about that and to seek that 
clarification with the drafters of the bill.
    We do absolutely share the goals of this Committee and of 
the Senate that we should work together to seek to put an end 
to sex trafficking online.
    Senator Booker. No, I understand. I'm really trying to get 
to the details now. What specifically would you want to see 
changed when it comes to the knowledge standard? What? Can you 
just be very granular for me?
    Ms. Slater. Yes.
    Senator Booker. I understand your intentions and the 
nobility behind them, but I'm trying to understand what's wrong 
specifically with the knowledge standard, as stated in this 
legislation.
    Ms. Slater. And so today the bill, in Section 4, states 
knowing conduct that facilitates and assists, et cetera, et 
cetera. And the standard that we previously talked about and 
the standard that Senator Portman and Senator Blumenthal 
referred to is knowingly facilitates and assists sex 
trafficking. And the advice that I am getting from legal 
council at the companies is that those are two different 
things, and they're seeking to clarify that difference. And, 
again, we're happy to talk to any members of the Committee or 
their individual staffs.
    Senator Booker. Thank you.
    Mr. Goldman, can you give me something that's very specific 
in how this might put a chill on--and Ms. Slater represents 
large companies. Obviously there are lots of startups out 
there. Could you be very specific and help me understand how 
this would put a chill on a small company, on an entrepreneur, 
a standard that for law enforcement is a very high standard to 
meet?
    Mr. Goldman. Right. And just to--thank you for the 
question. Just to clarify, there are both criminal and civil 
provisions. The civil provisions would not be subject to the 
same burden of proof that Attorney General Becerra talked 
about. So we already have two different things we're talking 
about simultaneously, and I think that's one of the confusions 
I have.
    The knowing conduct is different than knowing that an ad 
was promoting the victim of a sex trafficking--of a sex 
trafficker. So by focusing on knowing conduct, it actually 
focuses on the conduct, not on knowing that there was an actual 
legal violation taking place. And so right there, there seems 
an opportunity for us to clarify. If we mean that the service 
writer has to know about the violation, we should make that 
more clear.
    Otherwise, when we talk about knowledge generally, sites 
will take a number of steps to either reduce their knowledge, 
which means they'll turn off particular sections of their 
websites or they'll adopt filtering that will filter out more 
than the legal violation, or they will simply decide, ``We will 
do nothing, and therefore we could not possibly have knowledge 
of anything.''
    Senator Booker. Out of respect for my colleagues, I need to 
stop. But you're saying that the civil standard, it will be 
lower and invites civil lawsuits, not--you're not concerned 
about state and Federal law enforcement.
    Mr. Goldman. I have other reasons to be concerned about 
state attorney general prosecutions here, but the civil 
standard here would not be subject to that high level of proof 
that we would expect from a criminal prosecution.
    Senator Booker. Thank you.
    Mr. Chairman, thank you.
    The Chairman. Thank you, Senator Booker.
    Next up is Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you.
    Thank you for the conversation today. And let me just start 
off, because I think, like Senator Booker, I'm trying to really 
understand and get down to where we can come to agreement on 
this legislation, which I think is so important that we pass 
it.
    So let me start here. Under Section 230, as it's written 
now, the Federal Government, Federal law enforcement, has the 
authority to go in and shut down a website for sex trafficking, 
correct? I'm going to open it up to anybody. Is that correct?
    Mr. Becerra. Yes. The Federal Government has the ability to 
criminally prosecute.
    Senator Cortez Masto. And so that's what they have now, and 
that has not impeded any freedom of speech or the evolvement of 
the Internet, correct? I'm going to open it up to anybody. Is 
that true?
    Mr. Becerra. I'm going to give you an affirmative to that, 
but I'll let somebody else----
    Senator Cortez Masto. OK. I haven't heard anything 
differently. So what we're doing right now and what I 
understand is because the sex trafficking of our kids and 
adults is so prevalent, like any other criminal law enforcement 
activity that occurs, we are looking for the allowance of state 
law enforcement to also pursue and shut down these sites when 
sex trafficking is occurring. Is that correct, General?
    Mr. Becerra. Senator, from my perspective, yes. I am 
looking for the authority to do what Federal prosecutors can 
do, which courts are denying me right now. I believe under the 
statute I should have the authority, but it has been construed 
differently.
    Senator Cortez Masto. So the only thing we're doing is 
opening the door to now allow local law enforcement and state 
law enforcement to also do the same thing that the Federal law 
enforcement has to do under this, which is to shut down those 
sex trafficking sites, correct?
    Mr. Becerra. That's the principal reason why I'm here.
    Senator Cortez Masto. OK. And that's why as Attorney 
General, I signed onto a letter in 2013 to change the 230 CDA, 
and that's why I continue to support it.
    Now, I understand with your concern with respect to Section 
4. I do think it is overly broad. And the knowledge piece that 
we're looking for is already in the U.S.C. itself, Section 
1591. I mean, General Becerra couldn't have said it better. If 
we're going to prosecute, that mens rea of knowledge is already 
in the criminal statute.
    And so that's what we're looking to do, and I think that's 
the only piece that we're trying to do here, is because under 
the case law that I have seen as attorney general when I was 
pursuing these sex trafficking cases, they're looking at 230, 
and the courts are interpreting that State law is preempted by 
Federal law, and we don't have this ability.
    Now, there is so much sex trafficking going on, and let me 
just tell you, this is a crime that is so prevalent, and thank 
you, Ms. Ambrose, for being a voice, because it is not an easy 
thing for you to get up here and tell your daughter's story. 
And your story is one that I've heard too many times in my 
state as attorney general. And this is an issue that we have to 
stop. We have to stop it. And it is not just for Federal law 
enforcement to stop it, it is for all law enforcement, for 
state, local, to take action. And that's all we're asking, is 
that state law enforcement have that ability because it is so 
prevalent.
    And so the goal we're trying to do is limit it to sex 
trafficking only so that there isn't the concern I hear in some 
unintended consequences that may occur with some of the 
agencies that I've talked to with respect to the websites.
    So, Mr. Goldman, I've only got about a minute 26 left. I 
understand you have concerns with states having that authority. 
I ask, ``Why?''
    Mr. Goldman. Correct. Thank you. So the question is, Why do 
I have reservations about state attorneys general enforcing the 
law? There are two different issues in the bill. One is the 
bill would authorize state crimes to be newly enforced in 
addition to the Federal crimes. There is some overlap between 
the two. But now we open up the door to a whole bunch of new 
laws that have not been previously enforced against the 
Internet community. And those laws haven't been approved by the 
rest of the Internet. They've been approved by that state--
those states' voters, and the attorney general has been 
approved by that state's voters. So the effort to impose these 
other crimes on the rest of the Internet creates the 
possibility that the state itself, the people who aren't in 
that state are having the laws of a state applied against them 
in ways that they may not have had a chance to vote on.
    Senator Cortez Masto. So if we were limiting it 
specifically that the state could pursue an action for sex 
trafficking pursuant to 1591, that's going to limit what they 
can do and the action that they can take, and so this would--
would that satisfy your concerns?
    Mr. Goldman. That would certainly help make sure that we're 
now applying a single Federal standard as opposed to a much 
more heterogeneous set of laws.
    Senator Cortez Masto. I appreciate that. Thank you. I 
understand my time is up.
    Mr. Chairman, let me just say thank you. This is such an 
important topic. I have worked as attorney general with my 
colleagues, and now General Becerra, trying to change this, and 
many advocates in this room, Mrs. McCain and NCMEC and so many 
others. I think it's such an important topic and I so 
appreciate you having the hearing today.
    The Chairman. Thank you, Senator Cortez Masto. I appreciate 
your good questions.
    And next up is Senator Cantwell. I felt like I was skipping 
over you.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. No, that's OK. 
Thank you. I appreciate my colleague from Nevada's questioning 
and the issues.
    And I wanted to ask you, Attorney General Becerra, about 
what else we need to be doing to address this problem. I have 
worked in the past with both tech companies and INTERPOL on 
trying to create better tools to use the Web as an 
investigation for a crime scene so that law enforcement know 
what to be looking for, the challenges they face. But what else 
do we need to do?
    As someone who comes from a state where I know that there 
is trafficking, the I-5 corridor, the central part of our 
state, from sporting events to Vegas activity. Tell me what 
else that we need to do to give the tools to law enforcement 
beyond what we're talking about here today?
    Mr. Becerra. Certainly trying to provide the services and 
help that Ms. Souras and some of the other phenomenal advocacy 
organizations have been doing. They're doing it on a shoestring 
budget. They are saving lives. They are rehabilitating kids. 
The more we do for them, the greater the chance that someone 
with all this trauma will survive.
    Second, remember how tough it is to file a lawsuit, a civil 
lawsuit. It is not easy to be a company that's making millions 
of dollars on the Internet. When you're an average person who 
knows your child was taken advantage of and exploited through 
sex trafficking, it's going to be really tough to manage a case 
against a large company with lots of lawyers.
    But, third, if we can't even prosecute--you could give the 
Federal Department of Justice a much larger budget so they 
wouldn't have to pass on trying to prosecute all the various 
cases throughout the 50 states and all the territories, but 
they can't go after everybody. That's why you've got 50 state 
attorneys general, the District of Columbia's attorney general. 
That's why we've got in California 58 district attorneys in our 
58 counties. We can do some of that, but we can't unless we 
have the authority to do it under the Communications Decency 
Act.
    And so probably the best thing to do if we want to sort of 
break the logjam here is give us the authority to descend on 
some of these folks because if we can prosecute--remember it's 
always better to prosecute criminally someone than try to go 
after them civilly and try to see if you can get monetary 
damages.
    Senator Cantwell. No, I'll--well, I'm not opposed to that, 
that's not what I was referring to, because I'm pretty sure 
this problem has existed sans this vehicle, and we want to make 
sure that we're fighting on every opportunity. And one thing 
that we want to do is enhance the communication so that law 
enforcement has the tools. As I said, we've been involved in 
other things where Interpol and tech companies were working 
together----
    Mr. Becerra. Yes. Yes.
    Senator Cantwell.--to try to help disseminate information 
so that we were stopping these--so that we were actually 
following the trail to actually find these people and stop 
them. But I'm also interested in the non-Internet side, too, 
because it's such a pervasive problem in very rural parts of 
our state, and I want to make sure that we're giving law 
enforcement all the tools necessary. So we don't always get you 
here to ask that question. So thank you for that.
    Mr. Becerra. Thank you.
    Senator Cantwell. And so on the identification side, are 
there things that we can be doing in the local communities to 
identify individuals and networks?
    Mr. Becerra. A lot is being done. I will tell you I'm 
amazed at the amount of work that's done. It's mostly because 
you've got very concerned parents who find out that their child 
was involved, and they're starting to work with organizations. 
I think there are a great number of individuals and companies 
within the tech community that have stepped to the plate to try 
to be supportive to help people understand how to do this. And 
a lot of local governments have formed task forces to work in a 
collaborative manner with every stakeholder.
    So a lot is being done, but if you hit the roadblock every 
time of trying to prosecute or get civil taken, it's 
impossible.
    Senator Cantwell. Yes. No, I get your point there. I just 
want to make sure we're--now that we have this forum, I want to 
build all the opportunities that we have. That's the point.
    Mr. Becerra. Absolutely.
    Senator Cantwell. And you're mentioning this information 
flow. We've had former colleagues who have taken a pretty big 
role in this in my state, and we want to make sure that the 
work that's being done to help elevate the discussion is there. 
So if you think that there is something on like a help network 
line to identify more of these things so we can go in and--that 
would be helpful. So thank you.
    Mr. Becerra. Thank you.
    Senator Cantwell. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell.
    Another vote has been called. I have Senators Blumenthal, 
Young, and Udall, and I think if we try, we can probably wrap 
things up and get everybody there in time for the vote.
    So, Senator Blumenthal, you're up first.
    Senator Blumenthal. Thank you, Mr. Chairman. And in order 
to give my colleagues perhaps more of a chance to question, I'm 
not going to make any further remarks. I think I've said why I 
so strongly support this legislation, which I have helped to 
craft, and we've tried to do it carefully, and we tried to 
listen to the industry. We've tried to listen really closely to 
some of the concerns that have been raised this morning by Mr. 
Goldman, for example, the idea that this legislation will cause 
sex trafficking to--I'm using your word--proliferate. Hard to 
believe.
    Mr. Becerra, what do you think? And will this measure cause 
sex trafficking to proliferate?
    Mr. Becerra. I can't agree with what Professor Goldman has 
said. I think it's just the opposite. If we have a standard in 
place, then I believe the stakeholders within the Internet 
community will come forward in ways that we've seen before, but 
even more vigorously because they'll understand what the 
standard is, and I think that's so very important to make it 
clear for folks.
    The most important thing, Senator, I think Senator Booker 
sort of pointed this out, is we need to get the opponents of 
this measure to explain in detail what they would propose in 
place. Otherwise, it's always a moving target. It's Whack-A-
Mole. Someone needs to give us what a better bill looks like.
    Senator Blumenthal. And we have urged and welcomed their 
participation, and only recently have they begun making 
suggestions. In one proposal, they would, in effect, either 
drastically curtail or eliminate the role of state attorneys 
general or other state law enforcement. I know what I think, as 
an attorney general who served for 20 years, maybe I can ask 
you on behalf of attorneys general, at least on behalf of 
yourself, why you think it's important for attorneys general to 
continue in the role that they have along with state law 
enforcement generally?
    Mr. Becerra. That's our responsibility, is to protect the 
people of our states, and as you know, as a former attorney 
general, it is not easy to get 50 attorneys general to sign 
onto the same letter, and that's how powerful this is, because 
we've seen how many lives are being impacted by not being able 
to move forward.
    Senator Blumenthal. And you've been very eloquent and 
powerful in your testimony today. Senator Harris, your 
predecessor, has been very helpful in clarifying some of the 
issues on this bill. You know, I'm going to be very blunt, 
there are times when the United States Department of Justice 
fails to be as aggressive as it should be either because it 
doubts the legal merits of a potential prosecution or a civil 
claim, or it simply lacks the leadership to do so, and that's 
where state attorneys general are so very important. That's why 
we have a Federal system, because states have a responsibility 
to protect their people and enforce the law. And in this 
instance, as in the anti-trust area and other areas, the 
coordinated approach I think is tremendously important. But we 
do welcome suggestions from the industry.
    And let me ask, Mr. Goldman, do you really believe that 
this law would cause sex trafficking to proliferate?
    Mr. Goldman. Thank you, Senator, for the opportunity to 
clarify that. Indeed, my concern is that we already see a 
number of efforts on the part of legitimate players to reduce 
the sex trafficking promotion. And to the extent that any of 
those companies decide, ``I am better off turning off my 
efforts across the board to try to reduce the knowledge that I 
have,'' then actually it creates a larger number of zones where 
the sites will not be taking the legitimate efforts that we 
want them to take. It creates an environment where there are 
more places for that activity to occur.
    Senator Blumenthal. You know, I have a higher opinion of 
the industry than you do. I really believe that this law will 
raise the bar, will increase consciousness, and that far from 
trying to evade or, in effect, deny themselves knowledge so as 
to avoid any accountability, they will be more energetic. I 
absolutely really believe that most of these companies want to 
do the right thing, and that this law will give them an 
increased impetus and incentive to do so.
    Mr. Goldman. There's no doubt that the legitimate players 
will do everything they can to not only work with the law 
enforcement and other advocates to address sex trafficking, but 
will probably do even more than they do today. At the same 
time, the industry is not just the big players; it's a large 
number of smaller players who don't have the same kind of 
infrastructure, and for them, they have to make the choice, Can 
I afford to do the work that you are hoping they'll do?
    Senator Blumenthal. And I believe those outliers--and they 
are outliers--will be successfully prosecuted civilly or 
criminally under this law.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Blumenthal.
    Senator Young.

                 STATEMENT OF HON. TODD YOUNG, 
                   U.S. SENATOR FROM INDIANA

    Senator Young. Thank you, Chairman, for this important 
hearing.
    And thanks so much to our panelists and the other 
stakeholders who are working so hard to help us find some 
common ground here.
    I was touched and I was moved, as I think everyone was, by 
Ms. Ambrose's testimony, and it's clear we have to do 
everything possible to mitigate, end ultimately, human 
trafficking and sex trafficking. This hits home, as it does for 
all of my colleagues, but in the State of Indiana, tips to our 
human trafficking line went up fourfold from 2014 to 2016, and 
law enforcement specifically cites one website, Backpage.com, 
as fueling some of that growth. So I feel an imperative for us 
to act, and I share the goals that those who put this 
legislation together have.
    Details are really important. And so I have confidence that 
parties can come together, and if we're open on one hand to a 
careful reassessment of Section 230, that might provide greater 
power to our state AGs to go after the Backpage.com's of the 
world. But on the other hand, we have to be open to a careful 
reassessment of SESTA to take into account legitimate concerns, 
I think, that were expressed by Professor Goldman and Ms. 
Slater here today. Can we bridge that divide? I think we're 
pretty close here.
    So I'm going to ask a question about this, what strikes me 
as a new standard, ``knowing conduct,'' within SESTA. It's a 
new standard to the definition of participating in a venture in 
the Federal law.
    I want to better understand the implications created by 
this ``knowing conduct'' standard. I spent a couple years 
practicing law. We have intent on one end, we have strict 
liability on the other end. You have gross negligence and 
negligence and recklessness. And so help me understand. Is this 
``knowing conduct'' standard somewhere in between intent and 
negligence, Mr. Goldman?
    Mr. Goldman. Thank you for that question because I am, too, 
not clear what the ``knowing conduct'' standard refers to and 
where it would fit on that spectrum between intent and strict 
liability. To me, reading it on its face, it would only modify 
the conduct, not whether understanding that conduct caused any 
legal violation. So I don't know that I would call it strict 
liability, but in a sense, as long as you know the conduct 
you're taking, the consequence of that conduct may be unknown 
to you and still have great liability.
    Senator Young. Mr. Becerra.
    Mr. Becerra. Senator, because my focus has been on criminal 
prosecutions, for me, the standard will always have a clear 
sense of knowing. I can't prosecute someone and get a 
conviction unless they knew what they were doing. And so for 
me, the bar is as high as it gets, having to prove beyond a 
reasonable doubt. That's why I believe, in this particular 
case, we can make an amendment to SESTA and not damage those 
who are truly trying to grow and innovate based on that 
protection they get from lawsuits.
    Senator Young. Mr. Goldman, you invoke the possibility that 
a sort of constructive knowledge could be imputed to those who 
put up a website. ``Constructive knowledge,'' I looked up the 
definition on the Web, a person is presumed by law--and that 
can always be dangerous--a person is presumed by law to have 
this knowledge, since the knowledge is obtainable by the 
exercise of reasonable care. Reasonable care is the sort of 
care that--and a person would ordinarily exercise if they were 
a prudent and rational person under similar circumstances.
    This gets--it's pretty abstruse stuff after a period of 
time, but is there--do you believe is there a way to bridge 
this divide between the concerns of what I'll characterize as 
your side and those who are pushing for a more aggressive 
approach?
    Mr. Goldman. I actually think we're all talking about the 
same thing, but I'm not sure that we agree what language will 
get there. If we are talking about knowing that there is a sex 
trafficking violation taking place, that knowledge to me would 
be something that would be consistent with Attorney General 
Becerra's standard, but would also, I think, be a much clearer 
standard for the services to act under.
    Senator Young. OK. My time is winding down. Count me in as 
someone who wants to constructively work toward a conclusion 
here and find that sweet spot so that we can protect our young 
men and women in this country and prevent this horrible 
predation that continues to grow in the State of Indiana and 
beyond.
    The Chairman. Thank you, Senator Young.
    Before I turn to Senator Markey, he has already voted, I'm 
going to have to go vote here. I think Senator Sullivan is 
coming back and also wants to ask questions, so I may have him 
take this out.
    But I wanted to ask Ms. Slater, because I know this issue 
of civil liability has been discussed at some length. But could 
you provide some more clarity about what such an amendment 
would have to look like to receive your organization's support?
    Ms. Slater. Certainly, Senator. Thank you. So currently, 
under existing law--and I'll be specific here, it's 18 U.S.C. 
1595--victims of sex trafficking can seek civil penalties 
against the perpetrators of the crimes against them. There is a 
carve-out for that, for Section 230, and we support an 
amendment to Section 230 that would make that path possible for 
victims.
    The Chairman. Well, let me just say in kind of closing this 
out, that this has been really--I think the hearing has been 
very helpful, a lot of good testimony, and I would encourage 
you and the companies that you represent to continue to be at 
the table and to figure out if there's a way we can resolve the 
what some have acknowledged are perhaps unintended consequences 
in the current draft of the bill, but get to a place where we 
can move forward because I think everybody agrees this is an 
area in which we have to--we need to provide clarity.
    It's up to us to clarify the issues that are constantly 
involved in litigation. And I happen to think there's a path 
forward to be able to do that based on what I've heard today, 
but I want to encourage you and your companies to be able to 
sit down with the sponsors of this bill and for us to be able 
to work with our colleagues to see if we can get to a result.
    But I thank you all for being here. And I think this has 
been a great, like I said, a great hearing with very valuable 
input, and we'll look forward to taking all of it into 
consideration as we move forward.
    And I'll flip it now to Senator Markey.
    And then, Senator Sullivan, I think you can probably wrap 
it up.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Chairman Thune, very much. Thank 
you for having this very important hearing.
    There is a Dickensian quality to the Internet. It can 
simultaneously enable and ennoble or degrade and debase. 
Obviously, sex trafficking is at the top of the list of 
degrading and debasing activity which occurs on the Web. And 
historically, what has happened is that there has been an 
incentive for companies to take voluntary action to deal with 
these issues, to be empowered to be able to deal with the 
issues, and that self-incentivization is something that clearly 
is now being called into question. And the issue is, How do we 
now construct a balance that allows us to deal with this issue 
and to potentially give authority to attorneys general to be 
able to act?
    So it's good to see you, Attorney General Becerra, my good 
friend. Can you talk a little bit about what that power is 
succinctly, that we can understand, and why it's necessary to 
put that on top of the already existing powers?
    Mr. Becerra. As has been stated earlier, Federal 
prosecutors have the authority right now to criminally 
prosecute those who violate Section 230, the Communications 
Decency Act, who go above and beyond and engage in criminal 
activity with regard to sex trafficking of children. The 
difficulty is Federal prosecutors have proven they're not going 
to go everywhere and do every case. That's why you've got the 
50 state attorneys general, the District of Columbia's attorney 
general, and the other territories. You've got in California 58 
district attorneys in our 58 counties. We're prepared to do 
that because there is no reason to let a case drop if the 
evidence is strong that you have criminals who are preying on 
our children.
    And we would just simply like to have the authority that I 
believe we already have under the statute, but based on 
interpretations by various courts, they don't agree.
    Senator Markey. OK. Ms. Slater, what's wrong with what the 
attorney general said?
    Ms. Slater. In terms of goals, we absolutely share the 
goals.
    Senator Markey. Right.
    Ms. Slater. Perpetrators like Backpage.com should be 
brought to justice. However, I would note that there is 
currently in Phoenix a grand jury convened to do just that, and 
it's supported by evidence from the Senate's own PSI report, 
which issued earlier this year, which contained, I believe, 
over a million pages of documents from Backpage that outlined 
and documented and evidenced its criminal conduct in 
facilitating sex trafficking.
    Senator Markey. OK. Ms. Souras, what's wrong with what Ms. 
Slater just said?
    Ms. Souras. We certainly applaud the efforts of the Federal 
Government and the grand jury investigation, and then we will 
be following that closely, but as Attorney General Becerra 
noted, the problem is simply too large. These are large 
complicated cases. There is not one website. We know this at 
NCMEC. We talk about Backpage. There are dozens of websites. 
There will be dozens more in the future. These are complicated 
cases to put together. The victims do not come forward easily. 
They have lengthy periods of recovery. These are some of the 
issues that we've highlighted throughout this hearing.
    The volume is simply too high. Perhaps in 1996, it was 
reasonable to assume that the activity on the Internet was, you 
know, much, much less, and of course, the criminal activity was 
much less significant. That simply isn't the case anymore. More 
criminal law enforcement resources are needed.
    Senator Markey. Thank you.
    And, Mr. Goldman, you're going to disagree with Ms. Souras. 
So where is your disagreement with her?
    Mr. Goldman. Thank you. The only thing I would add to what 
Ms. Slater said is that the DOJ has already gone after two 
other sites that have been promoting online prostitution, the 
Rentboy and MyRedBook sites, and successfully was able to shut 
down both under existing Federal law, no issues with Section 
230. So I think we have to note that the DOJ is paying 
attention to this area and is taking action.
    Senator Markey. OK. And you, coming back to you again, 
you're saying, Attorney General Becerra, it's just not 
adequate.
    Mr. Becerra. Senator, they're going to--that mole is going 
to pop in another hole, and we're going to whack it, and then 
it's going to pop up in another hole, and it's just Whack-A-
Mole.
    Senator Markey. So we need more hammers to be hitting those 
holes.
    Mr. Becerra. There's too much money. They're not going to 
stop. There's just too much money.
    Senator Markey. OK. So we thank all of you. This is an 
issue we have to resolve, and we have to just find a way 
through it. You've all presented very compelling testimony here 
today. And I think you're giving us, I think, a good education 
on the problem and on where the potential avenues can be 
created in order to work together on a bipartisan basis.
    And I want to thank the Chairman. And I offer my 
cooperation to the Chairman and to Senator Blumenthal to try to 
work this thing through so we can find a consensus resolution 
of it. So we thank each and every one of you for your 
compelling testimony today.
    I yield back to the Chairman.

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan [presiding]. Thank you, Senator.
    And I want to thank the witnesses. I will be your last 
questioner today. You've done a great job on this panel on a 
really important issue. You know, all of us deal with this 
heinous issue in different ways. In my State of Alaska, some of 
you may have seen this recent report sponsored by Covenant 
House that looked at 10 different cities for homeless youth. 
Almost one-third homeless youth in different cities across 
America have been trafficked. And it's an astounding statistic.
    So I'm going to ask without objection that this report be 
placed in the record. And I believe that Covenant House is 
going to be submitting testimony for this hearing as well.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

    Senator Sullivan. Attorney General Becerra, I want to get 
back to this question, and I think it's a really important one 
that Senator Markey was talking about that's in the bill. I'm a 
cosponsor of the bill, so I'll put my cards on the table here.
    On the issue of resources and prosecution, you know, in my 
experience as a former AG in Alaska, we had a couple cases with 
regard to sex trafficking relating to the Mann Act, and that's 
the Federal law that prevents or makes it a crime to conduct 
sex trafficking across state lines. And it was a frustration 
for me as the AG because we had cases where there was evidence, 
very clear evidence. The state prosecutors and the state 
investigators were ready to go, and for whatever reason, the 
Feds weren't.
    So one of the first bills that I actually introduced in the 
Senate last Congress, and it got passed into law, signed by 
President Obama as part of the broader human trafficking bill 
that we got, was called the Mann Act Cooperation Act, and what 
it essentially said was that if there is evidence that a state 
AG brings to the Feds to be cross-designated to pursue a Mann 
Act violation, that the Attorney General of the United States 
shall cross-designate, for example, you for Mann Act 
violations. I'm trying to get the word out to AGs, so please 
help spread the word because that's a new power that you have.
    Mr. Becerra. Yes.
    Senator Sullivan. And the Attorney General of the United 
States can only say no to that cross-designation if it would, 
quote, ``undermine the administration of justice,'' and then 
the Attorney General would have to send you, if you were 
requesting that, a detailed explanation of that within 60 days. 
So it's an enormous power on sex trafficking for our AGs, which 
is why I think very strongly your point and the others here on 
this issue of allowing state officials to bring these 
prosecutions.
    In my experience, particularly in Mann Act cases, there is 
so much of that going on, and the Feds only have so many 
resources. So I would again just welcome any of you to talk 
about that, whether it's Mann Act or that provision in this 
law, but I think it's absolutely essential. And it's not trying 
to usurp the Feds' power or to create a patchwork, it's trying 
to bring more resources to an enormously big problem in our 
country. And I think AGs like you who are motivated on this can 
do that. You can do it on the Mann Act right now. Please go use 
that new law. But you can do it here, and I think it's 
important.
    So, again, I'd like to open this up to all the witnesses 
just on this question, the pros and cons of that provision in 
this bill. You see why I think it's important, and I'd love to 
hear from either side on this, why you think it's important or 
why you think it would be a problem.
    Attorney General, why don't we begin with you, sir?
    Mr. Becerra. Senator, first if I can just say thank you for 
your service to the people of Alaska and to this country, both 
as the attorney general and now as a Senator, and for the good 
effort to try to help those of us who would like to have that 
authority to go out there and prosecute these cases.
    Senator Sullivan. You have it on the Mann Act now, so----
    Mr. Becerra. Amen. We'll spread the word. We'll spread the 
word.
    I will simply say what I've been saying. It's we're not 
interested in trying to--especially not in California, of 
trying to slow down just the innovative explosion that you see 
going on in the Internet. We want that to go on. California 
benefits from it. But we've got to do something to help our 
kids and people like Ms. Ambrose. And so simply allowing us to 
do what sometimes the Federal Government doesn't have the 
resources to do would be just plain smart.
    Senator Sullivan. Yes.
    Mr. Becerra. And we're not trying to take a case from the 
Federal Government. If they want to go at it, great. But if 
they can't, we're ready to step in.
    Senator Sullivan. Great.
    Professor Goldman, try to rebut the--this is a resource 
issue, and if you think that we have the prosecutors that we 
need to go after all these crimes, I think the facts would 
dictate otherwise. So what's your rebuttal on that if, indeed, 
you have a rebuttal? Maybe you agree with that position.
    Mr. Goldman. Yes, thank you. I think that the Federal 
standard helps clear up some of the confusion about the 
existing bill. So right away, you've, I think, asked a 
different question than the bill has asked us. And so I think 
that's a helpful question to ask.
    Senator Sullivan. Well, you like--you're OK with state 
prosecutor under a Federal standard? Are you OK with that?
    Mr. Goldman. That helps. That helps.
    Senator Sullivan. That's what this Mann Act provision is.
    Mr. Goldman. Yes. And so--and I think that's a helpful 
direction to take the conversation because it cleans up one of 
the ambiguities that's in the bill.
    We still have the question about what the legal standard is 
that the state AGs will be prosecuting, and to what extent they 
will be able--it will be clear enough to them that we are only 
targeting the, quote, ``Backpages of the world,'' or are we 
targeting a larger universe? and what that larger universe 
looks like. So----
    Senator Sullivan. But the standard is going to be dictated 
by the law, right?
    Mr. Goldman. As long as the standard is dictated by the 
law, and if we have a requisite showing of the knowledge that 
we've discussed earlier in this hearing, that will help 
restrict the ability of people to interpret that in different 
ways, but unless that's clear, there is different 
interpretations that could be possible.
    I just want to come back to the idea that though the DOJ is 
strapped for resources, they have been putting resources on 
this topic. And so I just want to make sure that we haven't 
lost sight of the good work that they are doing. And that then 
leads to the question, Are they doing enough? And I think 
that's a question that I'd like to know more about.
    Senator Sullivan. OK. Ms. Souras.
    Ms. Souras. Senator, I would just very quickly cite back to 
the case numbers that we see at the National Center. This year 
so far, 9,700 reports of suspected child sex trafficking. That 
is a tremendous volume of children. They need the assistance 
and the support of the state attorney generals in addition to 
the Federal Government.
    Senator Sullivan. Thank you.
    Ms. Slater, do you have a view on that one?
    Ms. Slater. I think that NCMEC should get all the resources 
it needs to do the good work that it does. It currently gets a 
lot of resources from our companies, whether that's through 
engineering talent, through financial resources, developing 
technology, that help track down perpetrators of sex 
trafficking and locate victims.
    And if I may add a personal note, I spent 10 years doing 
investigations and litigation on behalf of the Federal 
Government, and I do firmly believe if there's one thing the 
Federal Government does very well, it's litigation. And so I 
would like to see more resources go to DOJ so they can 
prosecute these cases.
    Senator Sullivan. Well, look, I think more resources is a 
common theme probably with every Senator here and all the 
witnesses. But this problem is growing, and it's so significant 
that more resources can mean not just Federal resources, but 
the good offices of state AGs. It's a very powerful resource 
and I think it's a key component of this bill. If the standard 
remains the same, which it does under this legislation, then I 
think having more prosecutors is actually quite an important 
development here.
    Well, listen, you've done a very good job on a tough topic 
here. We appreciate you taking all the time.
    The hearing record will remain open for two weeks. During 
this time, Senators are asked to submit any additional follow 
up questions for the record. Upon receipt, we would 
respectfully ask the witnesses to submit their written answers 
to the Committee as soon as possible. Thank you again for 
testifying today.
    This hearing is adjourned.
    [Whereupon, at 12:51 p.m., the hearing was adjourned.]

                            A P P E N D I X

  Prepared Statement of Nacole S., Mother of a Child Sex Trafficking 
                         Victim on Backpage.com
    Good morning Chairman Thune, Ranking Member Nelson, and Members of 
the Committee,

    My name is Nacole S., and I want to thank you for the opportunity 
to have my letter read today before you. I hope I can be a voice for 
the countless other families who are not present today, whose lives 
have been forever changed by websites that make their living hiding in 
the shadows of the law.
    In 2010, we were a close, loving family. We were all realizing our 
American dream. We had built something for ourselves more valuable than 
money, more important to us than a big new house or better cars in the 
driveway. We had built 3 lives, our great kids, ready to come into 
their own and take on the world. Passionate about our children, we 
wanted and expected the best. I remember a conversation with a school 
guidance counselor who was chastising us on how we were going about our 
son's college applications. The counselor was convinced that our son, a 
first-generation college student, would be best served applying to only 
local schools. We, ever-reaching, were convinced that he was better 
than that. It felt like our stubborn optimism and belief was rewarded 
when our son was accepted into a prestigious private engineering school 
in New York. We weren't surprised at all. We were so proud of all 3 of 
our children, each national honor roll students, and at the top of 
their games. Little did we understand how dramatically our lives were 
about to change. In just a few months, our American dream would be 
exchanged for a third-world nightmare, and would lead us to question 
everything.
    Our youngest, our baby Natalie \1\, was something special. She was 
always the most energetic of our 3 children, so full of life and 
promise. She participated in varsity soccer and wrestling, and played 
violin in the high school orchestra--all in her freshman year. That was 
Natalie, she tried to experience everything. She was taking high school 
by storm, in her light-hearted way. She was one of those kids. (Only a 
family with one of those kids knows what that means. Natalie wanted to 
do everything at once, with high energy, and nothing could contain her 
zest for life). Challenging as she was, she was exceeding every 
possible expectation a parent could have. It was amazing to be part of. 
None of us could've predicted that her innocent, care-free attitude was 
about to take her down a path what would shake our family to its very 
core. At the time, our family dynamic had changed as our son was off to 
college and our oldest daughter was distracted by her own concerns. 
Natalie was struggling to find her place in her new world.
---------------------------------------------------------------------------
    \1\ We use the pseudonym Natalie to protect our daughter's privacy.
---------------------------------------------------------------------------
    Looking back, we understand that our daughter was burning the 
candle at both ends, struggling with all the sudden, but inevitable, 
changes that were occurring. While they were all good things to us; 
they were confusing and difficult to Natalie. All we saw was an 
exceptional young lady, doing exceptional things. But Natalie, in her 
own way, was sending out signals. It's easy to see now, because of all 
the painful retrospection that comes with a tragedy, but it was 
impossible to see then.
    She made the implausible decision to leave the safety of her home. 
She wrote a letter, five pages long, telling us how wonderful her 
family is and how much she loved us. ``Finding herself'' was the gist 
of the letter, and of course not to worry. Not certain of her choice, 
Natalie had shared the letter with friends and like a sick game of 
telephone it circulated the school. Now it wasn't just a letter, but a 
dare. It was her reputation at stake. So, backed into a corner, she 
left.
    Making her way to Seattle she found herself at a teen homeless 
shelter. A woman there, 22 and posing as a teen, must've immediately 
noticed Natalie as an easy target. As smart as Natalie was, she had no 
idea of the danger she was in. As a parent, it's hard to talk about 
what happened next. I can't imagine her fear and bewilderment at what 
was happening to her as she was repeatedly raped and beaten and 
threatened, and treated like a sexual object every single day. All 
while being posted on a Backpage online ad. I honestly try not to think 
about it. I can only tell you that when we finally got Natalie back for 
good, months later, the young girl we found wasn't the same Natalie who 
left our home months earlier. I literally didn't recognize her at 
first; her appearance had changed so much. Her hair was dyed and cut 
and she was wearing different clothes. She didn't even sound like 
Natalie. Everything she was saying was incomprehensible to me. Our 
Natalie's light was gone. That was the beginning of our 6-year odyssey 
to get here, to our new American dream.
    Our new dream is simple: to live in an America that doesn't stand 
aside while little girls like our daughter, Natalie at age 15, are sold 
online like a commodity. This critical legislation would correct a 
legal loophole in the Communications Decency Act (CDA) that shields 
websites that knowingly facilitate sex trafficking.
    A law originally drafted in 1996, the CDA simply cannot address the 
reality of violent crime on the Internet today. Every day, thousands of 
women and children are marketed online where buyers purchase them with 
ease, anonymity, and impunity. As survivors of sex trafficking and 
commercial sexual exploitation, we know the deep and profound harm 
caused by this crime. Many of us are survivor leaders of organizations 
working to provide safety and healing to others, including American 
children who were bought and sold online. For years, we have tried 
unsuccessfully to hold these websites accountable, but court after 
court has made it clear: Congress must correct the blanket immunity 
provided by CDA.
    This legislation is vital. Stop Enabling Sex Traffickers Act of 
2017 represents an incredible bipartisan effort to seek justice for 
countless survivors who are sold on websites that shamelessly profit 
from our exploitation. As survivors of sexual exploitation and 
trafficking, we ask you to please prioritize the safety and rights of 
our Nation's most vulnerable women and children and pass SESTA to at 
long last, provide us a pathway to justice. As the father of a child 
sex trafficking survivor perfectly stated: ``Children are not 
acceptable collateral damage. They are our hope, our future, America's 
conscience.''
                                 ______
                                 
                          Statement of Love146
    Chairman Thune, Ranking Member Nelson, and members of the 
committee: thank you for the opportunity to present this written 
statement on behalf of our organization and the many children we work 
with.
    Love146 is an international anti-trafficking organization, 
headquartered in New Haven, CT, with survivor care and prevention 
education programs in the United States, the United Kingdom and the 
Philippines. As an organization that has spent 15 years working 
exclusively on the issue of child trafficking and exploitation, we have 
seen first-hand the increasing role that the Internet is playing in 
abetting child sex traffickers. Many of the children in our care today, 
from the Philippines to the United States, have been bought and sold 
through various Internet platforms.
    When platforms, such as Backpage.com knowingly advertise children--
as if they are commodities--they are facilitating the exploitation and 
rape of our children. We have worked with many children whose 
traffickers have required them to pose for photos--images that would in 
many cases be considered child pornography--so that they could be 
bought and sold online. Sometimes these children were unaware that the 
photos they were taking were later going to be used to advertise their 
bodies for sale--sometimes these children thought they were exchanging 
photos with a romantic partner, sometimes they believed they were 
involved in a modeling project. In other cases, children were required 
to take ``selfies'' and coached through the process, how to look, what 
to wear, what parts of their bodies to display. If their initial photos 
did not elicit enough interest from ``buyers'' responding to their 
``advertisement'' they were required to take more explicit photos.
    Being bought and sold online, next to classifieds for used clothes, 
bikes, appliances, and cars can have a devastating impact on how these 
children perceive themselves and can forever change how they view their 
relationship with their body. Their bodies now hold a specific and 
public price tag. In addition to the rapes and the horrific sexual 
acts, we have now created a situation in which we have placed a 
monetary value on our children. This commodification tells them, this 
is what you are worth. It is completely contrary to the message we want 
to send to children: that they are precious, that they are invaluable, 
that they are our future.
    The fact that sex with children can be openly advertised is 
something that we would expect no human being to find acceptable. The 
courts have been clear: there needs to be a legislative solution to the 
protections afforded to websites like Backpage.com through the original 
construction of Section 230 of the Communications Decency Act. In 2016, 
in the State of California v. Carl Ferrer et al, the court so clearly 
articulated this stating, ``the Court understands the importance and 
urgency in waging war against sexual exploitation. Regardless of the 
grave potential for harm that may result in the exercise of this 
article of faith, Congress has precluded liability for online 
publishers for the action of publishing third party speech and thus 
provided for both a foreclosure from prosecution and an affirmative 
defense at trial. Congress has spoken on this matter and it is for 
Congress, not this Court, to revisit.''
    This is exactly what S. 1693, The Stop Enabling Sex Traffickers Act 
of 2017, is attempting to rectify. Since the early days of the 
Internet, Congress has found appropriate and effective means to limit 
copyright and privacy infringement on the Internet. S. 1693 is narrowly 
focused, targeting only those digital publishers who ``knowingly'' 
allow offending material to be published. Only those who ``knowingly'' 
allow children to be bought and sold on their website can be found 
liable for this content. If passed, S. 1693 has the potential to 
greatly reduce the use of the Internet as a marketplace for the buying 
and selling of children. It will be a powerful tool with which 
organizations like ours, and law enforcement, will be able to help 
protect our children from exploiters and predators.
    Thank you for the opportunity to provide you and the Committee with 
our perspective on this important piece of legislation. We look forward 
to continuing to work with you, the Committee and other Members of 
Congress on ways to safeguard children from child trafficking and 
exploitation.
                                 ______
                                 
         National Association of Police Organizations, Inc.
                                                      July 27, 2017

Hon. Richard Blumenthal,
United States Senate,
Washington, DC.

Dear Senator Blumenthal:

    On behalf of the National Association of Police Organizations 
(NAPO), I am writing to you to express our full support for the Stop 
Enabling Sex Traffickers Act.
    NAPO is a coalition of police units and associations from across 
the United States that serves to advance the interests of America's law 
enforcement through legislative and legal advocacy, political action, 
and education. Founded in 1978, NAPO now represents more than 1,000 
police units and associations, 241,000 sworn law enforcement officers, 
and more than 100,000 citizens who share a common dedication to fair 
and effective crime control and law enforcement.
    Since its inception in 1998, the National Center for Missing and 
Exploited Children's (NCMEC) CyberTipline has received more than 16.5 
million reports of suspected child sexual exploitation. In 2016 alone, 
the CyberTipLine received 8.2 million reports of apparent child sexual 
abuse images, suspected ``sextortion'', child sex trafficking and child 
sexual molestation. An increasing number of these victims are 
trafficked online. Unfortunately, due to numerous court rulings, 
survivors of online trafficking cannot sue their advertisers due to 
Section 230 of the Communications Decency Act (CDA), which 
inadvertently gives broad criminal immunity to websites that facilitate 
sex trafficking. This significantly hampers law enforcement's ability 
to enforce state trafficking laws against such websites.
    The Stop Enabling Sex Traffickers Act addresses this issue and 
narrowly amends Section 230 to allow states and victims to bring cases 
against bad actors that facilitate sex trafficking, while safeguarding 
the freedom of the internet. Therefore, NAPO stands ready to support 
with any efforts necessary to pass this important legislation. If you 
have any questions, or if we can be of further assistance, please feel 
free to contact me at: (703) 549-0775.
            Sincerely,
                                   William J. Johnson, Esq.
                                                Executive Director.
                                 ______
                                 
                                                     August 1, 2017

Senator Portman,
Russell Senate Office Building,
Washington, DC.
Senator Blumenthal,
Hart Senate Office Building,
Washington, DC.

Letter of Support for the Stop Enabling Sex Traffickers Act of 2017

Dear Senator Portman and Senator Blumenthal,

    A couple of decades ago sex traffickers and buyers conducted their 
illegal transactions in dark alleys and back streets. Today these 
criminal transactions have moved online. Although the location has 
changed, the crime remains the same and so must our response to those 
who facilitate and enable it.
    In recognition of the tragic nature of online facilitation of sex 
trafficking, we thank you-and the broad, bi-partisan group of co-
sponsors committed to protecting those who are bartered and sold for 
sex online--for introducing the Stop Enabling Sex Traffickers Act of 
2017. The undersigned organizations believe this legislation is 
necessary to dose a legal loophole in the Communications Decency Act 
(CDA) that allows websites to escape liability for knowingly 
facilitating sex trafficking.
    The CDA was enacted in 1996 to govern the nascent Internet industry 
while promoting an open forum for commerce online. Section 230 of the 
CDA established immunity for ``interactive computer service providers'' 
(ICSPs) from civil and state criminal liability for third-party content 
in order to promote self-regulation by these online entities. However, 
over the past twenty years Section 230 has been broadly misinterpreted 
by Federal courts as extending blanket immunity to websites that host 
ads where trafficked individuals are bought and sold.
    Websites that profit from creating marketplaces for the sale and 
purchase of trafficking victims enjoy a lucrative business model--one 
with high profits and low risk. When states and victims have tried to 
hold these companies accountable in the courts, the CDA has blocked 
their efforts. In 2014, child sex trafficking victims asserted civil 
claims under the Trafficking Victims Protection Act (TVPA) against 
Backpage.com--the most extensive online marketplace for sex trafficking 
victims and the platform where the young plaintiffs had been advertised 
for sex--but their claims were denied based on CDA immunity. At the 
same time, the Senate Permanent Subcommittee on Investigations was 
engaged in a two-year inquiry into Backpage's business practices, 
culminating in a report on January 19, 2017 detailing how Backpage had 
knowingly facilitated child sex trafficking. Backpage has also avoided 
state criminal liability by attacking state laws in court and barring 
them from taking effect, also based on CDA immunity. Meanwhile, 
Backpage.com's profits continued to rise from $71 million in 2012 to 
over $120 million in 2015.\1\
---------------------------------------------------------------------------
    \1\ I AM JANE DOE (SO Eggs Films 2017).
---------------------------------------------------------------------------
    This is wholly inconsistent with the purpose and protections 
intended when the CDA was enacted in 1996. As the Communications 
Decency Act began to make its way through the Senate, Senator Exon 
stated upon introduction of the bill on February 1, 1995 that the 
purpose of the bill was indeed to protect children:

        Mr. President, the information superhighway should not become a 
        red light district. This legislation will keep that from 
        happening and extend the standards of decency which have 
        protected telephone users to new telecommunications devices. 
        Once passed, our children and families will be better protected 
        from those who would electronically cruise the digital world to 
        engage children in inappropriate communications and 
        introductions.\2\
---------------------------------------------------------------------------
    \2\ 141Cong. Rec. 51953 (daily ed. Feb. 1, 1995) (statement of Sen. 
Exon).

    The Stop Enabling Sex Traffickers Act o/2017 clarifies that Section 
230 was never meant to automatically shield websites that engage in the 
crime of human trafficking from a civil lawsuit or state criminal 
penalties. This bill targets the business model of companies like 
Backpage.com, by opening the door to civil liability and allowing 
states to enforce their trafficking laws when online entities choose to 
profit from the exploitation of sex trafficking victims.
    Enacting this legislation is critical to restoring the promise of 
justice for victims and holding offending websites culpable for their 
crimes. As sex trafficking explodes on the internet, accountability for 
online entities that facilitate this exploitation is an essential tool 
in the international fight against sex trafficking. We, the undersigned 
organizations, support this critical legislation and urge Congress to 
restore the human rights protections of the Trafficking Victims 
Protection Act that have been eclipsed by this misinterpreted immunity 
for entities that value profits over the protection of vulnerable 
people.
            Sincerely,

Shared Hope International
PROTECT
Rights4Girls
National Children's Alliance
50 Eggs Films
Exodus Cry
Coalition Against Trafficking in Women (CATW)
                                 ______
                                 
                  National Association of Attorneys General
                                   Washington, DC., August 16, 2017


Hon. Roger Wicker,                   Hon. Brian Schatz,
Chairman,                            Ranking Member,
Senate Subcommittee on               Senate Subcommittee on
 Communications, Technology,          Communications, Technology,
 Innovation and the Internet,         Innovation and the Internet,
Committee on Commerce, Science, and  Committee on Commerce, Science, and
Transportation.                      Transportation.
 
Hon. Marsha Blackburn,               Hon. Michael Doyle,
Chairman,                            Ranking Member,
House of Representatives             House of Representative
 Subcommittee on Communications and   Subcommittee on Communications and
 Technology,                          Technology,
Committee on Energy and Commerce.    Committee on Energy and Commerce.
 


RE: Amendment of Communications Decency Act

Dear Chairman Wicker, Ranking Member Schatz, Chairman Blackburn, and 
            Ranking Member Doyle:

    In 2013, Attorneys General from 49 states and territories wrote to 
Congress, informing it that some courts have interpreted the 
Communications Decency Act of 1996 (``CDA'') to render state and local 
authorities unable to take action against companies that actively 
profit from the promotion and facilitation of sex trafficking and 
crimes against children. Unfortunately, nearly four years later, this 
problem persists and these criminal profiteers often continue to 
operate with impunity. The recent news highlighting the potential 
complicity of online classified-ad company Backpage.com in soliciting 
sex traffickers' ads for its website once again underscores the need to 
expand, not limit, the ability of all law-enforcement agencies to fight 
sex trafficking.\1\ The undersigned Attorneys General once again 
respectfully request that the United States Congress amend the CDA to 
affirm that state, territorial, and local authorities retain their 
traditional jurisdiction to investigate and prosecute those who 
facilitate illicit acts and endanger our most vulnerable citizens.
---------------------------------------------------------------------------
    \1\ Tom Jackman and Jonathan O'Connell, Backpage has always claimed 
it doesn't control sex-related ads. New Documents show otherwise, 
Washington Post, July 11, 2017, available at https://
www.washingtonpost.com/local/public-safety/backpage-has-always-claimed-
it-doesnt-control-sex-related-ads-new-documents-show-otherwise/2017/07/
10/b3158ef6-553c-11e7-b38e-35fd8e0c288f_story.html (last visited July 
12, 2017).
---------------------------------------------------------------------------
    As noted in the 2013 letter, certain Federal courts have broadly 
interpreted the CDA.\2\ One high-profile result is that some state and 
local law enforcement agencies have been left powerless to act against 
online classified ad services, such as Backpage.com, which have 
constructed their business models around advertising income gained from 
participants in the sex trade.\3\ Just a few examples of the countless 
instances of child sex trafficking--and its online promotion--that 
occur every day in the United States include the following:
---------------------------------------------------------------------------
    \2\ See, e.g., Senate Permanent Subcommittee v. Ferrer, 199 F. 
Supp. 3d 125, 136 (D.D.C. 2016), vacated as moot, 856 F.3d 1080 (D.C. 
Cir. 2017); Backpage.com, LLC v. McKenna, 881 F. Supp. 2d 1262, 1275 
(W.D. Wash. 2012); M.A. v. Village Voice Media Holdings, LLC, 809 F. 
Supp. 2d 1041, 1048-56 (E.D. Mo. 2011); Dart v. Craigslist, 665 F. 
Supp. 2d 961, 965 & n.6 (N.D. Ill. 2009); Doe v. Bates, 2006 WL 
3813758, at **3-5 (E.D. Tex. Dec. 27, 2006); see also Google, Inc. v. 
Hood, 96 F. Supp. 3d 584, 596-98 (S.D. Miss. 2015), vacated & remanded 
on other grounds, 822 F.3d 212 (5th Cir. 2016).
    \3\ While Backpage.com claims to have shut down its prostitution/
escort ads after a U.S. Senate hearing in January, there are reports of 
the ads merely moving to different sections. See Brian Rokos, 
Backpage.com Removes `Escort' Ads--Or Does It?, Press-Enterprise, Jan. 
11, 2017, available at http://www.pe.com/articles/backpage-822842-ads-
subcommittee.html/ (last visited July 6, 2017); Kevin Litten, New 
Orleans Backpage Prostitution Ads Now Listed as Dating Ads, Human 
Trafficking Experts Say, Times-Picayne, Jan. 17, 2017, available at 
http://www.nola.com/politics/index.ssf/2017/01/
backpage_prostitution_new_orle.html (last visited July 6, 2017); 
Stephen Koff, Backpage.com Still Appears to Be Running Ads for 
Prostitutes, Sexual Services, Cleveland.com, Jan. 12, 2017, available 
at http://www.cleveland.com/metro/index.ssf/2017/01/
backpagecom_might_not_have_act.html (last visited July 6, 2017).

  <bullet> Police in Stockton, California recently arrested more than 
        20 people in a human trafficking and prostitution ring. Eight 
        girls between the ages of 14 and 17 were being trafficked for 
        sex using advertisements on Backpage.com.\4\
---------------------------------------------------------------------------
    \4\ Sarah Heise, 23 Arrested for Human Trafficking, Prostitution in 
San Joaquin County, KCRA 3, May 5, 2017, available at http://
www.kcra.com/article/23-arrested-in-san-joaquin-county-human-
trafficking/9588063 (last visited June 29, 2017).

  <bullet> Federal and state law enforcement recently arrested a 
        Chicago man accused of pimping a 16-year-old girl via 
        Backpage.com, leading to her murder. The man ``shopped [the 
        girl] around on Backpage.com,'' delivered her to a customer, 
        and then fell asleep in his car outside a parking garage. When 
        he awoke, he discovered the girl's body in the garage, ``her 
        throat slit and her body badly beaten.'' \5\
---------------------------------------------------------------------------
    \5\ Feds Charge Man for Prostituting 16-Year-Old Girl Before Her 
Murder, ABC 7 Eyewitness News, June 21, 2017, available at http://
abc7chicago.com/news/feds-charge-man-for-prostituting-16-year-old-girl-
before-her-murder/2128793/ (last visited June 29, 2017).

  <bullet> Police in Georgia recently arrested three people who used 
        Backpage.com to pimp a pregnant 17-year-old girl.\6\
---------------------------------------------------------------------------
    \6\ Ross Cavitt, Trio Accused of Pimping Pregnant Teen for Sex, 
WSB-TV 2, June 23, 2017, available at http://www.wsbtv.com/news/local/
cobb-county/trio-accused-of-pimping-pregnant-teen-for-sex/539101607 
(last visited June 29, 2017).

  <bullet> Police in Florida recently arrested a woman who used 
        Backpage.com to prostitute a missing 16-year-old girl 
        throughout Broward County.\7\
---------------------------------------------------------------------------
    \7\ Tonya Alanez, Girl, 19, Accused of Pimping Out Missing 16-Year-
Old, Sun Sentinel, June 2, 2017, available at http://www.sun-
sentinel.com/local/broward/plantation/fl-teen-female-pimp-arrest-
20170601-story.html (last visited June 29, 2017).

    Clearly, in these instances, Backpage.com is facilitating--and 
profiting from--these illegal activities. However, certain 
interpretations of the CDA have resulted in companies like Backpage.com 
remaining outside the reach of state and local law enforcement in these 
kinds of cases. We do not believe that was Congress's intent in passing 
the CDA, and we do not believe that is Congress's intent now. It is 
both ironic and tragic that the CDA, which was intended to protect 
children from indecent material on the internet,\8\ is now used as a 
shield by those who profit from prostitution and crimes against 
children.
---------------------------------------------------------------------------
    \8\ 104 Cong. Rec. S2308-01 (daily ed. June 14, 1995) (statement of 
Sen. Coats) (``Mr. President, all you have to do is pick up the 
telephone and call the FBI, ask their child exploitation task force 
about the volume of over--the-Internet attempts to seduce, abuse, and 
lure children into pornography and sexual exploitation.''); 104 Cong. 
Rec. H8470 (daily ed. Aug. 4, 1995) (statement of Rep. Cox) (``We want 
to encourage people like Prodigy, like CompuServ, like America Online, 
like the new Microsoft network, to do everything possible for us, the 
customer, to help us control, at the portals of our computers, at the 
front door of our house, what comes in and what our children see.'').
---------------------------------------------------------------------------
    Federal enforcement alone has proved insufficient to stem the 
growth in online promotion of child sex trafficking. Those on the front 
lines of the battle against the sexual exploitation of children--state 
and local law enforcement--must have the clear authority to investigate 
and prosecute facilitators of these and other horrible crimes. Thus, we 
recommend that 47 U.S.C. Sec. 230(e)(1) be amended to the following 
(added language in bold):

        Nothing in this section shall be construed to impair the 
        enforcement of section 223 or 231 of this title, chapter 71 
        (relating to obscenity) or 110 (relating to sexual exploitation 
        of children) of title 18, or any other Federal, State, or 
        Territorial criminal statute.

    We are aware of efforts in Congress to preserve state criminal 
statutes that prohibit certain kinds of sexual exploitation and sex 
trafficking, and to preserve Federal and state statutes that provide 
causes of action, restitution, or other civil remedies to victims. We 
ask that, in addition to these efforts, Congress consider enacting our 
proposed change. We believe the CDA should be clear in preserving both 
state and territorial law to the same extent that it preserves Federal 
law--i.e., the CDA should be clear that it preserves all state and 
territorial criminal statutes, just as it preserves all federal 
criminal statutes. The simple addition this letter proposes would do 
just that and will help to ensure that we are able to effectively 
protect citizens and children throughout the entire country, in all 
courts. We thank you for your attention to this vital matter.
            Respectfully,

Karl A. Racine                       Pamela Jo Bondi
District of Columbia Attorney        Florida Attorney General
 General
 
Steve Marshall                       Jahna Lindemuth
Alabama Attorney General             Alaska Attorney General
 
Mark Brnovich                        Leslie Rutledge
Arizona Attorney General             Arkansas Attorney General
 
Xavier Becerra                       Cynthia H. Coffman
California Attorney General          Colorado Attorney General
 
Matthew Denn                         Chris Carr
Delaware Attorney General            Georgia Attorney General
 
Douglas S. Chin                      Lawrence Wasden
Hawaii Attorney General              Idaho Attorney General
 
Lisa Madigan                         Curtis T. Hill Jr.
Illinois Attorney General            Indiana Attorney General
 
Tom Miller                           Derek Schmidt
Iowa Attorney General                Kansas Attorney General
 
Andy Beshear                         Jeff Landry
Kentucky Attorney General            Louisiana Attorney General
 
Janet T. Mills                       Brian Frosh
Maine Attorney General               Maryland Attorney General
 
Bill Schuette                        Lori Swanson
Michigan Attorney General            Minnesota Attorney General
 
Jim Hood                             Josh Hawley
Mississippi Attorney General         Missouri Attorney General
 
Tim Fox                              Douglas Peterson
Montana Attorney General             Nebraska Attorney General
 
Adam Paul Laxalt                     Gordon MacDonald
Nevada Attorney General              New Hampshire Attorney General
 
Christopher S. Porrino               Hector Balderas
New Jersey Attorney General          New Mexico Attorney General
 
Eric T. Schneiderman                 Josh Stein
New York Attorney General            North Carolina Attorney General
 
Wayne Stenehjem                      Mike DeWine
North Dakota Attorney General        Ohio Attorney General
 
Mike Hunter                          Ellen F. Rosenblum
Oklahoma Attorney General            Oregon Attorney General
 
Josh Shapiro                         Wanda Vazquez Garced
Pennsylvania Attorney General        Puerto Rico Attorney General
 
Peter Kilmartin                      Alan Wilson
Rhode Island Attorney General        South Carolina Attorney General
 
Marty J. Jackley                     Herbert H. Slatery, III
South Dakota Attorney General        Tennessee Attorney General
 
Ken Paxton                           Sean Reyes
Texas Attorney General               Utah Attorney General
 
T.J. Donovan                         Mark R. Herring
Vermont Attorney General             Virginia Attorney General
 
Robert W. Ferguson                   Patrick Morrisey
Washington Attorney General          West Virginia Attorney General
 
Brad Schimel                         Peter K. Michael
Wisconsin Attorney General           Wyoming Attorney General
 
 
Copy: The Honorable John Thune, Chairman, Senate Committee on Commerce,
  Science, and Transportation; The Honorable Bill Nelson, Ranking
  Member, Senate Committee on Commerce, Science, and Transportation; The
  Honorable Greg Walden, Chairman, House of Representatives Committee on
  Energy and Commerce; The Honorable Frank Pallone, Ranking Member,
  House of Representatives Committee on Energy and Commerce

                                 ______
                                 
                                               CoStar Group
                                    Washington, DC, August 30, 2017
United States Senate,
Washington, DC.

Dear Senators Portman, Blumenthal, and McCaskill:

    CoStar Group, Inc., one of the leading real estate technology 
companies in the United States, is writing today to express our support 
for the Stop Enabling Sex Traffickers Act of 2017 (``SESTA''). We 
understand that many other technology companies and lobby groups are 
currently opposed to this legislation, but policing online content is 
important to us. We operate websites, including Apartments.com, that 
draw tens of millions of monthly users, and so are already attuned to 
the issue of online safety. Nevertheless, the issues addressed in SESTA 
have come into sharper focus for us as a company over the past few 
months.
    It began in early spring this year when one of our senior 
executives was reviewing evidence we obtained pursuant to a court-
ordered search and seizure warrant that had been issued by a 
Philippines court. We found ourselves in the Philippine courts because 
of another huge problem facing technology companies located in the 
U.S.-mass offshore theft of intellectual property. Specifically, our 
investigation of the theft of CoStar's intellectual property by 
Xceligent, Inc., a company based in Missouri, led us to Xceligent's 
offshore agent located in a remote town in the Philippines.
    When we began reviewing the evidence seized from the Philippines, 
we expected to find evidence of infringement of our copyrighted 
commercial real estate photos and theft of CoStar content from our 
websites (and we did); but what we did not expect to find was what we 
believed to be child pornography and sex trafficking ads mixed in with 
that evidence. We called the FBI immediately, thinking we had uncovered 
a Filipino sex ring. The FBI advised us that we needed to segregate any 
image that could be child pornography. We then discovered the name 
``Backpage'' occurring at a very high rate in the data, but we had no 
idea who or what Backpage was. When we Googled the company, up popped I 
AM JANE DOE and the U.S. Senate Investigation into online trafficking. 
We learned this was not a Filipino sex ring, but instead a U.S. 
company, Backpage, that was also using the same offshore agent in the 
Philippines as Xceligent.
    We were subpoenaed by attorneys representing victims in civil cases 
against Backpage, as well as by various states' attorneys general. We 
were glad to provide whatever assistance that we could because we could 
not forget what we had seen.
    As a technology company, we believe in, and have benefited from, 
the growth of the Internet. We understand that an unregulated Internet 
provides fertile ground for the development of important new and 
innovative business models, and we will continue to strongly defend 
that openness. But when we see those driven by greed take advantage of 
that freedom by facilitating underage sex trafficking, we cannot be 
silent.
    The absolute immunity under section 230 of the CDA can no longer be 
justified at the expense of the exploitation of children. We believe 
that SESTA is a thoughtful, narrowly tailored remedy, and is long 
overdue.
    Thank you for the work you are doing and your commitment to this 
issue. We at CoStar stand with you.
            Kind regards,
                                             Andy Florance,
                                                               CEO,
                                                     CoStar Group, Inc.
                                 ______
                                 
                                                     Oracle
                                                  September 5, 2017

Hon. Rob Portman,
U.S. Senate,
Washington, DC.
Hon. Richard Blumenthal,
U.S. Senate,
Washington, DC.

Dear Senators Portman and Blumenthal,

    I am writing to offer Oracle's strong endorsement of your bill, S. 
1693, the Stop Enabling Sex Traffickers Act of 2017.
    We commend your leadership on this issue. As your and other 
investigations have demonstrated, sex trafficking has exploded in large 
part due to nefarious Internet actors that knowingly facilitate and 
profit from it. We agree that congressional action is necessary to put 
an end to this tragic exploitation of human beings and hold its online 
accomplices to account.
    We appreciate that, in keeping with your respective strong track 
records of supporting the growth of the Internet and information 
technology industry, you have worked hard to craft a thoughtful bill to 
hold bad actors liable.
    The fact is that technological capabilities that are available 
today are light years away from those that existed in 1996, when the 
commercial Internet was just beginning. Back then, Internet startups 
would be launched with little to no ability to review and monitor the 
content they hosted. More importantly, sex trafficking and other 
heinous crimes had not begun to proliferate on the Internet. 
Nonetheless, we are 100 percent confident that a Portman/Blumenthal 
amendment--identical to S. 1693--offered to the Communications Decency 
Act in 1996 would have passed the Senate overwhelmingly and the 
Internet would have enjoyed the same exponential growth and innovation 
over the past twenty one years. Frankly we are stunned you must even 
have this debate.
    Today, the state of technology is far different than it was in 
1996. Any start-up has access to low cost and virtually unlimited 
computing power and to advanced analytics, artificial intelligence and 
filtering software. That capability is also offered as a service in the 
cloud. The business success of Internet and mobile computing platforms 
depends on their ability to precisely analyze, arrange and segment 
applications, data and content, to accurately target them at their most 
relevant audiences--along with advertising, of course--not to blindly 
run platforms with no control of the content.
    Your legislation does not, as suggested by the bill's opponents, 
usher the end of the Internet. If enacted, it will establish some 
measure of accountability for those that cynically sell advertising but 
are unprepared to help curtail sex trafficking.
    We look forward to working with you to advance your bill.
            Sincerely,
                                             Kenneth Glueck
                          Senior Vice President, Office of the CEO.
                                 ______
                                 
      National Association of Pediatric Nurse Practitioners
                                   New York, NY, September 14, 2017

Hon. Rob Portman,
United States Senate,
Washington, DC.
Hon. Richard Blumenthal,
United States Senate,
Washington, DC.

Dear Senators Portman and Blumenthal:

    On behalf of more than 8,500 pediatric nurse practitioners and 
fellow pediatric-focused advanced practice registered nurses committed 
to providing optimal health care to children, the National Association 
of Pediatric Nurse Practitioners (NAPNAP) applauds your leadership in 
introducing the ``Stop Enabling Sex Traffickers Act of 2017'' (S. 
1693). NAPNAP and its members support this important legislation and 
your efforts to ensure that the websites that facilitate sex 
trafficking, particularly those targeting children, can be held liable 
for their actions under Section 230 of the Communications Decency Act 
and enable victims to seek justice against the website that aid the 
perpetrators of crimes against them.
    As you know, advanced practice registered nurses (APRNs) who 
concentrate on children's care, including pediatric nurse practitioners 
(PNPs), are critically aware of the importance of stable, affordable 
health coverage in ensuring that families and their children receive 
the timely health care they need. Practicing in primary care, 
specialty, and acute care settings, APRNs dedicated to pediatric care 
have provided quality health care to children and families for more 
than 40 years in an extensive range of community practice settings such 
as pediatric offices, schools, and hospitals--reaching millions of 
patients each year.
    NAPNAP and its members share your concern about the critical 
problem of human trafficking, particularly of children and adolescents. 
As you are aware, human trafficking is the third largest international 
crime industry (behind illegal drugs and arms trafficking), reportedly 
generating profits of $32 billion every year, of which $15.5 billion is 
made in industrialized countries. The U.S. State Department reports 
that 600,000 to 800,000 people are trafficked across international 
borders every year--of which 80 percent are female and half are 
children.
    NAPNAP is committed to improving provider awareness of the 
trafficking of children, and we have been directly involved in 
educating our members to recognize and provide appropriate treatment 
and referral for victims. Based on discussions with the Department of 
Health and Human Services' Office of Trafficking in Persons in the 
Administration for Children and Families, NAPNAP intends to initiate an 
online course to educate APRNs, registered nurses, physicians, 
physician assistants and other health care providers about the problem 
of child trafficking, including how to identify victims in emergency 
departments, primary care, and other practice settings. A planned 
second course will provide similar resources for a broad array of 
stakeholders including school administrators, teachers, social workers, 
law enforcement, faith-based, and transportation workers. NAPNAP will 
work in collaboration with other stakeholder groups to ensure 
comprehensive and appropriate content and consistent protocols for 
identification, response and referral. In addition, we plan to conduct 
train-the-trainer events for both the healthcare-focused course and 
multi-stakeholder course to enable NAPNAP members and other 
professionals to go back to their communities and chapters and train 
their peers.
    Your legislation will help to ensure justice for children who are 
victims of sex trafficking and clarify the remedies available to state 
Attorneys General and civil attorneys to assist victims and their 
families in holding responsible everyone who participated in their 
trafficking. As you know, there is growing evidence that traffickers 
are expanding their online operations to take advantage of existing 
gaps in statutes by knowingly creating or hosting content and actively 
engaging in conduct that makes it easier for traffickers to facilitate 
the sale of minors and adults victimized by sex trafficking. The ``Stop 
Enabling Sex Traffickers Act'' will take important steps to close those 
loopholes and support the survivors of sex trafficking.
    Again, NAPNAP is grateful to you for your leadership in taking 
action to address the critical problem of child sex trafficking and 
provide justice for children and their families who are victimized by 
sex traffickers. We are pleased to support the ``Stop Enabling Sex 
Traffickers Act of 2017'' (S. 1693) and look forward to working with 
you to see it enacted into law as quickly as possible.
            Sincerely,
              Tresa E. Zielinski, DNP, RN, APN-NP, CPNP-PC,
                                                         President.
                                 ______
                                 
         State of Connecticut, Division of Criminal Justice
                                                 September 15, 2017

U.S. Senator Richard Blumenthal,
Members of the United States Senate and House of Representatives,
Washington, DC.

Dear Senator Blumenthal and members of Congress,

    I respectfully request that you take the necessary action to amend 
Section 230 of the Communications Act of 1934 (47 U.S.C. 230) by 
passing the ``Stop Enabling Sex Traffickers Act of 2017.'' Various 
State and Federal Judicial authorities have upheld the protections 
afforded commercial advertisers under Section 230 of the Code as it 
relates to escort services, dating platforms and other locations where 
children and adults can be bought and sold for sexual purposes. The 
courts have repeatedly stated that, ``It is up to Congress to change 
the laws.'' The courts' strict Constitutional interpretation of Section 
230 squarely puts the responsibility on lawmakers to fix the antiquated 
provisions of a law designed to promote free market business with a 
newly developed technology, such as the Internet and other advanced 
marketing forums. Recognizing that certain people cloaked in a 
constitutionally protected medium, routinely use modem electronic 
technology to exploit vulnerable members of our community, requires 
Congress to act to protect children and adults alike who are subjected 
to the horrors of human sex slavery.
    I am a prosecutor with the New Haven, Connecticut State's 
Attorney's Office and the lead prosecutor with the joint Federal and 
State Human Trafficking Task Force. I coordinate joint prosecutions to 
hold offenders accountable for violations of human trafficking laws 
where groups and individuals use various websites to buy and sell 
children and adults for sexual purposes. Backpage.com is one such 
business and I have followed the legal battles involving them for a 
number of years. Inevitably the courts have upheld the protections 
afforded under Section 230 supporting Backpages's defense. My argument 
to you, members of Congress, is the following: Even if the courts were 
successful in prohibiting ONE company like Backpage.com from 
advertising, there are literally thousands of other companies already 
performing the same service. Millions of dollars have already been 
wasted on lawsuits going after the actions of one company. Piecemeal 
efforts are and will be ineffective in solving the problem of sex 
advertising. Amending the antiquated protections of the Section 230 law 
is a far better solution to tightening the loop hole these companies 
slip through to continue making record profits at the expense of an 
extremely vulnerable population.
    Human trafficking businesses have flourished under the cover of 
darkness (using the internet), whether for labor purposes or sexual 
gratification. Technology has afforded those willing to exploit other 
human beings for profit without conscience at a record pace. The data 
suggests that a trafficker can make more money selling another person 
for sex than selling illegal drug or weapons without detection from law 
enforcement groups. The greatest tool traffickers have at their 
disposal is the online advertising capability. It is time to deprive 
traffickers and those that profit from the illegal sale of people by 
eliminating the protections which are presently afforded by the 
Constitutional guarantees under Section 230.
    In closing, I genuinely thank you from a personal and professional 
perspective for taking the time to read this letter as you debate 
whether to take the courageous step in changing a law that has been in 
effect for decades. One need only see the irreparable damage to one 
human being, firsthand, to recognize that the proposed changes are far 
overdue to help children and young adults from a life of modern 
slavery. Please feel free to contact me if you have any questions 
related to this request at (203) 789-7801 or via e-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bcdeced5ddd292cfd5ded0d9c5fcdfc892dbd3ca92">[email&#160;protected]</a>
            Respectfully submitted,
                                      Brian K. Sibley, Sr.,
                                   Senior Assistant State Attorney,
                                   New Haven State's Attorney's Office.
                                 ______
                                 
                       American Hotel & Lodging Association
                                                 September 18, 2017

Hon. Richard Blumenthal,
United States Senate,
Washington, DC.

Dear Senator Blumenthal,

    We write today to applaud your determined effort to fight human 
trafficking and to endorse your legislation, the Stop Enabling Sex 
Traffickers Act of 2017, which would go a long way toward cracking down 
on the use of the Internet by human traffickers to further their 
reprehensible crimes.
    The American Hotel & Lodging Association (AHLA) is the singular 
voice representing every segment of the hotel industry including major 
chains, independent hotels, management companies, franchisees, REIT's, 
and bed and breakfasts. Our industry recognizes the vital role that 
hotels can play in the battle against human trafficking networks and 
are committed to fulfilling this responsibility. Our focus in 
confronting trafficking has been to raise awareness within the 
industry, train hotel employees, and support non-profit organizations, 
policymakers, and law enforcement in their efforts to combat these 
terrible crimes.
    For example, AHLA funded and developed an online training program 
specifically geared toward hotel employees in partnership with ECPAT-
USA and Polaris. The program teaches hotel workers to recognize signs 
of trafficking and report suspicious activities to law enforcement. 
AHLA also issued hotel industry principles on human trafficking to 
provide guideposts for our member companies and further raise awareness 
in the industry.
    We are continually seeking more effective ways to contribute to 
society's campaign against trafficking, whether in coordination with 
organizations like the National District Attorneys Association, or 
government agencies like the Department of Homeland Security, or other 
entities within the travel and tourism sector. Your legislation is a 
crucial step forward in this campaign, and we are proud to support it. 
We cannot allow traffickers to conduct their operations on the Internet 
with impunity and your bill is an important step forward. Please let us 
know how we can be of assistance in your quest to eradicate human 
trafficking.
            Sincerely,
                                           Vanessa Sinders,
                                             Senior Vice President.
                                 ______
                                 
          Union of Orthodox Jewish Congregations of America
                                 Washington, DC, September 18, 2017

Hon. Rob Portman,
Hon. Richard Blumenthal,
United States Senate,
Washington, DC.

Dear Senators Portman and Blumenthal:

    We are writing on behalf of the Union of Orthodox Jewish 
Congregations of America (``Orthodox Union'')--the nation's largest 
Orthodox Jewish umbrella organization--to express support for S. 1693, 
the ``Stop Enabling Sex Traffickers Act of 2017.''
    Like so many Americans, we are deeply concerned about the scourge 
of human sex trafficking. We also support a justice system that 
protects the most basic human rights, including the ability of victims 
to seek justice against those who have wronged them. S. 1693 will allow 
victims of sex trafficking on the Internet to seek justice against 
those that promote and facilitate such trafficking. This legislation is 
narrowly tailored to correct the loopholes inadvertently contained in 
the Communications Decency Act of 1996 that provide a safe harbor for 
Internet traffickers.
    The Orthodox Union supports your legislation to amend the 
Communications Decency Act of 1996 to ensure that victims of human sex 
trafficking are included in this protection and able to seek the 
justice they deserve.
            Sincerely,
                                            Nathan Diament,
                                                Executive Director.
                                             Jerry Wolasky,
                                                Chairman, Advocacy.
                                 ______
                                 
                                 Hewlett Packard Enterprise
                               St. Palo Alto, CA, 18 September 2017

Hon. Rob Portman,
United States Senate,
Washington, DC.

Hon. Richard Blumenthal,
United States Senate,
Washington, DC.

Dear Senators Portman and Blumenthal:

    On behalf of Hewlett Packard Enterprise, I am writing to express 
our support for S. 1693, the Stop Enabling Sex Traffickers Act of 2017. 
Your legislation will help bring justice to victims and their families 
and protect vulnerable women and children.
    As an industry-leading, global technology company that has long 
taken a stand against forced labor and human trafficking, and has made 
it a priority to protect and elevate vulnerable worker groups, we 
believe the technology sector has a responsibility to help policymakers 
and law enforcement combat illicit and criminal activity on the 
internet, especially sex trafficking.
    Hewlett Packard Enterprise views engagement with stakeholders and 
public advocacy as integral aspects of its overall strategy to address 
the risks of forced labor and human trafficking. We often share our 
experiences and the challenges associated with combatting these issues 
in our supply chain at conferences and other public forums. The goal is 
to raise awareness, help other companies build an internal business 
case for action on trafficking, and advance wider stakeholder dialogue 
about how we can collaborate on meaningful actions.
    To that end, please let me know how my team and I can be of 
assistance as you seek consensus to move this important legislation 
forward.
    Thank you for your leadership, and we stand ready to work with you 
and your colleagues to enact this important bill.
            Sincerely,
                                           John F. Schultz,
                         Executive Vice President, General Counsel 
                                           and Corporate Secretary.
                                 ______
                                 
                                    The Walt Disney Company
                                 Washington, DC, September 18, 2017

Hon. Rob Portman,
United States Senate,
Washington, DC.
Hon. Richard Blumenthal,
United States Senate,
Washington, DC.

Dear Senator Portman and Senator Blumenthal:

    I am writing to express the strong support of The Walt Disney 
Company for S. 1693, the Stop Enabling Sex Traffickers Act of 2017 
(SESTA).
    Disney is a diversified entertainment company and one of the most 
prominent faces of the American content industry. We are a company 
whose business is firmly rooted in creativity, expression and 
innovation. As technology has evolved, so too has our business, with 
each of our segments invested in a significant online and interactive 
media presence. As such, we are steadfast defenders of the principles 
of freedom of speech and of the press, and we are both beneficiaries of 
and advocates for the liability protections afforded by the 
Communications Decency Act (CDA). But we also recognize that the public 
has a strong interest in an Internet that is open, secure, and 
protective of the rights of individuals. In the end, the public's 
legitimate expectation of responsible stewardship and accountability by 
those who make the Internet their business is no less appropriate in 
the online space than it is in the offline world.
    Recognizing the importance of the CDA's protection to online 
platforms, including Disney, it is hard to imagine that the Congress 
that crafted this protection intended it to operate as a shield against 
liability for the kind of horrific acts that are the target of your 
legislation. The CDA's objective to ``promote the continued development 
of the Internet and other interactive computer services and other 
interactive media'' was and remains an important one to promote 
investment and innovation in online platforms. But that objective 
cannot be so overriding as to require that we shield from liability 
those who knowingly engage in unlawful activity, particularly those who 
knowingly participate in the business of human trafficking. To the 
extent some are claiming that holding such actors accountable 
``jeopardizes bedrock principles of a tree and open internet,'' Disney 
rejects that view.
    Thank for your efforts to pursue a sensible policy in this area--
one that is protective of both the Internet and its continued 
development while providing redress for those who are the victims of 
unimaginably harmful and unlawful conduct. We will be happy to work 
with you as this bill moves forward to ensure the legislation meets its 
targeted objectives and becomes law.
            Sincerely,
                                          Richard M. Bates,
                        Senior Vice President Government Relations.
                                 ______
                                 
                                                 September 18, 2017
Hon. John Thune,
Chairman,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.
Hon. Bill Nelson,
Ranking Member,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune, Ranking Member Nelson, and Members of the 
Committee,

    We are an alliance of survivors of sex trafficking and commercial 
sexual exploitation from all across the country writing to express our 
strong support for S.1693, Stop Enabling Sex Traffickers Act of 2017 
(SESTA). This critical legislation would correct a legal loophole in 
the Communications Decency Act (CDA) that shields websites that 
knowingly facilitate sex trafficking.
    A law originally drafted in 1996, the CDA simply cannot address the 
reality of violent crime on the Internet today. Every day, thousands of 
women and children are marketed online where buyers purchase them with 
ease, anonymity, and impunity. As survivors of sex trafficking and 
commercial sexual exploitation, we know the deep and profound harm 
caused by this crime. Many of us are survivor leaders of organizations 
working to provide safety and healing to others, including American 
children who were bought and sold online. For years, we have tried 
unsuccessfully to hold these websites accountable, but court after 
court has made it clear: Congress must correct the blanket immunity 
provided by CDA.
    This legislation is vital. Stop Enabling Sex Traffickers Act of 
2017 represents an incredible bipartisan effort to seek justice for 
countless survivors who are sold on websites that shamelessly profit 
from our exploitation. As survivors of sexual exploitation and 
trafficking, we ask you to please prioritize the safety and rights of 
our Nation's most vulnerable women and children and pass SESTA to at 
long last, provide us a pathway to justice. As the father of a child 
sex trafficking survivor perfectly stated: ``Children are not 
acceptable collateral damage. They are our hope, our future, America's 
conscience.''
            Sincerely,

1. Trudee E. Able                    2. Nikolaos Al-Khadra
SEY and Youth Outreach Specialist    Survivor Leader, National Survivor
Minneapolis, MN                       Network (NSN)
                                     Los Angeles, CA
 
3. Kimmi Alona                       4. Jason Alva* Advocate
Rebecca Bender Initiative            San Diego, CA
Denver, CO
 
5. Barbara Amaya, PhD                6. Brooke Axtell
Author, Advocate, and Senior         Founder/Director, She is Rising
 Technical Advisor, EPIC (Education  Austin, Texas
 Prevention and Intervention
 Center)
Arlington, VA
 
7. Ann Marie Babb                    8. Heidi Balogh
VP Business Operations, WCWT Center  Milwaukie, OR
Middletown, OH
 
9. Trisha Baptie                     10. Jewell Mikaela Baraka
Community Engagement Coordinator,    Kansas City, MO
 EVE
Vancouver, BC
 
11. Cathy Bauer                      12. Alyssa Beck
Phoenix, AZ                          Advocacy Specialist, Delores Barr
                                      Weaver Policy Center
                                     Jacksonville, FL
 
13. Nicole Bell                      14. Rebecca Bender
Executive Director, Living In        CEO & Founder, Rebecca Bender
 Freedom Together Inc.                Initiative
Worcester, MA                        Grants Pass, OR
 
15. Alisa Bernard                    16. Wendy Berry
Survivor Advocacy Coordinator, The   Survivor/Advocate
 Organization for Prostitution       Fruitland, ID
 Survivors (OPS)
Seattle, WA
 
17. Tammy Bitanga                    18. Ellen Blair
Peer Support Specialist/Community    Knoxville, TN
 Outreach manager, Ho'ola Na Pua
Honolulu, HI
 
19. Jennifer Brooks-Hardy            20. Kathy Bryan
Peer Support Coordinator, Healing    Director of Elevate Academy,
 Action                               National Trainer, Author, Mentor,
St. Louis, MO                         Rebecca Bender Initiative
                                     Heber Springs, AR
 
21. Autumn Burris                    22. Kathleen Campbell
Founding Director, Survivors for     Puxico, MO
 Solutions
Denver, CO
 
23. Vednita Carter                   24. Christine Cesa
Founder, Breaking Free and Vednita   Survivor Leader/Advocate
 Carter Ministries                   Los Angeles, CA
St. Paul, MN
 
25. Maui Chacon                      26. Penny Christopoulos
Survivor Advocate                    Norfolk, VA
Anaheim, CA
 
27. Angie Conn                       28. Amber Copeland
Survivor Leader                      Morgantown, WV
Buffalo, WV
 
29. Laurin Crosson                   30. Jeanine Daley
Founder/Director, Rockstarr.org      Worcester, MA
Salt Lake City, UT
 
31. Ne'cole Daniels                  32. Delores Day
Founding Co-Chair, World Without     Executive Director, Restore
 Exploitation                         Innocence Ranch
Olympia, WA                          Waukesha, WI
 
33. Emily Dickson                    34. Kelly Dore
Empowerment Advocate, Family         Executive Director, Colorado Human
 Assistance Program                   Trafficking Survivor Coalition
San Bernardino, CA                   Denver, CO
 
35. Eva Eakins                       36. Jerome Elam
Hesperia, CA                         President and CEO, Trafficking in
                                      America Task Force
                                     Gainesville, FL
 
37. Amy Engle                        38. Telisia Espinosa
Marriage and Family Therapist,       Be A Voice
 Phoenix Dream Center                Tampa, FL
Phoenix, AZ
 
39. Natasha Falle                    40. Hazel Fasthorse
Co-founder/Director, Sex Trade 101   Case Manager/Advocate, Beloved
Toronto, ON                           Atlanta
                                     Atlanta, GA
 
41. Kailee Favaro                    42. Danielle Trinity Foreman
East Nassau, NY                      Attleboro, MA
 
43. Allison Franklin                 44. Freitag
Houston, TX                          LADC, Director of Action169
                                     Fairmont, MN
 
45. Jessika Fuhrmaneck               46. Noel Gomez
Writer/Speaker/Advocate, Treasures   Advocate, The Organization for
 Ministry                             Prostitution Survivors (OPS)
Nashville, TN                        Seattle, WA
 
47. Danielle Goodwin                 48. Jessica Groghan
Survivor Leader                      Fort Collins, CO
Seattle, WA
 
49. Jennifer H.                      50. Athena Haddon
Group Facilitator, Prevent Child     Port Huron, MI
 Abuse NJ
New Brunswick, NJ
 
51. Kathi Hardy                      52. Denise Harris
Freedom From Exploitation            HSTSI Facilitator And Survivor
San Diego, CA                         Advocate, Convergence Resource
                                      Center
                                     Milwaukee WI
 
53. Marian Hatcher                   54. Keisha Head
Senior Project Manager/Human         Lead Case Manager, Salvation Army
 Trafficking Coordinator, Cook       Conyers, GA
 County Sheriffs Office
Chicago, IL
 
55. Hollerbach                       56. Jolene Hollis
Monroe, WA                           Mentor, Trainer, Case Manager
                                     Long Beach, CA
 
57. Margaret Howard                  58. Corina Hernandez
LCSW                                 Hemet, CA
Saint Louis, MO
 
59. Jeanet T. Ingalls                60. Beth Jacobs
Survivor Advocate, Shout Out Loud    Field Instructor, Truckers Against
 Productions, Inc.                    Trafficking
Lenox, MA                            St. Cloud, MN
 
61. Cherie Jimenez                   62. Jeri Jimenez**
Director, EVA Center                 Co-founder, Survivor 2 Survivor
Boston, MA                           Portland, OR
 
63. Ann Marie Jones                  64. Judith
Peer Mentor, Dawns Place             Beverly Hills, CA
Philadelphia, PA
 
65. Kristine                         66. Kathleen Kruger
Tacoma, WA                           Mount Olive Lutheran Church
                                     Minneapolis, MN
 
67. Jessica Lamb                     68. Judith Latner*
Founder and Director, Atlanta        Buckeye, AZ
 Redemption Ink, Inc.
Atlanta, GA
 
69. Maryann Lennon                   70. Marcela Loaiza
Survivor, Rebecca Bender Initiative  Survivor and Writer, Marcela Loaiza
Palm Bay, FL                          Foundation
                                     Las Vegas, NV
 
71. Jacquelynn Loos                  72. Shawnee Love HHD, PhD**
Peer Support Specialist, REST        Doctor/Advocate/Survivor/Warrior/
Seattle, WA                           Movements Maker, Purple Hearts
                                      Missions Possible & Healthy
                                      Horizons; Native American Warriors
                                      Task Force
                                     The Americas
 
73. Megan Lundstrom                  74. Marti MacGibbon
Executive Director, Free Our Girls   Speaker, Author, Survivor Leader
Greeley, CO                          Sacramento, CA
 
75. Jasmine Grace                    76. Emily Martin
Marino Director, Bags of Hope        Mission 21
Boston, MA                           Rochester, MN
 
77. Jennifer Martin                  78. Courtney Mattinson
Social Media and Events              Marietta, GA
 Coordinator, Rethreaded
Jacksonville, FL
 
79. McKinley                         80. Manon Michaud
Austin, TX                           Activist
                                     Montreal, QC
 
81. Robin Miller                     82. Kathleen Mitchell
Vancouver, BC                        Founder, DIGNITY Programs
                                     Phoenix, AZ
 
83. Jeri Moomaw                      84. Audrey Morrissey
Executive Director, Innovations HTC  Associate Director, My Life My
Olympia, WA                           Choice
                                     Boston, MA
 
85. Emmy Myers                       86. Darlene Pawlik
CEO & Founder, Lacey's Hope Project  Speaker, The Darling Princess
Slinger, WI                          Raymond, NH
 
87. Alexandra (Sandi) Pierce         88. John Price
President, Othayonih Research        Reverend
Saint Paul, MN                       Kansas City, MO
 
89. Sharon Robbins                   90. Dr. Katariina Rosenblatt, PhD
Jubilee Havens                       Founder, There Is Hope For Me, Inc.
Ocean Springs, MS                    Orlando, FL
 
91. Rosseland                        92. Marjorie Saylor
Survivor Mentor, Delores Barr        Founder/Executive Director, The
 Weaver Policy Center                 Well Path
Jacksonville, FL                     Escondido, CA
 
93. Andrea Shields                   94. Carrie Smals
Marceline, MO                        Supervisor of a non-profit
                                      organization for survivors of
                                      human trafficking
                                     Jacksonville, FL
 
95. Tina Smithee                     96. Elle Snow
Caseworker, Catholic Charities       Founder & Board President/Public
Macon, GA                             Speaker, Game Over
                                     Eureka, CA
 
97. Joli Sparkman                    98. Lorena Spencer
RIA house                            Owosso, MI
Millis, MA
 
99. Jen Spry                         100. Cassandra Strom
RN, Being A Voice LLC                Public Relations Director, New Life
Douglassville, PA                     Refuge Ministries
                                     Trophy Club, TX
 
101. Brittani Stugart                102. Carolyn Sunseri
Los Angeles, CA                      McKinleyville, CA
 
103. Shelley Sylvester               104. Kristen Tebow
Madison Heights, MI                  CEO, Founder, Youth Trust Project
                                     Lawrence, KS
 
105. Melanie Thompson                106. Tori Thompson
Survivor Advocate                    Free Our Girls
Queens, NY                           Greeley, CO
 
107. Rosalyn Vasquez                 108. Jeanette Westbrook, MSSW
Survivor Advocate                    Speaker and Advocate, SPACE
Seattle, WA                           International
                                     Louisville, KY
 
109. Pamela A. White                 110. Pamela Willisaa
Shared Hope International            Survivor Leader/Expert
Washington, DC                       Atlanta, GA
 
111. Shandra Woworuntu               112. Erin Wright
Director, Mentari                    Carson City, NV
New York, NY
 
113. Sarah Zalonis
Consultant, Polaris Project
Washington, DC
 
 
* Parent of a child sex trafficking survivor
** Survivor and parent of a child sex trafficking survivor

                                 ______
                                 
 Response to Written Question Submitted by Hon. Catherine Cortez Masto 
                           to Abigail Slater
    Question. We want to be sure Internet platforms are held liable 
when they knowingly assist, support, or facilitate a human trafficking. 
Could you describe your concerns with the amended ``participating in a 
venture'' language and explain what mens rea standard you believe is 
used? How can we clarify that the knowledge standard for secondary 
liability in Section 1591 so that it applies to specific instances of 
illegal conduct?
    Answer. As currently drafted, SESTA would amend the Federal human 
trafficking laws to impose criminal liability on any entity that 
engages in knowing conduct that assists, supports, or facilitates a 
violation of a human-trafficking crime. (Section 4(2)). This standard 
does not work for Internet companies, whose very functions assist, 
support, or facilitate both good and bad activities on the Internet. 
For example, a company that provides access to the Internet knows that 
such access facilitates every activity on the Internet--whether lawful 
or not. To address this concern, SESTA should modify the criminal 
liability standard to tighten the nexus between an Internet company and 
a violation of Sec. 1591. This can be done by limiting liability to an 
entity that has actual knowledge of the conduct in question and 
materially assists in furthering such conduct.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Catherine Cortez Masto 
                            to Eric Goldman
    Question. Do you interpret the current provisions in SESTA as 
wiping out Good Samaritan protections? If so, how can we amend the 
legislation to ensure the proposed changes to the CDA do not override 
Section 230 (c)(2)(A) protections?
    Answer. I appreciate the opportunity to explain Section 230s Good 
Samaritan mechanisms and how SESTA undermines them. The Manager's 
Amendment dated November 3, 2017 attempted to address this issue, but I 
don't think it accomplished its goal.
How Section 230 Currently Protects Good Samaritan Efforts
    I believe Congress wants online services to voluntarily undertake 
efforts to block or remove third party promotions for sex trafficking 
and other illegal or objectionable third party content. I'll call these 
efforts ``content moderation.''
    Content moderation takes a nearly infinite variety of forms. 
Content moderation includes initial decisions to publish or not, as 
well as post-publication decisions to remove or not remove the content. 
Content moderation can be manual or automated, and post-publication 
decisions may be prompted by third party notifications (such as 
takedown requests) or the online service's own diligence or monitoring 
efforts.
    47 U.S.C. Sec. 230(c) is captioned ``Protection for `Good 
Samaritan' blocking and screening of offensive material.'' Both parts 
of Section 230(c) support this goal. Section 230(c)(1) provides an 
immunity for publishing third party content, including both its initial 
decision to publish and any subsequent decision not to remove content. 
I'll call these ``Publication'' decisions. Section 230(c)(2) provides a 
safe harbor for refusing to publish third party content or subsequently 
removing third party content. I'll call these ``Removal'' decisions. 
Between the two subsections, Section 230(c) currently protects the full 
range of content moderation efforts.
How SESTA Undermines Section 230s Good Samaritan Protection
    SESTA enables online services to be sued or prosecuted for sex 
trafficking promotions that third parties publish through their 
service. Online services will be reluctant to undertake content 
moderation efforts if they face liability for any sex trafficking 
promotions that slip through, i.e., if they miss a promotion, review a 
promotion but make a mistake, or take too long to find or remove a 
promotion.
    The Manager's Amendment preserves Section 230(c)(2)'s protection 
for Removal decisions. However, this won't encourage Good Samaritan 
efforts because: (1) online services don't fear being sued or 
prosecuted for what they remove (and such risks usually can be 
ameliorated by the online service's contract with the third party 
users-publishers); (2) Section 230(c)(2)'s ``good faith'' requirement 
undercuts the safe harbor's availability, and it substantially 
increases defense costs because judges may enable wide-ranging 
discovery into defendants' ``good faith''; and (3) online services may 
abandon their content moderation efforts entirely rather than risk 
being charged with knowledge of content they didn't catch.
    Instead, SESTA effectively exposes online services to liability 
only for third party content that they publish online or don't remove 
quickly enough. This means online services principally need immunity 
for their Publication decisions, not their Removal decisions. Section 
230(c)(1)--not (c)(2)--provides the applicable immunity for content 
Publication. Thus, by curtailing Section 230(c)(1), SESTA removes the 
primary protection that online services rely upon when doing Good 
Samaritan content moderation against sex trafficking promotions (and 
all other objectionable content).
Proposed Language to Incorporate Good Samaritan Protections into SESTA
    If Congress wants to ensure that online services continue to combat 
sex trafficking promotions, I recommend saying so explicitly. To do 
this, I propose SESTA add a new Section 230(g) to make it clear that 
Good Samaritan efforts should not be punished:

        The fact that a provider or user of an interactive computer 
        service has undertaken any efforts (including monitoring and 
        filtering) to identify, restrict access to, or remove, material 
        it considers objectionable shall not be considered in 
        determining its liability for any material that it has not 
        removed or restricted access to.

    Alternatively, with some wording changes, this language could be 
incorporated into Section 230(c)(2)(A).
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                         to Hon. Xavier Becerra
    Question 1. Mr. Goldman and Ms. Slater argue that creating these 
exemptions to the CDAs will have a chilling effect on the web platforms 
that are monitoring their websites and pulling down these ads, because 
they argue they could be held liable for knowing the content is there. 
What is your response to this and how would law enforcement respond if 
these platforms stopped monitoring their sites altogether?
    Answer. There is undoubtedly a vigorous societal interest in free 
speech. But that does not require States to turn a blind eye to 
commercial entities that intentionally and knowingly facilitate and 
profit from egregious criminal conduct. It is also important to protect 
Internet platforms, which are important both to the economy and in the 
lives of everyday Americans, from the sort of private litigation that 
Congress feared in passing the original Communications Decency Act 
(CDA). But the more expansive judicial decisions that we are concerned 
with have gone further than that, and I believe that legislation will 
help to restore the balance that Congress intended.
    As to whether Internet companies will reduce their cooperation with 
law enforcement due to such legislation, I would find it surprising if 
responsible American companies would knowingly place children at risk 
by turning a blind eye towards the sex trafficking of vulnerable 
minors. A few irresponsible companies already do so, of course--and 
that is the problem this legislation aims to give us tools to fight. 
Human trafficking cannot be the cost of doing business.

    Question 2. As a former Member of Congress and now as Attorney 
General, you have seen this issue from both sides. As we know, there 
was no way of predicting in 1996 that sites could serve at the hub for 
soliciting and facilitating human trafficking. Do you believe Congress 
intended with Section 230 to provide vast protections to those who 
knowingly facilitate human trafficking? Under what circumstances do you 
believe it is appropriate for Congress to revisit the laws it has 
passed?
    Answer. In my 24 years in Congress, there were instances where we 
revisited laws for one good reason or another--sometimes because a law 
was dated or because the underlying statute as written resulted in some 
conflict or unintended consequence. Indeed, to keep our policies 
current with the times, numerous major laws require reauthorization 
every few years.
    These admonitions are apt in this instance involving the 
Communications Decency Act. No one in Congress (and I was a member of 
the House of Representatives at the time) intended the CDA to be used 
as a shield by human traffickers, nor do I believe that Congress 
intended under the CDA to interfere with Federal or state criminal 
prosecutions of child sex trafficking.
    Nevertheless, there is now a court ruling that speaks directly to 
the conflicts/unintended consequences in the application of the CDA and 
the need for Congress to amend it to make it clear:

        ``If and until Congress sees fit to amend the immunity law, the 
        broad reach of section 230 of the Communications Decency Act 
        even applies to those alleged to support the exploitation of 
        others by human trafficking.'' \1\
---------------------------------------------------------------------------
    \1\ People v. Ferrer, 16FE024013 (Cal. Superior Ct. Aug. 23, 2017)

    The original CDA clearly exempts any Federal criminal prosecution 
from its prohibitions. I believe the law also intended to exempt state 
criminal prosecutions, but many lower courts, unfortunately, have not 
agreed. The CDA is about protecting Internet service providers from a 
proliferation of private civil actions; it should be limited to that 
and not interfere with state or Federal criminal prosecutions.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                           to Yiota G. Souras
    Question 1. Some of the tech companies have argued that there is 
already a Federal law, the SAVE Act, that can be used to prosecute 
pimps who post sex trafficking ads and the online platforms who host 
the ads. However, there has yet to be any Federal prosecution of 
Backpage. I understand the SAVE Act assigned the higher ``knowledge'' 
standard to advertising sex trafficking. What impediments do you think 
Federal prosecutors might face in bringing these cases?
    Answer. Background to SAVE Act
    Based on NCMEC's years of experience as the Nation's clearinghouse 
on issues relating to missing and exploited children, we are aware that 
child sex trafficking is a multi-faceted issue that requires an array 
of legal tools to prevent and combat this horrible crime. The SAVE Act, 
which was enacted as part of the Justice for Victims of Trafficking Act 
of 2015, amended 18 U.S.C. Sec. 1591(a)(1) (the ``TVPRA'') which 
addresses sex trafficking violations and added advertising as a type of 
conduct that is criminal. Specifically, the SAVE Act criminalizes the 
knowing advertising of a person where the advertiser knew the person 
was under the age of 18 years old or force, threats of force, fraud, or 
coercion were utilized in trafficking the person.
    On December 11, 2015, almost immediately after the SAVE Act was 
enacted, Backpage.com, LLC (``Backpage'') sued the Department of 
Justice in the District Court for the District of Columbia challenging 
the constitutionality of the SAVE Act. This litigation was dismissed on 
October 24, 2016, with the court ruling that Backpage lacked standing 
and the court lacked subject matter jurisdiction to decide the case on 
its merits.
    Given that the litigation challenging the constitutionality of the 
SAVE Act was resolved just over a year ago, it is not surprising that 
there have been no Federal prosecutions of Backpage utilizing this new 
legal option to date. Complex Federal prosecutions, especially of large 
scale sex trafficking operations, take substantial time and resources 
to develop and initiate. It simply is too soon to determine whether the 
SAVE Act, as some have argued, provides a more viable means for Federal 
prosecutors to bring suit against online facilitators of sex 
trafficking, such as Backpage.
    While the SAVE Act did add advertising as a predicate act for sex 
trafficking within the confines of the TVPRA, Federal prosecutors have 
always been exempt from the barriers of the Communications Decency Act 
(``CDA'') that apply to other forms of legal actions against online 
companies such as Backpage. This fact highlights that the SAVE Act, 
while potentially providing an additional legal avenue for Federal 
prosecutors, is insufficient, standing alone, to combat online sex 
trafficking.
    Additionally, Backpage has disclosed that it faces an ongoing 
Federal investigation, and there have been various public accounts 
since then referring to this Federal investigation. Any prosecution 
that arises from this investigation may rely on the SAVE Act, but it is 
simply too early to know if, or how, Federal prosecutors will seek to 
utilize the SAVE Act against a website like Backpage.
Potential Impediments for Federal Prosecutors Regarding the SAVE Act
    One potential impediment that Federal prosecutors face in any 
trafficking case involving the TVPRA is the ``knowing'' mens rea 
standard embedded throughout the statute. The impact of this standard 
is not unique to the SAVE Act, however it is likely a consideration for 
Federal prosecutors as they evaluate potential legal options to utilize 
against facilitators of online sex trafficking. As noted by California 
Attorney General Becerra in his testimony before the Senate Commerce 
Committee, fulfilling the ``knowing'' mens rea standard is a high 
barrier for prosecutors to establish in any trafficking case.
SAVE Act Alone is Insufficient to Combat Online Sex Trafficking
    While the SAVE Act potentially provides another legal tool for 
Federal prosecutors to use against websites like Backpage, it does not 
address the most significant impediment they face, namely the lack of 
state criminal and civil legal support in the fight against online sex 
trafficking. The volume of websites currently facilitating sex 
trafficking requires that a wide range of legal resources, in addition 
to Federal prosecution, be used to combat this crime.
    As noted above, Federal prosecutors have always faced lower 
barriers to pursuing criminal cases against websites like Backpage 
because Federal criminal laws are specifically exempted from the CDA. 
While it might have been reasonable in 1996, when Congress passed the 
CDA, to anticipate that the Department of Justice could manage all 
crime on the Internet, that is an unrealistic expectation in today's 
world. Twenty-one years later, the volume and complexity of online 
commercial transactions (and the corresponding rise in online criminal 
activity) makes it unrealistic to assume that a single Federal agency 
can manage all prosecutions of online crimes.
    The problem, even as it relates solely to child sex trafficking, is 
simply too big to address only from a Federal criminal perspective. 
Over the past five years, NCMEC has received an average of 9,800 
reports relating to child sex trafficking annually. Of these reports, 
81 percent are related to the trafficking of a child on the Internet. 
This problem afflicts every city and state across the country. While 
these numbers are substantial, because there is no statutory 
requirement to report the trafficking of a child to NCMEC and due to 
the complexities in defining these crimes, we believe our report 
numbers are just a small representation of the number of children being 
trafficked online.
    Given the pervasive, national scope of child sex trafficking 
online, Federal prosecutors cannot be expected to combat this issue 
alone. States and civil attorneys must be part of the solution. The 
impact of online trafficking at a state and local level is well-known, 
and it is not feasible to continue to deprive state attorneys general 
of the ability to prosecute trafficking crimes affecting their 
communities simply because perpetrators are online entities. The 
joining of state prosecutorial resources from across the country to 
combatting online sex trafficking will ease one of the more substantive 
impediments that currently exists in fighting this crime.
    Additionally, the rights of trafficking survivors to work with 
civil attorneys in exercising their private right of action against 
those who trafficked them in violation of the TVPRA (18 U.S.C. 
Sec. 1595), also provides an essential tool in combatting online sex 
trafficking. In 2003, Congress took the step of providing a private 
right of action in the criminal code for sex trafficking victims to 
pursue recourse in a civil action against those who participated in 
their trafficking \2\. This private right of action is significant 
because Congress does not always provide crime victims with such a 
right as part of the criminal code. At the present time, this statutory 
private right of action has been held to be barred by the CDA by a 
recent appellate court decision, and therefore civil recourse by 
trafficking survivors is all but thwarted when their trafficker is an 
online entity. Legislative clarity regarding the ability of trafficking 
survivors to pursue their civil private right of action should enable 
civil attorneys to pursue legal actions against online traffickers, 
develop valuable factual discovery, isolate trends in websites 
facilitating online sex trafficking, and identify and support 
trafficking victims. These actions also provide valuable underlying 
support for Federal prosecutors.
---------------------------------------------------------------------------
    \2\ A private right of action arising from criminal violations has 
been granted by Congress in certain instances both to strengthen the 
impact of criminal laws and to provide civil recourse for victim 
compensation (e.g., the Anti-Terrorism Act (18 U.S.C. Sec. 2333(a); 
Child Pornography Prevention Act (18 U.S.C. Sec. 2252A; Computer Fraud 
and Abuse Act (18 U.S.C. Sec. 1836(b)(1)).
---------------------------------------------------------------------------
    As noted above, NCMEC's experience has shown that combatting child 
sex trafficking requires the marshalling of numerous resources, legal 
tools, and avenues of recovery support for trafficking survivors. 
Recent case law has shown that courts are narrowly interpreting the CDA 
to preclude state attorneys general and civil attorneys from joining 
efforts to combat online sex trafficking. While the enactment of the 
SAVE Act provides another tool for Federal prosecutors, which may prove 
valuable in future Federal prosecutions, it does not address a crucial 
underlying impediment for Federal prosecutors, namely the preclusion of 
state criminal and civil legal remedies to provide additional resources 
to combat the volume of websites facilitating and supporting online sex 
trafficking.
    SESTA is a crucial step in the multifaceted approach needed to 
combat this horrible crime online. Not only will it provide additional 
resources to support the efforts of Federal prosecutors by enabling 
state attorneys general and civil attorneys to join this fight against 
online sex trafficking, but it also provides renewed support for 
survivors in their access to justice.

    Question 2. Much of the discussion around this issue has focused on 
one website, Backpage.com. We know there are other bad actors online 
that also knowingly facilitate sex trafficking. To what extent do you 
believe this legislation will address the universe of Internet Service 
Providers that knowingly engage and profit of these crimes?
    Answer. The investigation of Backpage, undertaken in 2015 by the 
Senate Permanent Subcommittee on Investigations (``PSI''), was the 
catalyst for the introduction of the Stop Enabling Sex Traffickers Act 
of 2017 (``SESTA''). However, SESTA is not a ``Backpage bill,'' and it 
will have an impact, far beyond Backpage, in helping to deter, hinder, 
and enable prosecution against other websites that seek to facilitate 
the trafficking of children online.
    Backpage has been recognized as one of the largest facilitators of 
sex trafficking ads online. Based on NCMEC's experience, it also is the 
focus of activity relating to child sex trafficking ads. Of child sex 
trafficking reports submitted to NCMEC by members of the public, 73 
percent relate to ads on Backpage.
    While NCMEC handles large volumes of child sex trafficking reports 
relating to Backpage, we are aware that there are many other websites 
on which children are trafficked for sex. Because Backpage occupies 
such an outsized portion of the online market for sex trafficking, it 
is not surprising that it is the focus of discussion relating to this 
crime or that the secondary marketplace below Backpage is occupied by 
numerous smaller websites, most of which are not currently part of the 
active public dialogue around sex trafficking websites. It is 
anticipated that this will alter quickly if Backpage is removed from 
the active marketplace for online sex trafficking.
    Backpage has established that online sex trafficking is a wildly 
lucrative criminal enterprise and, thus far, legally protected. In 
other words, Backpage has shown other criminal elements online that 
facilitating online sex trafficking is a ``low risk and high profit'' 
operation. Given the commercial potential of this activity, if Backpage 
is removed, children will continue to be trafficked online because 
other companies will compete to fill the void Backpage would leave 
behind.
    SESTA is designed to address these other sites that will fill the 
void after Backpage and sites that will develop in the future by 
enabling increased prosecutorial options and civil access to justice 
and strengthening existing deterrence mechanisms and barriers to entry 
into this illegal marketplace. SESTA's clarification regarding the CDA 
and the TVPRA provides prosecutors and civil attorneys with a mechanism 
to establish liability for any website that knowingly assists, supports 
or facilitates sex trafficking. SESTA may be known as a ``Backpage 
bill'' out of semantic convenience--because Backpage is the website 
that crystallized our awareness of this crime and the courts' lack of 
direction regarding how to deal with this crime--however, NCMEC is 
aware that the clarifications and structure of SESTA can be equally 
well-applied to many other websites that are facilitating the 
trafficking of children for sex online.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
